OFFICE OF INSPECTOR GENERAL




   Semiannual Report to Congress
    October 1, 2001 -- March 31, 2002
                                               FOREWORD




I am pleased to submit the semiannual report on the activities of the Department of
Veterans Affairs (VA), Office of Inspector General (OIG) for the period ended March 31,
2002. The OIG is dedicated to helping ensure that veterans and their families receive
the care, support, and recognition they have earned through service to our country.
This report is issued in accordance with the provisions of the Inspector General Act of
1978, as amended.

OIG oversight of major VA programs resulted in systemic improvements and increased
efficiencies in areas of medical care, benefits administration, procurement, financial
management, information technology, and facilities management. OIG audits,
investigations, and other reviews identified $579.9 million in monetary benefits, for an
OIG return on investment of $20 for every dollar expended.

Our criminal investigators concluded over 350 investigations involving fraud or other
criminal conduct in VA’s programs or operations. During the semiannual period, special
agents effected 215 arrests, and investigations led to almost $15 million in monetary
benefits to VA (recoveries or savings).

During this period and in the wake of the September 11, 2001, terrorist attacks on the
United States, the Office of Investigations committed significant resources to our
Nation’s response to this tragedy. Special agents worked on a rotating basis alongside
other Federal and local law enforcement teams searching for victim remains, and
collecting and cataloging evidence, personal effects, and other items from the World
Trade Center disaster. Special agents were detailed to the FBI to assist in investigative
activities. Additionally, we detailed members of our law enforcement staff to the U.S. Air
Marshal Program.

Our audit oversight of VA, the second largest Department in the Federal Government,
focused on determining how programs can work better, while improving service to
veterans and their families. For example, at the request of the Secretary of Veterans
Affairs, the OIG conducted a special review of large Compensation and Pension (C&P)
one-time payments processed by VA regional offices (VAROs). The Secretary
requested this review in September 2001 following the discovery that a VARO Atlanta,
GA employee had bypassed controls and generated about $11.2 million in fraudulent
compensation payments. Our review found that most one-time payments were valid.
However, our review found unacceptably high rates of noncompliance with internal
control requirements related to one-time payments of C&P claims. Also, a review of
Medical Care Collection Fund (MCCF) collection and billing practices concluded that
the Veterans Health Administration (VHA) could have increased collections by about
$135 million (24 percent) in Fiscal Year 2000. Our audits of VA’s Consolidated
Financial Statements and implementation of the Government Information Security
Reform Act found that information security controls needed improvement and programs
and sensitive data were vulnerable to destruction, manipulation, and inappropriate
disclosure.

Our healthcare inspections focus on quality of care issues in VA, which operates the
largest health care system in the United States. In the wake of the September 11, 2001
terrorist attacks, and growing concerns of anthrax discovered in the U.S. postal system,
the Secretary of Veterans Affairs requested the OIG conduct an inspection of the
adequacy of security and inventory controls over selected biological, chemical, and
radioactive agents owned by or controlled at VA. Our inspection found significant
vulnerabilities in high-risk security areas in research and clinical laboratories and
pharmacies. We also conducted a focused review of VHA’s compliance programs and
coding accuracy at selected VHA medical facilities. VA’s 50 percent error rate for
coding outpatient visits is notably higher than the Health Care Finance Administration’s
average of 30 percent, and greatly impacts the amount of third-party reimbursements
VA receives. Healthcare inspectors continued visits to facilities in response to
Congressional and other special requests, and we inspected patient allegations
pertaining to quality of care issues received by the OIG Hotline.

The OIG’s ongoing Combined Assessment Program (CAP) evaluates the quality,
efficiency, and effectiveness of VA facilities. Through this program, auditors,
investigators, and healthcare inspectors collaborate to assess key operations and
programs at VA medical centers (VAMCs) and VAROs on a cyclical basis. The CAP
reviews completed during this 6-month reporting period highlighted numerous
opportunities for improvement in quality of care, management controls, and fraud
prevention. I am committed to extending this program to enable more frequent
oversight of VA activities.

I look forward to continued partnership with the Secretary and the Congress in pursuit
of world class service for our Nation’s veterans.




RICHARD J. GRIFFIN
Inspector General
                                                    TABLE OF CONTENTS


                                                                                                                                                      Page

HIGHLIGHTS OF OIG OPERATIONS .................................................................................................                          i

VA AND OIG MISSION, ORGANIZATION, AND RESOURCES ..........................................................                                              1

COMBINED ASSESSMENT PROGRAM .............................................................................................                               7

OFFICE OF INVESTIGATIONS

     Mission Statement ......................................................................................................................          13

     Resources ..................................................................................................................................      13

     Criminal Investigations ..............................................................................................................            13

             Veterans Health Administration .....................................................................................                      14

             Veterans Benefits Administration ..................................................................................                       18

             Fugitive Felon Initiative .................................................................................................               22

             OIG Forensic Documents Laboratory ............................................................................                            22

     Administrative Investigations .....................................................................................................               23

             Veterans Health Administration .....................................................................................                      24

OFFICE OF AUDIT

     Mission Statement ......................................................................................................................          25

     Resources ..................................................................................................................................      25

     Overall Performance ..................................................................................................................            25

             Veterans Health Administration .....................................................................................                      26

             Veterans Benefits Administration ..................................................................................                       27

             Office of Management ..................................................................................................                   29

             Office of Information and Technology ...........................................................................                          31

             Multiple Office Action ....................................................................................................               32

OFFICE OF HEALTHCARE INSPECTIONS

     Mission Statement ......................................................................................................................          33

     Resources ..................................................................................................................................      33

     Overall Performance ..................................................................................................................            33

            Veterans Health Administration .......................................................................................                     34

OFFICE OF MANAGEMENT AND ADMINISTRATION

     Mission Statement ......................................................................................................................         43

     Resources ..................................................................................................................................     43

     Hotline Division ..........................................................................................................................      44

             Veterans Health Administration .....................................................................................                     44

             Veterans Benefits Administration ..................................................................................                      49

             National Cemetery Administration .................................................................................                       50

     Operational Support Division .....................................................................................................               51

     Status of OIG Reports Unimplemented for Over 3 Years ..........................................................                                  52

             Veterans Health Administration .....................................................................................                     53

             Veterans Benefits Administration ..................................................................................                      55

     Information Technology and Data Analysis Division ..................................................................                             56

     Financial and Administrataive Support Division .........................................................................                         60

     Human Resources Management Division ..................................................................................                           61

OTHER SIGNIFICANT OIG ACTIVITIES

     President’s Council on Integrity and Efficiency ..........................................................................                        63

     OIG Management Presentations ................................................................................................                     63

     Awards .......................................................................................................................................    63

     OIG Congressional Testimony ...................................................................................................                   64

     Obtaining Required Information or Assistance ...........................................................................                          64

                                                                                                                                                       Page

APPENDIX A - REVIEWS BY OIG STAFF ..........................................................................................                            65

APPENDIX B - CONTRACT REVIEW REPORTS FOR WHICH A CONTRACTING

             OFFICER DECISION HAD NOT BEEN MADE FOR

             OVER 6 MONTHS .......................................................................................................                      73

APPENDIX C - FOLLOW UP/RESOLUTION OF OIG REPORTS ............................................................                                           75

APPENDIX D - REPORTING REQUIREMENTS OF THE INSPECTOR GENERAL .............................                                                              79

APPENDIX E - OIG OPERATIONS PHONE LIST ........................................................................................                         81

APPENDIX F - GLOSSARY ..............................................................................................................................    83

             HIGHLIGHTS OF OIG OPERATIONS


This semiannual report highlights the activities and accomplishments of the Department of Veterans Affairs
(VA), Office of Inspector General (OIG) for the 6-month period ended March 31, 2002. The following
statistical data highlights OIG activities and accomplishments during the reporting period.

        DOLLAR IMPACT                                                                                                 Dollars in Millions

                  Funds Put to Better Use ........................................................................             $548.7
                  Dollar Recoveries .................................................................................           $26.3
                  Fines, Penalties, Restitutions, and Civil Judgments .............................                              $4.9

        RETURN ON INVESTMENT
                  Dollar Impact ($579.9) / Cost of OIG Operations ($28.7) ..................                                     20 : 1


        OTHER IMPACT
                  Arrests ..................................................................................................    215

                  Indictments............................................................................................       191

                  Convictions ...........................................................................................       161

                  Administrative Sanctions ......................................................................               203


        ACTIVITIES

            Reports Issued
               Combined Assessment Program ............................................................                           12

               Audits ...................................................................................................          9

               Contract Reviews ..................................................................................                31

               Healthcare Inspections ..........................................................................                  15

               Administrative Investigations ...............................................................                       7


            Investigative Cases
                Opened ..................................................................................................       397

                Closed ...................................................................................................      352


            Healthcare Inspections Activities
               Oversight Reviews ................................................................................               106

               Clinical Consultations ...........................................................................                 6

               Technical Reviews ................................................................................                44


            Hotline Activities
                Contacts ................................................................................................      8,036

                Cases Opened .......................................................................................             681

                Cases Closed .........................................................................................           776





                                                                             i
OFFICE OF INVESTIGATIONS

Overall Focus

This semiannual period, the Office of Investigations concluded 352 investigations resulting in 361 judicial
actions and over $14.7 million recovered or saved. Investigative activities resulted in the arrests of 215
individuals who had committed crimes involving VA programs and operations or on VA facilities. Many
significant cases were investigated. Examples of these cases follow.

Veterans Health Administration

A VAMC supervisory pharmacist and her uncle were charged in a 10-count indictment. The charges included
conspiracy to commit theft of Government property, possession of a controlled substance for distribution, and
money laundering. The investigation disclosed the pharmacist illegally diverted over 205,000 schedule two and
three controlled substances while acting in her official capacity. The controlled substances included
Oxycodone, hydrocodone, hydromorphone, and Percocet that she passed on to her uncle and for which she
allegedly received approximately $750,000. The VAMC has a loss of approximately $169,000. The Drug
Enforcement Administration (DEA) estimates the street value of the narcotics in this case to be $7.1 million.
This was a joint investigation by VA OIG and DEA.

Veterans Benefits Administration

Criminal charges of conspiracy, theft of Government property, and a violation of principles against the United
States were filed on 12 individuals involved in a major theft against VA. The charges also seek forfeiture of
certain properties identified as purchased by the subjects with illegally obtained VA money. This includes real
property, vehicles, household items, jewelry, and a certificate of deposit. An ongoing investigation has
disclosed the individuals defrauded VA of approximately $11.2 million between 1993 and August 2001.
Investigation disclosed that a VA employee accessed and falsified numerous VBA files to generate hundreds of
benefit payments under the accounts of veterans who had died and had no beneficiaries. Subsequently, large
retroactive benefits checks were disbursed or electronically deposited into accounts belonging to accomplices.
All 12 defendants have entered guilty pleas.

A veteran pleaded guilty to bankruptcy fraud and conspiracy. A joint investigation by the VA OIG and Federal
Bureau of Investigation (FBI) disclosed the individual was involved in a type of fraudulent activity known as a
real estate “dumping” scheme. The veteran sent advertisements to homeowners facing foreclosures and
convinced them he was an attorney specializing in foreclosure relief services and for a monthly fee, he could
stop scheduled foreclosures indefinitely. He usually insisted that clients wire the monthly fee payments via
Western Union. In furtherance of the scheme to delay foreclosures, partial interests of homes were deeded to
unrelated debtors who were in bankruptcy proceedings. This was done without the knowledge of the debtors
and the homeowners by using falsified grant deed documents. During a 2-year period, more than 90
homeowners were victimized. The homeowners paid the veteran over $550,000 for this fraudulent service.




                                                       ii
OFFICE OF AUDIT

Audit Saved or Identified Improved Uses for $564.8 Million

Audits and evaluations were focused on operations and performance results to improve service to veterans.
During this reporting period, 52 audits, evaluations, and reviews, including Combined Assessment Program
(CAP) reviews, identified opportunities to save or make better use of approximately $564.8 million. The Office of
Audit demonstrated a benefit to cost ratio of about $49 for every dollar spent.

Veterans Health Administration

Our review of Medical Care Collection Fund (MCCF) collection and billing practices concluded that VHA
could have increased collections by about $135 million (24 percent) in Fiscal Year (FY) 2000 by effectively
implementing our recommendations from our prior review of the MCCF program. Additionally, clearing the
backlog of unissued bills that currently totals over $1 billion would result in additional collections of about
$368 million.

Veterans Benefits Administration

At the request of the Secretary of Veterans Affairs, the OIG conducted a special review of large compensation
and pension (C&P) one-time payments (OTPs) processed by VA regional offices (VAROs). The Secretary
requested this review in September 2001 following the discovery that a VARO Atlanta, GA employee had
bypassed controls and generated about $11.2 million in fraudulent C&P payments. Our review found that
most OTPs reviewed were valid. However, unacceptably high rates of noncompliance with internal control
requirements pertaining to OTP three-signature reviews, Benefits Delivery Network (BDN) security, and
sensitive VA claims files were disclosed. Another VBA report on the causes of C&P overpayments concluded
that overpayments totaling $26.6 million could be prevented by revising procedures and increasing VAROs’
emphasis on overpayment prevention.

Office of Management

The audit of the Department’s Consolidated Financial Statements for FY 2001 and 2000 resulted in an
unqualified opinion. The report on internal controls identified 11 reportable conditions of which 6 are material
weaknesses. Two material weaknesses identified were reported last year: (i) information technology security
controls, and (ii) integrated financial management system and control issues. The four new material
weaknesses relate to: (iii) management ownership of financial data, (iv) reliance on independent specialists, (v)
management legal representations, and (vi) loan guaranty application systems. The report also discusses five
reportable conditions that, while not considered material weaknesses, are significant system or control
weaknesses that could adversely affect the recording and reporting of the Department’s financial information.
The three reportable conditions that were repeated from last year’s report are: (i) application program and
operating system change controls, (ii) business continuity and disaster recovery planning, and (iii) operational
oversight. The two new reportable conditions identified this year are: (iv) authorization of compensation
benefit payments, and (v) the loan guaranty business process.




                                                        iii
Contract Review and Evaluation

During the period, we completed 31 contract reviews – 9 preaward and 22 postaward reviews. These reviews
identified monetary benefits of about $25.4 million resulting from contractor actual or potential overcharges to
VA. Contract reviews returned about $18 in monetary benefits for every dollar spent.

Office of Information and Technology

Our audit of VA information security controls and management found that VA’s programs and sensitive data
are vulnerable to destruction, manipulation, and inappropriate disclosure. Significant security vulnerabilities
continue to place the Department at risk of: (i) denial of service attacks on mission critical systems, (ii)
disruption of mission critical systems, and (iii) unauthorized access to and disclosure of data subject to Privacy
Act protection and sensitive financial data.

OFFICE OF HEALTHCARE INSPECTIONS

The Office of Healthcare Inspections (OHI) participated with the Offices of Audit and Investigations on CAP
reviews and reported on specific clinical issues warranting the attention of VA managers. OHI reviewed health
care related issues, and made 54 recommendations to improve clinical operations and activities, and enhance
the quality of care and services provided to patients.

OHI conducted one program evaluation and one focused inspection. Based on the request from the Secretary
of Veterans Affairs, the OIG reviewed VA’s security and controls over selected biological, chemical, and
radioactive agents and found significant vulnerabilities in high-risk security areas in research and clinical
laboratories and pharmacies. Our findings are important to VA managers as they develop policies and
procedures to strengthen security, access, inventory, and oversight requirements for safeguarding high-risk or
sensitive materials and agents. Our review of VHA’s compliance programs and coding accuracy identified
serious coding errors in about 50 percent of outpatient visits we reviewed, significantly higher than the 30
percent error rate reported by the Health Care Finance Administration. Our findings and recommendations
should help VHA managers to improve coding accuracy and provide for better management of their
compliance programs.

Our inspectors visited a number of facilities this period to respond to Congressional and other special requests,
and reviewed patient allegations pertaining to quality of care issues received by the OIG Hotline. OHI
completed 17 Hotline cases, reviewed 54 issues, and developed 47 recommendations to correct conditions
identified and improve the care and services provided to patients. Findings and recommendations resulted in
managers taking action to issue new and revised procedures, administrative actions, resource realignments, and
environmental and safety improvements. OHI also oversaw 106 Hotline inquiries sent to VHA for action and
resolution. These cases involved 170 allegations of which 117 (69 percent) were substantiated.




                                                        iv
OFFICE OF MANAGEMENT AND ADMINISTRATION

Hotline

The Hotline provides an opportunity for employees, veterans, and other concerned citizens to report fraud,
waste, abuse, and mismanagement. The identification and reporting of issues such as these are integral to the
goal of improving the efficiency and effectiveness of the Government. During the reporting period, the Hotline
received 8,036 contacts. We opened 681 cases. We closed 776 cases, of which 180 contained substantial
allegations (23 percent). The monetary impact resulting from these cases totaled over $400,000. Hotline staff
generated 107 responses to inquiries received from members of the Senate and House of Representatives. The
cases we opened led to 58 administrative sanctions against employees and 92 corrective actions taken by
management to improve VA operations and activities. Examples of some of the issues addressed by Hotline
include: (i) improper disclosure of a veteran’s VA benefits information, (ii) misuse of official correspondence
and e-mail for personal reasons, (iii) abuse of authority by VA physicians and police officers, (iv) patient
safety violations, (v) contracting irregularities, and (vi) instances of misconduct by VA employees.

Information Technology and Data Analysis

During this reporting period, this Division provided OIG personnel with more than 90 enhancements of the
Master Case Index (MCI), the OIG’s enterprise database. Most notably, the Division implemented an on-line
OIG office and employee roster. Additionally, the Division implemented an award tracking component within
MCI.

The Data Analysis Section (DAS) analyzes data in VA computer files and systems. The DAS develops
proactive computer profiles that search VA computer data for patterns of inconsistent or irregular records with
a high potential for fraud. They refer these leads to OIG auditors and investigators for further review. During
this reporting period, the DAS completed 120 ad hoc requests for information and data submitted from all OIG
operational elements. The DAS supported OIG CAP reviews. Considerable effort was also spent in support
of the post-arrest phase of the VARO Atlanta investigation, the national fraud review of all VAROs, matches of
VA beneficiary and vendor information against names and addresses contained on the FBI’s terrorist watch list,
statistical matches to support the “fugitive felon” legislative initiative, and the Philippines beneficiary review
currently in progress.

Follow Up on OIG Reports

The Operational Support Division continually tracks the VA staff actions to implement OIG audits,
inspections, and reviews. As of March 31, 2002, there were 72 open OIG reports containing 294
unimplemented recommendations with over $4.2 billion of actual or potential monetary benefits. During this
reporting period, the OIG closed 55 reports and 340 recommendations with a monetary benefit of $461 million
after obtaining information that VA officials had fully implemented corrective actions.




                                                        v
Status of OIG Reports Unimplemented for Over 3 Years

VA management officials are required to provide the OIG with documentation showing the completion of
corrective actions taken on OIG reports. In the majority of cases, program offices provide the OIG with
documentation of the actions required to implement the reports in a reasonable period. However, the OIG is
concerned about nine OIG reports issued in FY 1999 and earlier that remain unimplemented. VHA has seven
reports (one report issued in each of FY 1994, 1996, and 1997, and four reports issued in 1999), and VBA has
two reports (one report issued in FY 1997 and in 1999). Details about these reports can be found beginning on
page 52.




                                                     vi
VA AND OIG MISSION, ORGANIZATION, AND
RESOURCES

The Department of
Veterans Affairs (VA)
Background
In one form or another, American governments
have provided veterans benefits since before the
Revolutionary War. VA’s historic predecessor
agencies demonstrate our Nation’s long
commitment to veterans.

The Veterans Administration was founded in 1930,
when Public Law 71-536 consolidated the Veterans’                        VA Central Office

Bureau, the Bureau of Pensions, and the National             810 Vermont Avenue, NW, Washington, DC

Home for Disabled Volunteer Soldiers.
                                                          Organization
The Department of Veterans Affairs was established
on March 15, 1989, by Public Law 100-527, which           VA has three administrations that serve veterans:

elevated the Veterans Administration, an                  z   Veterans Health Administration (VHA) provides

independent agency, to Cabinet-level status.              health care,

                                                          z   Veterans Benefits Administration (VBA)

Mission                                                   provides benefits, and

                                                          z   National Cemetery Administration (NCA)

VA's motto comes from Abraham Lincoln's second            provides interment and memorial services.

inaugural address, given March 4, 1865, "to care
for him who shall have borne the battle and for his       To support these services and benefits, there are six

widow and his orphan." These words are inscribed          Assistant Secretaries:

on large plaques on the front of the VA Central           z  Management (Budget, Finance, Acquisition and

Office building on Vermont Avenue in Washington,          Materiel Management (A&MM));

DC.                                                       z  Information and Technology;

                                                          z  Policy and Planning (Policy, Planning, and

The Department’s mission is to serve America’s            Security and Law Enforcement);

veterans and their families with dignity and              z  Human Resources and Administration

compassion and to be their principal advocate in          (Diversity Management and Equal Employment

ensuring that they receive the care, support, and         Opportunity, Human Resources Management,

recognition earned in service to this Nation.             Administration, and Resolution Management);





                                                      1
VA and OIG Mission, Organization and Resources

z   Public and Intergovernmental Affairs; and               $602 billion. Almost 248,000 home loans are
z   Congressional and Legislative Affairs.                  expected to be guaranteed in FY 2002, with a
                                                            value of almost $32.1 billion.
In addition to VA’s Office of Inspector General,
other staff offices providing support to the                The National Cemetery Administration operates
Secretary include the Board of Contract Appeals,            and maintains 120 cemeteries and employs over
the Board of Veterans’Appeals, the Office of                1,400 staff in FY 2002. Operations of NCA and all
General Counsel, the Office of Small and                    of VA’s burial benefits account for approximately
Disadvantaged Business Utilization, the Center for          $420 million of VA’s budget. Interments in VA
Minority Veterans, the Center for Women Veterans,           cemeteries continue to increase each year, with
and the Office of Employment Discrimination                 87,000 estimated for FY 2002. Approximately
Complaint Adjudication.                                     347,000 headstones and markers are expected to
                                                            be provided for veterans and their eligible
Resources                                                   dependents in VA and other Federal cemeteries,
                                                            state veterans’ cemeteries, and private cemeteries.
While most Americans recognize the VA as a
Government agency, few realize that it is the
second largest Federal employer. For FY 2002, VA            VA Office of Inspector
has approximately 207,000 employees and a
$50.8 billion budget. There are an estimated
                                                            General (OIG)
25 million living veterans. To serve our Nation’s
veterans, VA maintains facilities in every state, the       Background
District of Columbia, the Commonwealth of Puerto
Rico, Guam, and the Philippines.                            VA’s OIG was administratively established on
                                                            January 1, 1978, to consolidate audits,
Approximately 188,000 of VA’s employees work in             investigations, and related operations into a
VHA. Health care is funded at almost $22 billion,           cohesive, independent organization. In October
approximately 43 percent of VA’s budget in FY               1978, the Inspector General Act (Public Law 95-
2002. VHA provides care to an average of 57,500             452) was enacted, establishing a statutory
inpatients daily. During FY 2002, slightly more             Inspector General (IG) in VA.
than 47 million episodes of care are estimated for
outpatients. There are 172 hospitals, 137 nursing           Role and Authority
home units, 206 Vietnam veterans centers, 43
domiciliaries, and 859 outpatient clinics (including        The Inspector General Act of 1978 states that the
hospital clinics).                                          IG is responsible for: (i) conducting and
                                                            supervising audits and investigations; (ii)
Veterans benefits are funded at $28 billion, more           recommending policies designed to promote
than 55 percent of VA’s budget in FY 2002. Over             economy and efficiency in the administration of,
13,000 VBA employees at 57 VAROs provide                    and to prevent and detect criminal activity, waste,
benefits to veterans and their families. Almost             abuse, and mismanagement in VA programs and
2.7 million veterans and their beneficiaries will           operations; and (iii) keeping the Secretary and the
receive compensation benefits valued at                     Congress fully informed about problems and
$21.7 billion. Also, over $3 billion in pension             deficiencies in VA programs and operations and
benefits will be provided to veterans and survivors.        the need for corrective action.
VA life insurance programs have 4.3 million
policies in force with a face value of over




                                                        2
                                                    VA and OIG Mission, Organization and Resources

The Inspector General Act Amendments of 1988               The percent of OIG resources, which have been
provided the IG with a separate appropriation              devoted during this semiannual reporting period to
account and revised and expanded procedures for            VA’s major organizational areas are indicated in the
reporting semiannual workload to Congress.                 following chart.
The IG has authority to inquire into all VA
programs and activities as well as the related                                           A&MM
activities of persons or parties performing under                                         11%
                                                                 VBA                               Inf ormation
grants, contracts, or other agreements. The
                                                                 56%                               Technology
inquiries may be in the form of audits,
                                                                                                        3%
investigations, inspections, or other appropriate
actions.                                                                                   Management
                                                                                               5%
Organization                                                                       VHA
                                                                                   25%

Allocated full-time equivalent (FTE) employees
from appropriations for the FY 2002 staffing plan          The following chart indicates the percent of OIG
were as follows:                                           resources which have been applied to mandated,
                                ALLOC ATED                 reactive, and proactive work.
             OFFIC E
                                   FTE

    Inspector General                      4

    C ounselor                             4                       Reactive                      Mandated
                                                                     67%                           7%
    Investi gati ons                   120

    Audi t                             176
    Management and                                                                              Proactive
                                        55
    Admi ni strati on                                                                             26%
    Healthcare
                                        46
    Inspecti ons
                                                           Mandated work is required by law and the Office
             TOTAL                     405                 of Management and Budget (OMB). Examples
                                                           include our audits of VA’s consolidated financial
In addition, 24 FTE are reimbursed for a
                                                           statements, oversight of VHA’s quality assurance
Department contract review function.                       programs and Office of the Medical Inspector,
                                                           follow up activities on OIG reports, and releases of
FY 2002 funding for OIG operations is                      Freedom of Information Act information.
$55.2 million, with $52.3 million from
appropriations and $2.9 million through a                  Reactive work is generated in response to requests
reimbursable agreement. Approximately 77 percent           for assistance received from external sources
of the total funding is for salaries and benefits,         concerning allegations of criminal activity, waste,
6 percent for official travel, and the remaining           abuse, and mismanagement. Most of the Office of
17 percent for all other operating expenses such as        Investigations’ work is reactive.
contractual services, rent, supplies, and equipment.
                                                           Proactive work is self-initiated, focusing on areas
                                                           where the OIG staff determines there are
                                                           significant issues.



                                                       3
VA and OIG Mission, Organization and Resources

                                                         and mismanagement. Inherent in every OIG
                                                         effort are the principles of quality management
                                                         and a desire to improve the way VA operates by
                                                         helping it become more customer driven and
                                                         results oriented.

                                                         The OIG will keep the Secretary and the
                                                         Congress fully and currently informed about
                                                         issues affecting VA programs and the
                                                         opportunities for improvement. In doing so, the
                                                         staff of the OIG will strive to be leaders and
                                                         innovators, and perform their duties fairly,
                                                         honestly, and with the highest professional




      TechWorld, home to the VA Office of
              Inspector General



OIG Mission Statement
The OIG is dedicated to helping VA ensure that
veterans and their families receive the care,
support, and recognition they have earned
through service to their country. The OIG strives
to help VA achieve its vision of becoming the best
managed service delivery organization in
Government. The OIG continues to be
responsive to the needs of its customers by
working with the VA management team to
identify and address issues that are important to
them and the veterans served.

In performing its mandated oversight function,
the OIG conducts investigations, audits, and
health care inspections to promote economy,
efficiency, and effectiveness in VA activities,
and to detect and deter fraud, waste, abuse,




                                                     4
                                                           Department of Veterans Affairs
                                                            Office of Inspector General


                                                                      Inspector General
                              Executive Assistant                   ---------------------------                       Counselor to the
                                                                                                                     Inspector General
                                                                             Deputy


     Assistant Inspector General            Assistant Inspector General                 Assistant Inspector General                 Assistant Inspector General
    Management and Administration                  Investigations                                   Audit                             Healthcare Inspections
           --------------------                   ---------------------                       --------------------                        --------------------
                Deputy                                  Deputy                                     Deputy                                      Deputy


                                                                                       Contract                                 Medical Advisor        Program
      Hotline         Operational       Administrative             Criminal            Review                       Audit             to             Administration
                       Support          Investigations          Investigations           and                      Planning        Inspector           and Special
                                                                                      Evaluation                                   General              Projects

                       Financial




5
      Human               and            Analysis and                                 Operational                 Financial               Regional Offices
     Resources       Administrative       Oversight                  Benefits          Support                      Audit                      Atlanta
    Management         Support                                        Fraud                                                                    Bedford
                                                                                                                                               Chicago
    Information                         Field Offices                                      Operations Divisions                                 Dallas
    Technology                             Chicago                  Computer                                                                 Los Angeles
                                                                                          Atlanta     Bedford
     and Data                               Dallas                 Crimes and                                                                Washington
                                                                                          Chicago     Dallas
      Analysis                           Los Angeles                Forensics             Kansas City Los Angeles
                                          New York                                        Seattle     Washington
                                        St. Petersburg
    Field Office
       Austin                         Resident Agencies                                            Sub-Offices
                               Atlanta
                                                                   Healthcare                        Austin
                                                Bedford
                               Cleveland        Columbia             Fraud                         Philadelphia
                               Denver           Houston
                               Kansas City      Nashville
                               New Orleans      Newark              Fugitive
                               Phoenix          Pittsburgh
                                                                     Felon
                               San Diego        San Francisco
                               Seattle          Washington          Program
                               West Palm Beach

                                                                    Forensic
                                                                   Documents
                                                                   Laboratory
VA and OIG Mission, Organization and Resources




                                         6
COMBINED ASSESSMENT PROGRAM

Reports Issued                                               Auditors conduct reviews to ensure management
                                                             controls are in place and operating effectively.
During the period October 1, 2001 through March              Auditors assess key areas of management concern,
31, 2002, we issued a total of 12 Combined                   which are derived from a concentrated and
Assessment Program (CAP) reports. This included              continuing analysis of VHA, Veterans Integrated
a summary report of CAP reviews at VA medical                Service Network (VISN), and VAMC databases
facilities for the period January 1999 to March              and management information. Areas generally
2001.                                                        covered include procurement practices, patient
                                                             management, financial management activities,
Of the remaining 11 CAP reports, 3 were for VA               accountability for controlled substances, and
medical and regional office centers, 6 for                   information security.
healthcare systems/VAMCs, and 2 for VAROs.
                                                             Special agents conduct fraud and integrity
                                                             awareness briefings. The purpose of these
Combined Assessment Program
                                                             briefings is to provide VAMC employees with
Overview - Medical                                           insight into the types of fraudulent activities that
                                                             can occur in VA programs. The briefings include
CAP reviews are part of the OIG’s efforts to                 an overview and case-specific examples of fraud
ensure that quality health care services are provided        affecting health care procurements, false claims,
to our Nation’s veterans. CAP reviews provide                conflicts of interest, bribery, and illegal gratuities.
cyclical oversight of VAMC operations, focusing on           Special agents may also investigate certain matters
the quality, efficiency, and effectiveness of services       referred to the OIG by VA employees, members of
provided to veterans.                                        Congress, veterans, and others.

CAP reviews combine the skills and abilities of the          During this period, we issued nine health care
OIG to provide collaborative assessments of VA               facility CAP reports. Of these facility CAP reports,
medical facilities. The OIG team consists of                 three were for VA medical and regional office
representatives from the Offices of Healthcare               centers. See Appendix A for the full title and date
Inspections, Audit, and Investigations. They                 of the CAP reports issued this period. These nine
provide an independent and objective assessment              reports relate to the following VA medical facilities:
of key operations and programs at VA healthcare
systems and VAMCs on a recurring basis.                      z   VA Medical and Regional Office Center
                                                                  Wilmington, DE
Healthcare inspectors conduct proactive reviews to           z   Spark M. Matsunaga VA Medical and
evaluate care provided in VA health care facilities               Regional Office Center Honolulu, HI
and assess the procedures for ensuring the                   z   Alaska VA Healthcare System and Regional
appropriateness and safety of patient care. The                   Office
facilities are evaluated to determine the extent to          z   VA Boston Healthcare System
which they are contributing to VHA’s ability to              z   John D. Dingell Veterans Affairs Medical
accomplish its mission of providing high quality                  Center Detroit, MI
health care, improved patient access to care, and            z   VA Medical Center, Kansas City, MO
high patient satisfaction. Their effort includes the
use of standardized survey instruments.



                                                         7
Combined Assessment Program

z   Samuel S. Stratton VA Medical Center                   pursue delinquent debts of current and former
     Albany, NY                                            employees and should also initiate timely collection
z   VA Medical Center Louisville, KY                       of Federal accounts receivable.
z   VA Medical Center, Minneapolis, MN
                                                           Other Financial Issues
Summary of Findings
                                                           z   At 3 of 9 (33 percent) facilities visited, we
Our reviews identified the following areas that            found that VHA was not performing an annual
required the attention of VHA management.                  means tests for veterans receiving care for
                                                           nonservice-connected conditions, or did not have
Financial Management                                       required release forms (signed means test) for
                                                           matching veterans’ income information with the
CAP review results showed that management was              Internal Revenue Service. As a result, VHA is not
not consistently adhering to established financial         able to verify reported income.
policies and procedures. VHA management needs
to improve oversight in financial management               z    Agent cashier controls were deficient at 2 of 9
activities in order to provide accurate and reliable       (22 percent) facilities visited. Unannounced audits
financial information.                                     of the agent cashier activities were not conducted
                                                           by at least two employees skilled in fiscal or
Accounts Receivable                                        auditing techniques. Audits were not being
                                                           performed randomly at least every 90 days, and
VA has established policies and procedures for             CAP reviews identified instances where the level of
establishing and collecting accounts receivable.           an agent’s cash advance was not based on actual
However, CAP results show that compliance with             demand.
these policies and procedures has not been
consistent. For example, the lack of management            z   We found that employee travel advances were
oversight has contributed to inefficient collection        not being pursued and collected at 1 of 9 facilities
efforts and to weaknesses in the management of             (11 percent) visited. While the number of instances
the Medical Care Cost Fund (MCCF) and other                where this condition occurred does not indicate the
accounts receivable financial activities.                  deficiency is a systemic weakness, we have
                                                           reported similar findings on previous CAP reviews.
z    MCCF controls and collection efforts were
deficient at 4 of 9 (44 percent) facilities visited.       Procurement
Deficiencies included untimely billing actions, and
collections were not pursued aggressively.                 The OIG has identified the need to improve
Medical coding for MCCF billing was deficient at           procurement practices in VA as one of the
3 of 9 (33 percent) facilities visited. VHA needs          Department’s most serious management
to ensure that appropriate and accurate claims are         challenges. Controls need to be strengthened to:
filed and that all claims are supported by medical         (i) effectively administer the Government purchase
record documentation. Additionally, VHA needs to           card program, (ii) improve service contract
reduce errors in coding for third-party collections,       controls and avoid conflicts of interest, (iii)
which lead to delays, or non-payment.                      improve contract administration, and (iv)
                                                           strengthen inventory management.
z   Accounts receivable procedures (other than
MCCF) were also deficient at 4 of 9 (44 percent)
facilities visited. VHA needs to aggressively




                                                       8
                                                                        Combined Assessment Program

z   Government purchase card controls were                  planning, incident reporting, and security
deficient at 6 of 9 (67 percent) facilities visited.        training. We found inadequate management
Policy and procedures governing the use of                  oversight contributing to inefficient practices,
purchase cards, setting purchasing limits, and              and to inadequate information security and
accounting for purchases were not followed.                 physical security of assets. CAP results
                                                            complement the results of our FY 2001
z     Service contract controls or contract file            Government Information Security Results Act
documentation were deficient at 6 of 9 (67 percent)         audit that identified information security
facilities visited. Controls needed to be                   vulnerabilities that place the Department at
strengthened to ensure that officials developing,           risk of denial and/or disruption of service
soliciting, awarding, and administrating contracts          attacks on mission critical systems, and
comply with conflict of interest statutes. VHA              unauthorized access to and disclosure of
facilities did not ensure that: (i) costs were              sensitive financial data and data subject to
appropriate and reasonable for the services                 Privacy Act protection.
provided, (ii) all contracted services were received,
(iii) VA paid only for services provided in                 z   Information technology security deficiencies
accordance with contract terms, and (iv) potential          were found at all nine facilities visited. We found
conflicts of interest in service contracts were             that: (i) back-up files were not stored at off-site
eliminated.                                                 locations, (ii) many personal computers had
                                                            outdated anti-virus software, (iii) many individuals
z   Contract administration efforts also needed             had access to VHA’s Veterans Health Information
improvement. For example, at one facility we                Systems and Technology Architecture who did not
found required legal reviews were not obtained on           have or no longer needed legitimate access to the
two contracts, and one contract lacked                      system, and (iv) security clearances were not
documentation to support a $720,000 contract                obtained for some employees with high-level access
award.                                                      to VHA’s Veterans Health Information Systems and
                                                            Technology Architecture.
z    Inventory management was deficient at 2 of 9
(22 percent) facilities where we examined non-              Administrative Management
medical inventories and at 1 of 9 (11 percent)
facilities for medical supply inventories. We found         z    Part-time physician timekeeping was deficient
that inventory levels exceeded current requirements         at all five facilities where this issue was evaluated.
resulting in funds being tied up unnecessarily in           We found some part-time physicians were not on
excess inventories.                                         duty as required and that absences were not
                                                            properly charged to these employees.
Information Technology
                                                            z   Two other administrative management
CAP reviews continue to identify a wide range of            deficiencies were identified. The deficiencies were
vulnerabilities in VA systems that could lead to            that: (i) Pharmacy Service use of overtime was
misuse of sensitive automated information and               excessive with little or no management control in
data. VA has established comprehensive                      one facility, and (ii) the Decision Support System
information security policies, procedures, and              was not adequately staffed and the System
guidelines, however, CAP reviews found that                 information was considered unreliable at one
implementation and compliance were                          facility. Similar findings were also reported in
inconsistent. Recent CAP findings show a need               previous CAP reviews.
to improve access controls, contingency




                                                        9
Combined Assessment Program

Health Care Management                                        z    We inspected medical record security at 5 of 9
                                                              facilities visited. We found security deficiencies at
z    We inspected abnormal test and procedure                 all five facilities. Patient medical information was
result notifications at 6 of 9 facilities visited.            not protected against deliberate or inadvertent
Written policies and management of abnormal test              misuse or disclosure as required. Computer
and procedure results, including patient                      terminals were not always positioned in a manner
notifications in primary care departments, were               that would prevent unauthorized persons from
deficient at 4 of the 6 (67 percent) facilities. VHA          viewing patient information, and computer privacy
managers needed to improve procedures for                     screens were not routinely used. Controls were not
notifying providers and patients of abnormal test             in place to identify inappropriate access to
and procedure results. Providers needed to be                 restricted patient records. Employees were not
vigilant in reviewing the results of the tests and            always aware of computer incident reporting
procedures they ordered, communicating the results            procedures. Confidentiality management training
to patients, documenting the notifications in the             and strategies were inconsistent. Medical records
medical records, and providing timely follow up               were transported in unsecured envelopes and
instructions and care to the patients.                        medical records were left unattended in hallways
                                                              and examination rooms. Employees did not have
z    We inspected medical record documentation of             access to shredders for disposal of confidential
mental health patients’ primary medical conditions            information.
at 5 of 9 facilities visited. Documentation was
deficient at all five facilities. Clinicians                  z   Security and cleanliness was deficient at 4 of
inconsistently documented assessments of mental               9 (44 percent) facilities visited. Storage rooms
health patients’ co-morbid medical conditions or              containing medications, needles, syringes, and
components of the preventive disease or chronic               cleaning chemicals were left unlocked. We found
disease indexes in their medical records, which is            incidents of peeling paint, unclean bathrooms,
required by VHA policy. Mental health patients                cracked baseboards, unclean patient room and
were consistently enrolled in primary care for their          hallway floors, dirty kitchen and medication room
medical conditions, but at one facility, there were           counter tops, and construction sites that were not
delays of 3-8 weeks to get primary care clinic                always properly sealed to prevent unauthorized
appointments.                                                 access.

z   We inspected employee background                          Pharmacy
investigation procedures at 6 of 9 facilities visited.
We found deficiencies at all six facilities. Human            VA has established policies, procedures, and
Resources Management (HRM) did not always                     guidelines for pharmacy security and
request background investigations from the Office             accountability of controlled substances and
of Personnel Management (OPM) for all licensed                other drugs. CAP results identified
independent practitioners as required. HRM                    weaknesses in the physical security and the
employees did not always document the dates they              narcotics inspection program at all nine
sent requests for background investigations to                facilities visited. The lack of management
OPM so we could not determine if they were sent               oversight at the facility, VISN, and national
within 14 work-days of the employees’                         levels has contributed to inefficient practices
appointments as required. Additionally, HRM                   and to weaknesses in drug accountability and
employees did not follow up with OPM when                     security.
background investigation results were not returned
within 2 months of their submission to OPM.




                                                         10
                                                                          Combined Assessment Program

z   Unannounced monthly controlled substances                 z   VA Medical and Regional Office Center
inspections procedures were inadequate to ensure                   Wilmington, DE
compliance with VHA policy and Drug                           z   Spark M. Matsunaga VA Medical and
Enforcement Administration regulations.                            Regional Office Center Honolulu, HI
Unannounced inspections and inventories were not              z   Alaska VA Healthcare System and Regional
properly conducted. Unusable drugs were not                        Office
disposed of timely or properly, and discrepancies             z   VA Regional Office New Orleans, LA
between inventory results and recorded balances               z   VA Regional Office Oakland, CA
were not reconciled in a timely manner.
                                                              Summary of Findings
z   Improvements were needed in pharmacy
security at 4 of 9 (44 percent) facilities visited. We        A recent special review of OTP and related
advised local management that security could be               security controls disclosed unacceptably high
better enforced by restricting and consistently               rates of noncompliance with internal control
monitoring access to secured pharmacy areas. The              requirements pertaining to significant controls
use of cameras and electronic alarm systems would             such as OTP three-signature reviews, BDN
improve the physical security over controlled                 security, and sensitive VA claims folder (C-file)
substances and pharmacy vaults.                               security. BDN is the computerized system that
                                                              VAROs use to process benefits claims. BDN
Combined Assessment Program                                   security controls are designed to prevent
Overview - Benefits                                           unauthorized access to and fraudulent use of
                                                              the BDN system, and to protect the privacy of
In FY 2001, we expanded our CAP reviews to                    personal data in the system. By March 30,
include coverage of VBA programs. These reviews               2002, VAROs submited certifications that they
focus on the delivery of monetary benefits to                 had corrected BDN and sensitive C-file
veterans and their dependents.                                deficiencies found by our special review. The
                                                              annual certification of compliance with BDN
OIG staff assess whether management controls                  and sensitive C-file security requirements will
are in place and working effectively in VBA. We               be permanently incorporated into VBA’s
evaluate key areas of concern derived from a                  internal control system.
concentrated and continuing analysis of VBA
management information. Our agents conduct                    CAP reviews also identified the following areas
fraud and integrity awareness briefings and used a            that required the attention of VBA management:
new video tape they developed related to VBA
activities.                                                   z   Security over BDN was deficient at 4 of 5 (80
                                                              percent) facilities visited. Physical security over
During this period, we issued five CAP reports on             terminals logged on to BDN should be
the delivery of benefits, three of which were VA              strengthened. Managers also needed to better
medical and regional office centers. See Appendix             control access to BDN and to comply with VBA
A for the full title and date of the CAP reports              security requirements. VAROs should strive for
issued this period. These five reports relate to the          100 percent compliance and should have effective
following VBA facilities:                                     procedures for detecting and correcting instances
                                                              of noncompliance.




                                                         11
Combined Assessment Program

z   Veterans’ C&P claims processing was
untimely at all three facilities where we reviewed
timeliness measures.

z    VBA’s processing and timeliness over
Vocational Rehabilitation and Employment claims
needed improvement. Processing time at these
stations exceeded average national processing
time at 2 of 5 (40 percent) facilities visited.
Management needs to establish and process
claims for vocational rehabilitation benefits in a
timely manner and enter accurate dates of claims
in BDN.




                                                     12
OFFICE OF INVESTIGATIONS

Mission Statement                                              Resources

    Conduct investigations of criminal activities              The Office of Investigations has 120 FTE allocated
    and administrative matters affecting the                   to the following areas.
    programs and operations of VA in an
    independent and objective manner, and assist
    the Department in detecting and preventing
                                                                                                  Analysis
    fraud and other violations.                                                                     5%

                                                                      Criminal
The Office of Investigations consists of three
                                                                   Investigations
divisions.                                                             90%
                                                                                                Administrative
I. Criminal Investigations Division - The Division                                              Investigations
is primarily responsible for conducting                                                              5%

investigations into allegations of criminal activities
related to the programs and operations of VA.
Criminal violations are referred to the Department
of Justice for prosecution. The Division is also               I. CRIMINAL
responsible for operation of the forensic document
laboratory.
                                                               INVESTIGATIONS
                                                               DIVISION
II. Administrative Investigations Division - The
Division is responsible for investigating
allegations, generally against high-ranking VA                 Mission Statement
officials, concerning misconduct and other matters
of interest to the Congress and the Department.                    Conduct investigations of criminal activities
                                                                   affecting the programs and operations of VA
III. Analysis and Oversight Division - The                         in an independent and objective manner, and
Division is responsible for the oversight                          assist the Department in detecting and
responsibilities of all Office of Investigations                   preventing fraud and other criminal
operations through a detailed, recurring inspection                violations.
program. The Division is the primary point of
contact for law enforcement communications                     Resources
through the National Crime Information Center, the
National Law Enforcement Telecommunications                    The Criminal Investigations Division has 106 FTE
System, and the Financial Crimes Criminal                      for its headquarters and 22 field locations. These
Enforcement Network.                                           individuals are deployed in the following VA
                                                               program areas:




                                                         13

Office of Investigations

                                                                 occurring at VA facilities throughout the nation to
                                                                 help ensure safety and security for those working
                                    VHA
                                                                 in or visiting VA medical centers. During this
                                    32%                          semiannual period OIG special agents have
                                                                 participated in/or provided support to VA police
                                                                 in the arrest of 35 individuals who committed
                                                                 crimes on VHA properties.
          VBA                             A&MM
          61%                              7%                    Employee Integrity

                                                                 Allegations of criminal activity involving
                                                                 Government employees receive our highest
                                                                 investigative priority. Cases investigated this
Overall Performance                                              period include instances of theft, embezzlement,
                                                                 and the diversion of VA drugs and
                                                                 pharmaceuticals. During this period over 25
Output
                                                          employees were arrested for criminal activity
z   352 investigations were concluded during the
                investigated by the OIG. A brief highlight of
reporting period.
                                               some of those investigations follows.
Outcome

                                                                 Theft/Diversion of Pharmaceuticals
z    Arrests - 215

z    Indictments - 191

                                                                 z    A former VA registered nurse was sentenced to
z    Convictions - 161

                                                                 serve 6 months’ imprisonment followed by 6
z    Monetary benefits - $14.7 million ($4.9 million

                                                                 months’ home detention with electronic monitoring.
- fines, penalties, restitutions, and civil judgements;

                                                                 Upon completing her sentence, the individual will
$4.4 million - efficiencies/funds put to better use;

                                                                 serve 36 months’ supervised release. The former
and $5.4 million - recoveries)

                                                                 nurse had previously pleaded guilty to a 4-count
z    Administrative sanctions - 136

                                                                 criminal information charging her with stealing
                                                                 various narcotics, including OxyContin and
Veterans Health                                                  morphine, and converting them to her own use.
Administration                                                   Investigation determined the individual stole liquid
                                                                 morphine from syringes and replaced the drug with
                                                                 saline solution. In addition, on at least 21
Fraud and other criminal activities committed                    occasions, she falsified medical records by stating
against VHA include actions such as patient                      she had administered various drugs such as
abuse, theft of Government property, drug                        OxyContin, Demerol, Oxycodone and Percocet to
diversion, bribery/kickback activities by                        veteran patients when in fact she had diverted the
employees and contractors, false billings, and                   drugs for her own use. As part of a plea agreement
inferior products.                                               with the Government, the individual agreed to
                                                                 relinquish her nursing license and serve 6 months’
The Criminal Investigations Division investigates                incarceration. This was a joint investigation
those instances of criminal activity against VHA                 conducted by the VA OIG; VA police; and Food
that have the greatest impact and deterrent value.               and Drug Administration, Office of Criminal
Working closely with VA police, the office has                   Investigation.
placed an increased emphasis on crimes




                                                           14

                                                                                     Office of Investigations

z    A VAMC supervisory pharmacist and her                   hearing aids, purchased by the VA in amounts
uncle were charged in a 10-count indictment. The             ranging from $150 to $400, to veterans who were
charges included conspiracy to commit theft of               entitled to the hearing aids at no cost. The total
Government property, possession of a controlled              loss to the veterans is approximately $20,000. In
substance for distribution, and money laundering.            addition, the individual sold six VA hearing aids to
The investigation disclosed the pharmacist illegally         elderly persons who were not veterans. The
diverted over 205,000 schedule two and three                 audiologist received $3,650 from the elderly non-
controlled substances while acting in her official           veterans.
capacity. The controlled substances included
Oxycodone, hydrocodone, hydromorphone, and                   Credit Card Fraud
Percocet, which she passed on to her uncle and
allegedly received approximately $750,000 for her            An individual was indicted for financial identity
efforts. The VAMC has a loss of approximately                fraud. The individual fraudulently obtained the
$169,000. The Drug Enforcement Administration                identifying data of more than a dozen VA
(DEA) estimates the street value of the narcotics in         psychiatric patients and used the information to
this case to be $7.1 million. This is a joint                obtain credit cards and other instruments in their
investigation by VA OIG and DEA.                             names. Two associates, who were psychiatric
                                                             inpatients at a VAMC, apparently stole the
Theft and Embezzlement                                       identifying data from the VAMC daily reports.
                                                             The incidents took place in 2000 and created credit
z   A criminal information was filed charging a              problems for the veterans as well as financial
former VA employee and his accomplice with one               losses for the credit card companies. This is a
count each of theft of Government funds. The                 joint investigation by VA OIG, VA police, and a
former employee misused his Government                       local police department. If convicted, the
purchase card to buy computers and related                   individual, who has an extensive criminal history,
devices, which he later sold to pawn shops or to his         could be sentenced to 112 years in prison.
accomplice for cash. Loss to VA is $177,649.
                                                             Other Employee Misconduct
z   A former VAMC audiologist pleaded guilty to
80 counts of theft of Government property. The               z   A VAMC employee was indicted on 12 counts
guilty plea was the result of a VA OIG                       of sexual exploitation of a minor under 15 years of
investigation that determined the audiologist sold           age. A joint investigation with local authorities


The Birmingham News, Birmingham, AL                                                   Frida y, January 25, 2002




                                                       15

Office of Investigations

disclosed that while on duty at the VAMC, the                 Possession of Illegal Drugs
employee had used a VA computer to download
child pornography from the Internet. The                      Working closely with VA police and local law
individual is being held without bond.                        enforcement, OIG special agents have been
                                                              involved in a number of cases involving the
z   A former VAMC chief of podiatry along with a              possession or sale of illegal drugs on VA property.
woman and her husband were indicted on charges                A few of these cases are highlighted below.
of bribery, theft, and wire fraud. The indictments
were the result of a joint investigation by the VA            z   A VAMC surgical supply technician was
OIG and the Federal Bureau of Investigation (FBI)             arrested by members of the VA police, VA OIG,
of corruption in the VAMC podiatry program. An                and local police on a bench warrant charging the
investigation revealed the former chief of podiatry           individual with criminal possession of marijuana
received a $25,000 payment from the woman in                  with intent to distribute. After the arrest, the
return for false certification that the woman’s               individual was interviewed relative to his prior
husband completed requirements in the VAMC’s                  application for employment, and he confirmed that
podiatry residency program. The certification, a              he prepared the application falsifying questions
prerequisite for participating in managed care                concerning prior convictions. A criminal
organizations and providing patient care in                   background check determined the individual had at
hospitals, allowed the husband and wife to                    least two felony convictions that he failed to
continue to operate a private podiatry service in             disclose on his Federal job application.
another state. The husband also received a VA
salary though he did not attend the residency                 z   A visitor to a VAMC was arrested for
program.                                                      possession of heroin and possession of drug
                                                              paraphernalia. A joint investigation with the VA
Robbery                                                       police revealed two sources of supply for the
                                                              suspect’s heroin. Additional arrests of the sources
Two individuals were indicted and charged with                of supply are anticipated in a joint investigation
robbery of a pharmacy, possession of a firearm in             with the DEA.
furtherance of such crime, and two additional
conspiracy charges for planning a robbery and                 z    A veteran was arrested by VA OIG special
making false statements. Pursuant to the                      agents and the VA police for dispensing a
indictment an arrest warrant was obtained for one             controlled substance. The individual was
of the individuals. The second individual was                 remanded without bail during his initial appearance
previously arrested after a criminal complaint was            in court. The arrest resulted when the veteran
filed. An investigation by the VA OIG, FBI, and               entered a VAMC emergency room with wounds to
VA police disclosed the two individuals                       his body and became confrontational. VA police
participated in robbing a VAMC pharmacy. One                  officers responded to a call for assistance to enable
individual, a former VAMC employee and co-op                  the doctors to attend to his wounds. While
student, provided information and assistance                  removing the veteran’s clothing in preparation for
concerning the pharmacy layout and daily routine              surgery, zip lock bags containing 84 grams of
to the second individual who carried out the crime.           cocaine were discovered. Special agents from the
The robbery resulted in the theft of 3,000 tablets of         DEA have joined the investigation.
Oxycontin as well as varying amounts of other
narcotic drugs. Street value of the stolen drugs
was estimated at over $250,000.




                                                        16

                                                                                     Office of Investigations

Theft of Government Property                                  television services that were exchanged with
                                                              others for cash, merchandise, drugs, or food
A Government contract employee at a VAMC was                  stamps. Five other individuals, including the
sentenced to 120 days’ imprisonment and 4 years’              veteran, were previously sentenced in this matter.
probation after pleading guilty to possession of
stolen Government property. An accomplice of the              Medical Benefits Fraud
contract employee was also found guilty of
possession of stolen property, identity theft, and            The OIG is often called upon to investigate
theft of credit cards. The accomplice was                     instances of fraudulent claims for medical
sentenced to 3 years’ imprisonment and ordered to             services involving stolen and/or misrepresented
pay a $200 fine and a $200 court fee. The                     identities in order to receive medical benefits or
contract employee, who worked as a janitor at a               payments from VA. An example follows.
VAMC, stole computers and related items. The
contract employee, and his accomplice, also                   z    Two individuals were sentenced after pleading
engaged in a scheme of using stolen credit card               guilty to conspiracy to defraud with respect to
numbers to charge items over the Internet.                    claims and criminal asset forfeiture. A multi-
                                                              agency investigation by the VA OIG, Defense
Theft of Other Property                                       Criminal Investigative Service, Health and Human
                                                              Services OIG, and Internal Revenue Service
                                                              revealed the individuals, who are husband and
z   An individual was sentenced to serve 21
                                                              wife, devised a scheme to defraud health care
months’ incarceration followed by 24 months’
                                                              benefits programs. The husband, based on his plea
probation and to pay $460,267 in restitution. The
                                                              of guilty to two counts each of the above charges,
individual previously pleaded guilty to one count of
                                                              was sentenced to 21 months’ imprisonment
wire fraud. The individual would repeatedly dial
                                                              followed by 3 years’ probation, fined $300, and
into the private branch exchange phone system
                                                              ordered to pay $524,877 in restitution to the
from his home to a VAMC and attempt to “break”
                                                              Government jointly and concurrently with his wife.
the VAMC’s access code allowing unauthorized
                                                              The wife was sentenced to 6 months’ home
access to an external line. Once he had the access
                                                              confinement and 5 years’ probation based on her
code, the access code number would be sold to
                                                              guilty plea to one count of each charge. These
other individuals as part of a call-sell operation.
                                                              individuals were the sole owners and operators of a
Purchasers of such access information typically
                                                              corporation established to provide individual and
make long distance telephone calls from pay
                                                              group mental health counseling services, although
phones to avoid detection.
                                                              neither individual was licensed as mental health
                                                              counselors or medical doctors. These individuals,
z    Two individuals involved in an identity theft
                                                              using the provider numbers of mental health
ring were sentenced after pleading guilty to identity
                                                              professionals with whom they had contracted to
theft and wire fraud. One individual, a veteran’s
                                                              rent space in their company’s building, submitted
wife, was sentenced to 51 months in a federal
                                                              fraudulent claims for mental health services as part
penitentiary and ordered to pay $76,836
                                                              of a scheme to defraud health care programs. In
restitution. The second individual was placed on
                                                              addition to the false claims for health benefits,
36 months’ probation and ordered to pay
                                                              these individuals defrauded VBA by
restitution. An investigation revealed the woman
                                                              misrepresenting themselves as mental health
and her husband fraudulently obtained and used the
                                                              professionals in providing reports and sworn
identities of 51 veterans who were patients at a
                                                              testimony to VA regarding a veteran’s application
VAMC. The stolen identities were used to obtain
                                                              for VA benefits.
over 30 credit cards, cellular phones, and cable



                                                        17

Office of Investigations

Procurement/Contract Fraud                                   benefit payments issued after the unreported
                                                             death of the veteran, individuals provide false
z   A civil settlement of $17 million was reached            information so that veterans qualify for VA
between the Department of Justice, a U.S.                    guaranteed property loans, equity skimmers
Attorney’s Office, and a national health care                dupe veterans out of their homes, and
provider. The settlement resolved the                        educational benefits are obtained under false
Government’s contention that the firm submitted              representations. The Office of Investigations
false claims to Medicare, VA, and Indian Health              spends considerable resources in investigating
Service. Of the settlement amount, approximately             and arresting those who defraud operations of
$16.5 million was for Medicare, $500,000 for                 VBA.
Medicaid, and $60,000 went to VA for its home
oxygen program. Investigation showed that a                  Death Match Project
subsidiary of the national firm provided smaller
oxygen tanks than was called for by the contract,            An ongoing proactive project is being conducted by
and then billed VA for the larger tanks.                     the VA OIG Information Technology and Data
                                                             Analysis Division in coordination with the Office
z    The owner and president of a moving and                 of Investigations. The match is being conducted to
storage company pleaded guilty to one count of               identify individuals who may be defrauding VA by
mail fraud. An investigation disclosed that from             receiving VA benefits intended for veterans who
January 1995 through January 1998 the individual             have passed away. When indicators of fraud are
devised a scheme to create and submit false move-            discovered, the matching results are transmitted to
related documents including phony weight scale               VA OIG investigative field offices for appropriate
certificates, which fraudulently inflated the weight         action. To date, the match has identified 5,557
of goods being moved. Payments for moving                    possible cases. Over 493 investigative cases have
services were based on the inflated weight scale             been opened. Investigations have resulted in the
certificates. The dollar value of the moves                  actual recovery of $4.7 million, with an additional
performed by the company, wherein either no                  $6 million in anticipated recoveries. The 5-year
weight certificates were submitted or known                  projected cost savings to VA is estimated at $15.6
fraudulent weight certificates were used, totaled            million. There have been 35 arrests on these cases
$885,078. The company charged their clients an               with several additional cases awaiting judicial
average of 17 percent above their quoted estimated           actions.
costs.
                                                             Employee Fraud

                                                             Criminal charges of conspiracy, theft of
Veterans Benefits                                            Government property, and a violation of principles
Administration                                               against the United States were filed on 12
                                                             individuals involved in a major theft against VA.
                                                             The charges also seek forfeiture of certain
VBA provides wide-reaching benefits to                       properties identified as purchased by the subjects
veterans and their dependants including C&P                  with illegally obtained VA money. This includes
payments, home loan guaranty services, and                   real property, vehicles, household items, jewelry,
educational opportunities. Each of these                     and a certificate of deposit. An ongoing
benefits programs is subject to fraud by those               investigation has disclosed the individuals
who wish to take advantage of the system. For                defrauded VA of approximately $11.2 million
example, individuals submit false claims for                 between 1993 and August 2001. Investigation
service-connected disability, third parties steal



                                                       18

                                                                                   Office of Investigations

           The Atlanta Journal-Constitution
                investigations in the Loan Guaranty Program
                     Atlanta, GA
                           area during this period. A brief highlight of
            Wednesday, January 23, 2002
                    one such investigation follows.

                                                            z   Two individuals pleaded guilty to conspiracy to
                                                            commit wire, mail, and bank fraud. The guilty
                                                            pleas were a result of a joint investigation
                                                            conducted by the VA OIG, FBI, and the
                                                            Department of Housing and Urban Development
                                                            OIG. The investigation determined the individuals
                                                            conspired with others to purchase and dispose of
                                                            foreclosed VA and HUD properties in connection
                                                            with a “flipping” scheme. “Flipping” properties
                                                            generally involves conspirators purchasing
                                                            foreclosed, Government-insured properties at low
                                                            prices. The conspirators then obtain bogus
                                                            appraisals and resell or “flip” the properties to
                                                            unqualified buyers at significantly higher prices
                                                            based on the bogus appraisals. As part of the
                                                            scheme, the individuals created fraudulent
                                                            supporting documentation on a home computer
                                                            enabling unqualified buyers to obtain mortgage
                                                            financing. The total monetary loss in this case for
                                                            both Government and private industry is estimated
                                                            at over $600,000. Judicial actions are pending.


disclosed that a VA employee accessed and                   Beneficiary Fraud
falsified numerous VBA files to generate hundreds
of benefit payments under the accounts of
                                                            Accounting for over 30 percent of VA OIG
veterans who had died and had no beneficiaries.
                                                            investigative case inventory, fraud associated with
Subsequently, large retroactive benefits checks
                                                            the VA’s benefit payments programs leads to
were disbursed or electronically deposited into
                                                            numerous arrests and judicial actions. Over 30
accounts belonging to accomplices. Judicial
                                                            arrests were made this period in this area.
actions are pending.
                                                            Additionally, stopping payments to those not
                                                            entitled saves the Department considerable sums
Loan Guaranty Program Fraud                                 of money, and the prosecution of those
                                                            involved may deter others who may be inclined
Investigative cases of fraud associated with the VA         to commit fraud. The following represents a
loan guaranty program are often conducted                   sampling of these cases conducted during this
jointly with other law enforcement organizations.           period.
These cases include loan origination fraud
through false statements and counterfeit checks.
Other loan fraud includes false documentation,
equity skimming, and bankruptcy fraud. A total of
23 judicial actions resulted from OIG




                                                      19

Office of Investigations

Dependency and Indemnity Compensation                       Education Benefits Fraud
Benefits Fraud
                                                            A college vice president was arrested for bribing
The OIG investigated over 40 instances of                   VARO vocational and education division
Dependency and Indemnity Compensation                       employees to refer veterans as students to his
(DIC) fraud during this semiannual period.                  college. He is currently on supervised release until
Cases often involve individuals failing to report           September 2003 following 10 months incarceration
deaths of benefit recipients to VA and then                 based on a conviction in 1999 for filing false tax
diverting the funds. Additionally, cases involve            returns and obstructing justice. The president of
assumed identities, forgeries, and failure to               the college was also arrested for conspiracy to
report remarriage to the Department, which                  commit a crime and has been released on bond.
would make the individual ineligible for future             Preliminary hearings are scheduled.
benefits. A highlight of one case follows.
                                                            Fiduciary Fraud
z    The son and daughter of a deceased widow
were sentenced to 4 months’ home detention, 36              Fraud committed against disabled or incompetent
months’ probation, and 300 hours’ community                 veterans receives special attention by OIG special
service, and ordered to each pay $23,245 in                 agents. During this period the OIG conducted
restitution. A joint investigation by VA OIG, U.S.          over 10 cases of fraud associated with VA’s
Secret Service, and the Air Force Office of Special         fiduciary fraud programs. Two sample cases
Investigations revealed that following the 1993             follow.
death of their mother the daughter assumed the
mother’s identity and continued to receive her DIC          z    Special agents from the OIG acted on
benefits through February 2000 creating an                  information received from a U.S. Customs Service
overpayment of $69,736.                                     employee and the step-daughter of an 80 year old
                                                            World War II combat veteran. The step-daughter
                                                            reported that the veteran, a resident of Mexico for
Pension Benefits Fraud                                      the last 10 years, was in poor health and being
                                                            mistreated and abused by her brother, the veteran’s
Similar to DIC fraud, pension fraud includes                step-son, with whom he lived. In addition, the
fraudulent acceptance of payments based on false            step-son was allegedly forging and negotiating the
statements and failing to report disqualifying              veteran’s VA benefits checks. At the request of
information. A sample case follows.                         OIG special agents, and in coordination with
                                                            VARO Phoenix, officials of the U.S. State
z    A veteran who was granted pension benefits             Department Consulate Office, Mazatlan, Mexico,
based on his false claim of zero assets and income          conducted a “health and welfare check” and found
was sentenced to 5 years’ probation, ordered to             the veteran living in deplorable conditions at his
make restitution of $34,071, and fined $2,000 in            step-son’s ranch near Mazatlan. The veteran was
addition to reimbursing the cost of his probation.          found in a locked bedroom lying on a cot in the
Investigation disclosed the veteran had received            fetal position, wearing a soiled diaper and suffering
interest on personal investments worth                      from malnutrition and dehydration. Subsequently,
approximately $200,000 that made him ineligible             U.S. State Department and Mexican Government
for the pension.                                            officials removed the veteran from the ranch and
                                                            transported him via ambulance to a local hospital.
                                                            After further coordination, the veteran was airlifted
                                                            to the United States and admitted to a VAMC.




                                                      20

                                                                                    Office of Investigations

Upon his admission to the VAMC, the veteran                  Other Benefits Fraud
weighed 81 pounds (80 pounds under his normal
weight) and was unable to speak. A criminal                  z   The son of a deceased veteran charged with
investigation is continuing.                                 forging U.S. Treasury checks pleaded guilty to a
                                                             criminal information. A joint investigation
z    An individual pleaded guilty to three counts of         involving the VA OIG, U.S. Postal Inspection
misappropriation by a fiduciary. The guilty plea             Service, and U.S. Secret Service determined the
was the result of a joint investigation by the VA            individual cashed VA benefits belonging to his
OIG and Social Security Administration (SSA)                 deceased father. The individual admitted he forged
OIG. The investigation determined the individual,            the benefits checks for 16 years after his father’s
an attorney, misappropriated over $400,000 from              death. VA terminated the benefits after being
the estates of six veterans for whom he served as            notified by the SSA that the veteran was deceased.
conservator. Judicial actions are pending.                   Approximately $347,250 in VA benefits was
                                                             received illegally.
Theft of Benefits
                                                             z    An unlicensed caretaker and two of her
z   The nephew of a deceased VA beneficiary was              daughters were sentenced for their roles in
indicted and charged with three counts of wire               defrauding various Government agencies and
fraud. A VA OIG investigation disclosed the                  insurance companies. The woman was sentenced
veteran died in March 1990 and VA benefits                   to 57 months’ incarceration. One daughter was
continued via electronic deposits into a joint bank          sentenced to 4 months’ home confinement with
account fraudulently opened by the nephew. Over              electronic monitoring and 36 months’ probation.
a 10-year period, the nephew used his deceased               The second daughter was sentenced to 36 months’
uncle’s automated teller machine card to access the          probation. A joint investigation by the VA OIG;
VA funds for his own personal use. Loss to VA is             SSA OIG; Bureau of Alcohol, Tobacco, and
over $147,000.                                               Firearms; U.S. Postal Inspection Service; and a
                                                             state department of insurance fraud division
z   A veteran surrendered to authorities to answer           disclosed the women engaged in a scheme to
charges of criminal wire fraud. Investigation                commit fraud, make false claims, and embezzle
disclosed that the veteran falsified and altered his         funds belonging to VA and SSA benefits recipients
military records, including his DD Form 214,                 considered incompetent. The investigation also
Certificate of Release or Discharge from Active              disclosed the woman and her daughters misused the
Duty, to represent himself as a wounded prisoner             identity of a 100 percent service-connected
of war. He further fabricated his military service           disabled veteran and purchased luxury vehicles and
by claiming receipt of the Distinguished Service             jewelry, and obtained credit accounts in the
Cross, Silver Star, and a battlefield commission.            veteran’s name. The veteran’s identity was also
During a major news network interview, he falsely            used in connection with fraudulent claims related
claimed to be a surviving member of a U.S. Army              to bogus automobile accidents. The sentencing
group ordered to fire on Korean civilians during             judge took into consideration physical abuse that
the Korean War. The veteran’s false claims                   the veteran suffered through alleged beatings by the
enabled him to receive the Purple Heart and collect          woman.
disability compensation and medical care benefits
from VA, to which he was not entitled, for 16
years. Loss to the Government is estimated at over
$400,000.




                                                       21

Office of Investigations

Fraud in Connection with the World                            Fugitive Felon Initiative
Trade Center Disaster
z    A veteran’s sister was indicted and charged              On December 27, 2001, President George W.
with one count of offering a false instrument. An             Bush signed the Veterans Education and Benefits
investigation by VA OIG and a local police                    Expansion Act of 2001, Public Law 107-103,
department determined the sister filed an affidavit           which, in part, requires VA to withhold specified
for issuance of a death certificate claiming that her         benefits from veterans and dependents who are
brother was at the World Trade Center at the time             fugitive felons. The law requires the Secretary to
of the attacks in September. The individual                   furnish law enforcement personnel, upon request,
claimed that her brother was a veteran who                    the most current address of a veteran or dependent
served in the Army in 1984. VA records were                   who is determined to be a fugitive felon. Pursuant
changed to reflect that the veteran died on the               to this legislation, the Office of Investigations has
date of the attack. Detectives from the local                 established a Fugitive Felon Program area that the
police department determined the veteran was still            OIG will administer. Staff members are currently
alive and the veteran’s sister received a check for           developing necessary procedures and protocols to
$1,000 from the Disabled American Veterans.                   initiate a program designed to assist law
Detectives also determined the individual reported            enforcement organizations in apprehending wanted
two other persons missing who were also alive.                persons and in eliminating those identified as such
                                                              from the Department’s benefits roles. Identifying
                                                              fugitive veterans and dependents unlawfully
                                                              receiving VA benefits will primarily be
                                                              accomplished by conducting computerized matches
                                                              between VA benefits records and Federal and state
                                                              active fugitive felon warrant databases. VA OIG
                                                              will provide information from VA’s records to law
                                                              enforcement agencies to assist them in
                                                              apprehending fugitive felons where positive
                                                              identifications have been made. On a case-by-
                                                              case basis, VA OIG special agents may participate
                                                              with law enforcement organizations in fugitive
                                                              felon apprehension efforts. Additionally, the results
                                                              of VA OIG fugitive felon investigations will be
                                                              provided to VA to suspend benefits and initiate
                                                              recovery actions.



                                                              OIG Forensic Document
                                                              Laboratory
       VA OIG investigators participated in
      World Trade Center recovery operations                  The OIG operates a nationwide forensic document
                                                              laboratory service for fraud detection that can be
                                                              used by all elements of VA. The types of requests
                                                              routinely submitted to the laboratory include
                                                              handwriting analysis, typewriting analysis, ink and




                                                        22

                                                                                      Office of Investigations

paper analysis, analysis of photocopied documents,                officials and other high profile matters of
and suspected alterations of official documents.                  interest to the Congress and the
                                                                  Department.
There were a total of 26 cases completed during
this semiannual period.                                       Resources
    Laboratory C ases for the Period
                                                              The Administrative Investigations Division has six
                                         C a se s
            Requester                                         FTE allocated. The following chart shows the
                                       C ompleted
                                                              percentage of resources used in reviewing
OIG Offi ce of Investi gati ons              11               allegations by program area.
VA Regi onal Offi ces                       12
Offi ce of Securi ty and Law
                                              2
Enforcement
                                                                                                 VACO
Other                                         4                                                   10%

             TOTAL                          29                     VHA
                                                                   85%

The following is an example of a completed                                                          VBA
laboratory case:                                                                                     5%


z   A VARO submitted military records to the
laboratory that the veteran used as justification for
service-connected VA benefits. Laboratory                     Overall Performance
examinations determined some military records                 During the reporting period, the Division closed 19

were fraudulent based upon information in the                 cases.

records and methods used to create the records.
When interviewed, the veteran admitted he had                 Output

created military records, had not been wounded in             z   During the reporting period, seven reports and

combat, and had not been a prisoner of war. The               four advisory memoranda were issued. Eight cases

veteran’s court sentence is pending. Loss to VA is            resulted in administrative closures.

over $324,000 in compensation payments and
$87,000 in medical benefits.                                  Outcome

                                                              z   VA managers agreed to take administrative

                                                              sanctions against 9 officials, and take 14 corrective

II. ADMINISTRATIVE                                            actions to improve operations and activities as a

                                                              result of these investigations. The corrective

INVESTIGATIONS                                                actions included clarifying certain legal issues,

DIVISION                                                      issuing new program guidance, clarifying

                                                              physicians’ official duties and time, and charging

                                                              physicians leave for time not worked.

Mission Statement
                                                              A sample of the Administrative Investigations

    Independently review allegations and                      Division reports issued during this period are

    conduct administrative investigations                     discussed below. These reports address serious

    generally concerning high-ranking senior                  issues of misconduct against high-ranking officials

                                                              and other high profile matters of interest.




                                                        23

Office of Investigations

Veterans Health                                               VCS sales or merchandise, as opposed to
                                                              employee morale or improving a medical center’s
Administration                                                image. Many of the expenditures reviewed
                                                              provided no clear evidence that promotion of VCS
                                                              sales was a primary purpose of the event
Part-Time Physician Time and                                  sponsored. Many did not appear to be logically
Attendance                                                    related to promoting VCS sales, such as providing
                                                              refreshments purchased at competing businesses,
                                                              or providing refreshments to individuals at
During this period, the Administrative
                                                              locations that did not have canteens. In response
Investigations Division completed three
                                                              to our recommendations, VHA agreed to discuss
investigations dealing with part-time physician
                                                              with the VCS Director the importance of properly
time and attendance issues. In each of these
                                                              using the promotional fund; to submit recently
cases, and based on the reports provided, the
                                                              revised policy guidance to OGC for review; and to
Department took necessary corrective actions. A
                                                              ask OGC about the propriety of allocating
highlight from one of these cases follows.
                                                              promotional funds to locations that do not have
                                                              VCS operations.
z    An administrative investigation substantiated
that a part-time physician routinely worked at a
non-VA clinic during his VA core hours, and failed            Research Funds
to meet his full VA tour of duty obligation. The
investigation also substantiated that the physician’s         z   An administrative investigation disclosed that a
supervisor did not ensure that the physician worked           medical center director certified an agreement to
the hours required. In response to our                        obligate over $414,000 in research funds to the VA
recommendations, appropriate administrative                   supply fund, under the “1VA + Fund” program,
action was taken against the physician and the                without adequately justifying the need for and
supervisor, the physician was charged leave for               intended use of the money. The investigation
hours not worked, and was instructed to revise his            further disclosed that, by using the VA supply fund
tour of duty at the non-VA clinic. Further, the               to carry over research money to another fiscal year,
facility’s chief of staff sent a written reminder to          officials circumvented VHA policy requiring field
other part-time physicians that they are required to          facilities to obtain approval to carry over excess
be at the medical center during their core hours,             funds, and thereby denied the Office of Research
unless they are in an appropriate leave status, and           and Development the option of redistributing them.
must obtain approval when they need to change                 VHA officials agreed to recommendations to
their non-core hours.                                         discuss with the officials involved the need to
                                                              properly document supply fund agreements, and
                                                              the need to adhere to VHA policy requiring
Veterans Canteen Service
                                                              approval to carry over excess funds. VHA
                                                              officials further agreed to ensure the documents
z    An administrative investigation substantiated            obligating the $414,000 were properly amended.
that the Director, Veterans Canteen Service (VCS),
and various canteen service chiefs did not use
funds in the VCS promotional program in
accordance with legal restrictions. The Office of
General Counsel (OGC) twice stated that these
funds may lawfully be used only for activities
which have as a primary purpose the promotion of




                                                        24

OFFICE OF AUDIT

Mission Statement                                            Overall Performance
    Improve the management of VA programs                    Output

    and activities by providing our customers                z    We issued 21 audits, evaluations, and reviews

    with timely, balanced, credible, and                     for an output efficiency of 1 report per 3.9 FTE

    independent financial and performance                    during this 6-month period. We also issued an

    audits and evaluations that address the                  additional 31 contract review reports (9 preaward

    economy, efficiency, and effectiveness of VA             and 22 postaward contract reviews), for an output

    operations, and that identify constructive               efficiency of about 2.6 reports per FTE for the 6-

    solutions and opportunities for improvement,             month period.

    and to conduct preaward and postaward
    reviews to assist contracting officers in price          Outcome

    negotiations and to ensure reasonableness of             z   Recommendations to enhance operations and

    contract prices.                                         correct operating deficiencies have associated

                                                             monetary benefits totaling approximately

Resources                                                    $539.4 million. In addition, contract reviews

                                                             identified monetary benefits of about $25.4 million

The Office of Audit has 176 FTE allocated for its            associated with the performance of preaward and

headquarters and eight operating divisions located           postaward contract reviews.

throughout the country. The following chart shows
the allocation of resources used in auditing each of         Cost Effectiveness

VA’s major program areas:                                    z   We achieved a return of about $49 in

                                                             monetary benefits for every dollar spent on audits,

                                                             evaluations, and reviews during this 6-month

                                                             period. We also achieved a return of about $18 in

                               A&MM                          monetary benefits for every dollar spent on

                                5%
                                            IT               contract reviews. Additionally, contracting officers

                                           4%                sustained 63 percent of our recommended better

       VBA
       73%                                                   use of funds during negotiations.

                                       Management
                                           7%                Customer Satisfaction

                                 VHA                         z   Customer satisfaction with performance and

                                 11%                         financial audits and evaluations during this

                                                             reporting period was 4.2 on a scale of 5.0. The

                                                             average customer satisfaction rating achieved for

In addition, the Office of Audit’s Contract Review           contract reviews was 4.9 out of a possible 5.0.

and Evaluation Division has 24 FTE authorized for
reimbursement under an agreement with the VA                 Audits completed during the period identified

Office of Acquisition and Materiel Management.               opportunities to improve services to veterans, and

This division conducts preaward and postaward                identified savings that could be used to increase

reviews of certain categories of VA contracts.               services. The following summarizes some of the





                                                       25

Office of Audit

audits completed during the reporting period                  z    Communicate MCCF performance goals and

organized by VA component: VHA, VBA, Office                   expectations to VISN and medical facility

of Management, Office of Information and                      directors. Hold them accountable for results by

Technology, and multiple office action.                       measuring performance and addressing

                                                              performance gaps.

Veterans Health                                               z    Establish performance standards for clinical

                                                              and administrative staff involved in all phases of

Administration                                                the MCCF program (patient registration, coding,

                                                              billing, collection, and utilization review) and

Resource Utilization                                          require VISN and medical facility directors to

                                                              monitor performance results and address

                                                              performance gaps. Make additional resources

Issue: Medical Care Collection Fund                           available for MCCF functions as justified by the

   (MCCF).                                                    performance standards.

Conclusion: VHA can significantly                             z    Improve medical record documentation so that

   increase MCCF collections.                                 treatments are coded accurately and billed

Impact: Increase MCCF recoveries by                           properly.

   over $500 million.                                         z    Ensure that VA medical facilities use

                                                              preregistration software.

The purpose of this audit was to: (i) evaluate the            z    Expand training for MCCF personnel (patient

implementation of the MCCF program, (ii) follow               registration staff, physicians, coders, billing clerks,

up on recommendations made in a previous audit,               collection staff, and utilization review staff).

and (iii) determine if there were opportunities to            z    Follow up with insurance carriers on

enhance MCCF program recoveries. Results of                   delinquent accounts receivable.

our audit showed VHA could enhance MCCF                       z    Promote the importance of the MCCF program

collections by requiring VISN and medical facility            to veteran patients and staff by demonstrating how

directors to better manage MCCF program                       MCCF collections benefit each facility’s ability to

activities. Recommendations made in our prior                 provide medical services to veterans.

review of the MCCF program, “Audit of the
Medical Care Cost Recovery Program,” Report                   The Acting Under Secretary for Health concurred

No. 8R1-G01-118, dated July 10, 1998, were not                with the audit findings and provided acceptable

adequately implemented and conditions identified              implementation plans. (Audit of the Medical Care

during that audit, including missed billing                   Collection Fund Program, 01-00046-65, 2/26/02)

opportunities, billing backlogs, and inadequate
follow up on accounts receivable, were continuing.

We concluded that, by effectively implementing our
recommendations, VHA could increase collections
by about $135 million (24 percent) in FY 2000.
Additionally, clearing the backlog of unissued bills
that currently totals over $1 billion would result in
additional collections of about $368 million.

We recommended the following actions to improve
the MCCF program:




                                                        26

                                                                                             Office of Audit

Veterans Benefits                                          We did not find any other instances of employee

                                                           fraud like that perpetrated at VARO Atlanta. Our

Administration                                             review covered 58,129 OTP and 2,129 fraud

                                                           profile cases, for a total of 60,258 cases. As of

Fraud Detection                                            March 20, 2002, we had reviewed 59,942 cases

                                                           (99.5 percent of the total) and had concluded that

                                                           payments were valid for 59,807 cases (99.8

Issue: C&P one-time payments and
                                                           percent of the cases reviewed). Payments were not

   related security controls.
                                                           valid for the remaining 135 reviewed cases, all of

Conclusion: Most one-time payments
                                                           which were OTPs associated with the VARO

   reviewed were valid. VAROs needed to
                                                           Atlanta frauds. The 316 unreviewed cases were

   fully comply with security
                                                           associated with C-files that could not be located

   requirements for the Benefits Delivery
                                                           for our review. We will follow up on these cases

   Network and for sensitive VA claims
                                                           and report any fraud found to the Secretary.

   files.
Impact: Deterrence of fraud.
                                                           Our review found unacceptably high rates of

                                                           noncompliance with internal control requirements

At the request of the Secretary of Veterans
                                                           related to OTPs and C&P claims processing:

Affairs, the OIG conducted a special review of
large C&P OTPs processed by VAROs. The
                                                           z     OTP Three-Signature Control. Three-

Secretary requested this review in September
                                                           signature reviews were not made for 41,149 (71

2001 following the discovery that a VARO Atlanta,
                                                           percent) of the 57,656 OTPs that were subject to

GA employee had bypassed controls and
                                                           these reviews.

generated about $11.2 million in fraudulent C&P
                                                           z     BDN Security. Fifty-three (93 percent) of the

payments.
                                                           57 VAROs had not fully complied with 6 major

                                                           controls designed to prevent unauthorized access to

The main objectives of the review were to verify
                                                           and misuse of the BDN system.

the validity of large OTPs and to determine if the
                                                           z    Sensitive C-File Security. Seventeen (30

type of employee fraud found at VARO Atlanta
                                                           percent) of the 57 VAROs had not transferred all

had occurred at other VAROs. In addition, we
                                                           sensitive C-files to other designated VAROs (called

reviewed active C&P awards that we considered
                                                           sister stations). Of the 49 sister stations, 32 (65

vulnerable to fraud based on profiles we developed
                                                           percent) had not securely stored all sensitive C-

using characteristics associated with employee
                                                           files.

frauds. We also evaluated VARO compliance with
VBA requirements for OTP three-signature
                                                           In September 2001, VBA began requiring that

reviews, BDN security, and physical security for
                                                           VARO management review all large OTPs to

sensitive C-files. To accomplish these objectives,
                                                           ensure that payments were appropriate and that

we conducted onsite reviews at 57 of the 58
                                                           three-signature reviews were performed. If

VAROs.1 During these reviews, we also provided
                                                           properly enforced, this procedure can be an

fraud and integrity awareness briefings to about
                                                           effective control for detecting inappropriate OTPs.

5,150 VARO employees.
                                                           Accordingly, we did not make any

                                                           recommendations on OTPs or three-signature

                                                           reviews.





                                                     27

Office of Audit

We recommended that the Acting Under                           At that time, we estimated that $26 million in
Secretary for Benefits require VAROs to: (i)                   overpayments could have been prevented and we
certify to VBA that they have corrected the BDN                made recommendations to the Under Secretary for
and C-file security deficiencies identified by our             Benefits to help reduce overpayments. Two
review, and (ii) annually recertify that they are in           recommendations made were: (i) to revise due
full compliance with BDN and C-file security                   process procedures to allow VA to take more
controls. The Acting Under Secretary for                       timely action to reduce benefit overpayments
Benefits concurred with the recommendations and                caused by eligibility status changes, and (ii) to
provided acceptable implementation plans.                      direct VARO and VBA staff to make
(Special Review of VA Compensation and                         overpayment prevention a continuous focus area
Pension One-Time Payments and Related                          of their quality reviews in order to detect and trend
Security Controls, 01-02957-75,                                factors contributing to overpayments and take
3/29/02)                                                       corrective actions.

Delivery of Benefits and Services                              This review focused on C&P overpayments,
                                                               valued at $233 million that were established and
Issue: C&P overpayments.                                       remained outstanding at the end of FY 2000. We
Conclusion: VBA needs to implement                             estimated that $26.6 million in overpayments could
   procedural changes to further reduce                        be prevented annually. While our prior report also
   benefit overpayments.                                       estimated that over $26 million of annual
Impact: Potential better use of                                overpayments could be avoided, we found that
   $26.6 million.                                              some improvement had been made. In comparison,
                                                               both the number and value of the overpayments
The purpose of the evaluation was to follow up on              sampled that could have been prevented declined
the OIG’s Report No. 7R1-B01-105, “Review of                   by 4 percent and 10 percent, respectively. Root
the Causes of Compensation and Pension                         causes of the preventable overpayments related to:
Overpayments,” dated December 2, 1996. Another                 (i) the delay in implementing changes in the due
objective of the evaluation was to assess whether              process procedures, (ii) untimely or inappropriate
VBA’s changes in claims processing procedures                  actions taken by VARO staff which often require
have helped prevent avoidable C&P overpayments.                additional or unnecessary work, and (iii) the need
                                                               to change claims processing practices that
C&P benefits are paid to eligible veterans and their           contribute to benefit overpayments. We also found
survivors. During FY 2000, VA paid about                       that VARO management had not conducted
$22.2 billion in C&P benefits to approximately                 continuous focused quality reviews to identify
3.2 million beneficiaries. Overpayments represent              opportunities to prevent overpayments.
debts owed VA and occur when beneficiaries
receive payments to which they are not entitled,               Since our prior report, VA is designing a number of
generally as a result of changes in eligibility status         business process reengineering initiatives including
(dependency, income, death, and other changes).                some measures to prevent overpayments. For
The value of the FY 2000 overpayments that were                example, VA is coordinating with the SSA to
established and remained outstanding as of                     automate and streamline the process by which
September 30, 2000 was about $233 million.                     VAROs obtain SSA data. Earlier notification and
                                                               timely processing of changes in Social Security
Our prior report focused on C&P overpayments,                  benefits can prevent unnecessary overpayments.
valued at about $120 million that were established             Additionally, in November 2000, the Under
and remained outstanding at the end of FY 1995.                Secretary for Benefits signed a proposed rule to




                                                         28

                                                                                                   Office of Audit

amend existing due process requirements, which                 The OIG contracted with the independent public
when implemented, will help prevent                            accounting firm Deloitte & Touche LLP to perform
overpayments. The final rule was published in the              the audit. The OIG defined the requirements of
Federal Register with an effective date of                     the audit, approved the audit plans, monitored the
December 10, 2001. This allows VA to increase                  audit, and reviewed the draft reports. The
or decrease benefit payments based on                          independent auditors’ report provided an
information submitted orally or by e-mail, facsimile,          unqualified opinion on VA’s FY 2001 and 2000
or other electronic means, and makes it easier for             consolidated financial statements. We agree with
beneficiaries to submit information that they must             the auditors’ opinion, and the conclusions in the
provide.                                                       related report on VA’s internal control over financial
                                                               reporting and compliance with laws and regulation.
We recommended that VBA management take
action to reduce C&P overpayments by: (i)                      The report on internal control identifies 11
implementing our prior recommendations relating                reportable conditions, of which 6 are material
to due process notification procedures and making              weaknesses. Two material weaknesses identified
overpayment prevention a continuous focus area of              were reported last year: (i) information technology
quality review, (ii) reinforcing and clarifying                security controls, and (ii) integrated financial
processing procedures to ensure that timely and                management system and control issues. The four
complete actions are taken on beneficiary status               new material weaknesses relate to: (iii)
changes that impact overpayments, (iii) revising VA            management ownership of financial data, (iv)
policy to include all VA entities in the definition of         reliance on independent specialists, (v)
first party, and (iv) revising processing procedures           management legal representations, and (vi) loan
and clarifying VA policy to proactively suspend                guaranty application systems.
benefits when bad addresses cannot be resolved.
The Acting Under Secretary for Benefits concurred              The report also discusses five reportable conditions
with the findings and provided acceptable                      that, while not considered material weaknesses, are
implementation plans for the recommendations.                  significant system or control weaknesses that could
(Follow-up Evaluation of the Causes of                         adversely affect the recording and reporting of the
Compensation and Pension Overpayments,                         Department’s financial information. The three
01-00263-53, 2/20/02)                                          reportable conditions that were repeated from last
                                                               year’s report are: (i) application program and
                                                               operating system change controls, (ii) business
Office of Management                                           continuity and disaster recovery planning, and (iii)
                                                               operational oversight. The two new reportable
VA’s Consolidated Financial                                    conditions identified this year are: (iv)
                                                               authorization of compensation benefit payments,
Statements                                                     and (v) the loan guaranty business process.
Issue: VA’s Consolidated Financial                             The report on compliance with laws and
   Statements for FYs 2001 and 2000.                           regulations continues to conclude that VA is not in
Conclusion: Audit resulted in an                               substantial compliance with the financial
   unqualified opinion, but significant                        management system requirements of the Federal
   control weaknesses and                                      Financial Management Improvement Act of 1996.
   noncompliance items still remain.                           The internal control issues concerning an
Impact: Improved stewardship of VA                             integrated financial system and information
   assets and resources.




                                                         29

Office of Audit

technology security controls indicate                        Postaward Contract Reviews
noncompliance with requirements of the OMB
Circulars A-123, A-127, and A-130.                           Issue: Contractor overcharges for
                                                                pharmaceuticals and medical supplies.
The Principal Deputy Assistant Secretary (PDAS)              Conclusion: Postaward reviews disclosed
for Management stated that he had reviewed the                  overcharges.
report and would share the findings with senior              Impact: Recovery of $20.9 million
officials in VHA, VBA, and other VA staff and
program managers. We will follow up on these                 z   We completed four Public Law 102-585
findings and evaluate implementation of corrective           compliance reviews at pharmaceutical vendors,
actions during our audit of VA’s FY 2002                     with recoveries amounting to $885,648.
consolidated financial statements. (Audit of VA’s
Consolidated Financial Statements for Fiscal                 z   We completed 18 reviews of FSS vendors’
Years 2001 and 2000, 01-01463-69, 2/27/02)                   contractual compliance with specific provisions of
                                                             their FSS contracts. Recoveries amounted to
Preaward Contract Reviews                                    $20 million.

Issue: Federal Supply Schedule (FSS)                         Maintaining an aggressive postaward contract
   vendors’ best prices.                                     review program has resulted in numerous
Conclusion: Vendors can offer better                         companies submitting voluntary disclosures and
   prices to VA.                                             refund offers for overcharges on their contracts
Impact: Potential better use of                              with VA. Contract review recoveries are a major
   $2.6 million.                                             source of revenue to VA’s Revolving Supply Fund.
                                                             These recoveries reflect VA working as a team
Preaward reviews of three FSS proposals                      with Acquisition and Materiel Management and
contained recommendations that could lead to cost            VHA personnel, Office of General Counsel
savings of about $2.6 million. These                         attorneys, and the Office of Inspector General
recommendations were due to the manufacturers                participating in an effort to ensure that VA’s
not offering the most favored customer prices to             contracts are fairly priced.
the FSS customers when those prices were
extended to commercial customers purchasing
under similar terms and conditions as the FSS.

Issue: Health care resource contracts.
Conclusion: VA can negotiate reduced
   contract costs.
Impact: Potential better use of
   $1.9 million.

We completed reviews of six proposals from VA
affiliated medical schools involving scarce medical
specialists’ services. We concluded that the
contracting officer should negotiate reductions of
$1.9 million to the proposed contract costs because
of differences between the proposed costs for the
services solicited and the costs the affiliate could
justify during the reviews.



                                                       30

                                                                                                  Office of Audit

Office of Information and                                       z   VA information security vulnerabilities should
                                                                continue to be identified as a Departmental
Technology                                                      material weakness area under the Federal
                                                                Managers’ Financial Integrity Act.
Security Controls
                                                                While the Secretary of Veterans Affairs has
                                                                appointed a Department level Chief Information
Issue: VA’s information security program.
                                                                Officer (CIO) to provide leadership and direction
Conclusion: VA’s programs and sensitive
                                                                to VA’s information security program and to
   data are vulnerable to destruction,
                                                                facilitate a “One-VA” approach to information
   manipulation, and inappropriate
                                                                security, additional action is needed. We made a
   disclosure.
                                                                series of recommendations to the CIO to address
Impact: Improved automated data
                                                                the information security weaknesses identified by
   processing security.
                                                                the audit. The CIO concurred with the
                                                                recommendations and provided acceptable
The audit evaluated VA information security

                                                                implementation plans.
controls and management and found that

significant security vulnerabilities continue to place

                                                                We also recommended that the PDAS for
the Department at risk of:

                                                                Management establish centralized information
                                                                security budgetary control for all information
z   Denial of service attacks on mission critical

                                                                technology initiatives. While the PDAS for
systems.

                                                                Management did not agree with this
z   Disruption of mission critical systems.

                                                                recommendation, details were provided on other
z   Unauthorized access to and disclosure of data

                                                                actions to implement control measures over the
subject to Privacy Act protection and sensitive

                                                                information technology approval and acquisition
financial data.

                                                                process that generally meets the intent of the
                                                                recommendation.
The following key issues were identified:

                                                                Recently, VA completed installing the enterprise-
z   VA has established comprehensive information

                                                                wide anti-virus infrastructure. The Office of
security policies, procedures, and guidelines, but

                                                                Cyber Security has worked closely with the OIG
implementation and compliance have been

                                                                to establish priorities for GISRA remediation
inconsistent.

                                                                actions and in the development of a Departmental
                                                                security plan that is organized by priorities
z   VA has been slow to implement a risk

                                                                established by the OIG. However, the OIG
management framework. As a result, VA does not

                                                                believes the schedule for corrective and
comply with the Government Information Security

                                                                remediation actions is not aggressive enough to
Reform Act (GISRA); OMB Circular A-130,

                                                                ensure timely corrective actions. (Audit of the
Appendix III; and Presidential Decision Directive

                                                                Department of Veterans Affairs Information
63 security requirements.

                                                                Security Program, 00-02797-01, 10/24/01)
z   Penetration tests verified that VA systems

could be exploited to gain access to sensitive

veteran benefit and health care information.





                                                          31

Office of Audit

Multiple Office Action                                      Clinger/Cohen Act). Project managers did not
                                                            properly carry out administrative functions.

Issue: VA’s HR LINK$ payroll and human                      To address these issues, we recommended no
   resources system replacement                             further resources be expended on the HR LINK$
   project.                                                 project until a determination is made of what the
Conclusion: HR LINK$ project was not                        stakeholders want in a payroll and human resources
   effectively managed, and prior audit                     system. Based upon stakeholder decisions,
   recommendations were not                                 determine if continuing with the HR LINK$
   implemented.                                             project will meet the Department’s and
Impact: Improved project management                         stakeholders needs and result in a cost effective
   and better use of funds.                                 system for VA, or whether alternatives should be
                                                            sought.
The objectives of this audit were to: (i) follow up
on the recommendations of a prior OIG review,               The PDAS for Management and the Assistant
and (ii) advise Department officials on the                 Secretary for Human Resources and
appropriateness of continuing with the HR LINK$             Administration concurred with all findings and
project as the best means of achieving an effective         recommendations in the report and provided
payroll and human resources system in a cost                acceptable implementation plans.
efficient manner.
                                                            The Secretary of Veterans Affairs, based on the
The original scope of the HR LINK$ project was              recommendation of the VA Senior Management
to replace VA’s antiquated payroll system and to            Council, approved the shutdown of the
automate VA’s personnel functions. This was the              HR LINK$ project. All development and
second OIG review performed after the first                 software license contracts were terminated by
evaluation found problems with project                      January 2002. The PDAS for Management
management, accumulation of cost data, security             reported that total HR LINK$ project costs at the
controls, and project slippage. The estimated               end of FY 2002 will be aproximately $240 million
project completion date has slipped from FY 1999            and VA avoided the potential additional $229
to FY 2003. The estimated project cost was                  million of cost to complete the HR LINK$ project.
$37 million. New budget estimates projected                 (Audit of VA’s HR LINK$ Payroll and Human
completion in FY 2006 with an estimated cost of             Resources System Replacement Project, 01-
$469 million. As of October 2001, VA still lacked           00949-81, 3/29/02)
a finished replacement system for its human
resource and payroll functions.

This audit identified a number of issues and areas
of concern that need improvement and increased
oversight by VA officials. Project documentation
of plans and goals was insufficient. There was a
lack of supervisory control over contractor
performance. Managers did not ensure that VA
received value for money spent. Stakeholders
were not adequately involved in project planning.
The project did not comply with the Information
Technology Management Reform Act of 1996 (the




                                                      32

OFFICE OF HEALTHCARE INSPECTIONS
Mission Statement                                           recommendations to improve operations and
                                                            activities, and the care and services provided to
    Promote the principles of continuous quality            patients.
    improvement to provide effective inspections,
    oversight, and consultation to enhance and              z   We completed 1 program evaluation and 1
    strengthen the quality of VA’s health care              focused review, and developed 21
    programs.                                               recommendations to correct conditions identified
                                                            and improve the care and services provided to
                                                            patients.
Resources
                                                            z   We completed 17 Hotline cases in which we

The Office of Healthcare Inspections (OHI) has 46
                                                            reviewed 54 issues, and developed 47

FTE allocated to staff headquarters and field
                                                            recommendations to correct conditions identified

operations. Twelve of the 46 FTE are new
                                                            and improve the care and services provided to

positions allocated for the activation of two new
                                                            patients.

Healthcare Inspections field offices in Dallas,
Texas, and Bedford, Massachusetts. The following
                                                            z   We monitored the completion of another 106

chart shows the allocation of resources used in
                                                            Hotline cases by VHA, and reviewed 170

inspecting each of VA’s major health care areas.
                                                            associated issues.


                                                            z   We provided clinical consultative support to

                                 Hotline
              Consults
                              Inspections
                                                            investigators on six criminal cases.

                5%
                                  20%
                                                            z   We followed up on recommendations made at

         CAPs
         25%
                                  Oversights                nine medical centers to ensure managers acted on

                                    15%                     their implementation plans to improve care and

         Technical
                                                            services.

         Review s            Evaluations
           5%                   30%                         z   We completed 44 technical reviews on

                                                            recommended legislation, new and revised policies,

                                                            new VA program initiatives, and external draft

                                                            reports.


Overall Performance                                         Outcome

                                                            z   Overall, we made or monitored the

Output                                                      implementation of 122 recommendations to

Inspectors completed 195 initiatives this reporting         improve the quality of care and services provided

period.                                                     to patients and their families. VHA

                                                            implementation plans will improve clinical care

z   We participated in 11 CAP reviews, evaluated            delivery, management efficiency, patient safety, and

health care-related issues, and developed 54                employees’ accountability for their actions.





                                                      33

Office of Healthcare Inspections

Veterans Health                                             Thirteen percent of the laboratory areas reviewed
                                                            were not adequately restricting public access. Most
Administration                                              laboratories were not using logbooks to monitor
                                                            individuals accessing the laboratory areas. Two
                                                            facilities were allowing unescorted vendors to
Program Review                                              deliver radioactive materials to storage areas after
                                                            hours. Better controls were needed to account for
Issue: Adequacy of security and inventory                   non-citizen without compensation researchers,
   controls over selected agents.                           employees, and contractors having access to
Conclusion: Managers needed to                              laboratory areas. Tracking of non-citizen
   strengthen security and inventory                        employees and contractors was generally not
   controls in research and clinical                        performed.
   laboratory areas.
Impact: Increased public safety by                          We made 16 recommendations to strengthen
   strengthening security over biological                   security, access, inventory, and oversight
   agents, toxic chemicals, and                             requirements and procedures for safeguarding all
   radioactive materials, and improved                      high-risk or sensitive materials or agents used in VA
   monitoring of foreign nationals and                      facilities, including items on the Centers for Disease
   contractors working in VA medical                        Control and Prevention select agents list, other
   facilities.                                              biological agents and toxic chemicals, and those
                                                            pharmaceuticals that have the potential to become
In the wake of terrorist attacks on September 11,           weapons of mass destruction. The Acting Under
2001, and growing concerns of anthrax discovered            Secretary for Health concurred with our
in the U.S. postal system, we reviewed the                  recommendations and provided responsive
adequacy of security and inventory controls over            implementation plans. (Review of Security and
selected biological, chemical, and radioactive              Inventory Controls Over Selected Biological,
agents owned by or controlled at VA facilities. We          Chemical, and Radioactive Agents Owned by or
obtained and verified inventories and employment            Controlled at Department of Veterans Affairs
information received from 88 VA facilities that had         Facilities, 02-00266-76, 3/14/02)
biosafety level (BSL)-2 and BSL-3 research
laboratories. A BSL-3 level designation means
                                                            Focused Inspection
that a laboratory requires safety precautions to
handle indigenous or exotic agents, which carry
potential for harm or aerosol exposure. Exposure            Issue: Effectiveness of VHA’s compliance
to these agents may have serious or even lethal                program.
consequences.                                               Conclusion: Coding errors were
                                                               significantly higher than the Health
Common findings included unsecured laboratory                  Care Finance Administration’s error
entrances, weak key turn-in controls, and                      rate.
unchanged codes to combination locks. There was             Impact: Proper reimbursement for
an absence of security devices such as video-                  services.
surveillance equipment, key-card or biometric
devices monitoring traffic in and out of                    We conducted a review of VHA’s compliance
laboratories, or jimmy plates on doors. We also             programs and coding accuracy at selected VHA
found unlocked refrigerators and unlocked storage           medical facilities. Our review of outpatient coding
containers that were used to hold sensitive agents.         at 15 VA medical facilities showed that employees
Access controls also varied at VA facilities.               needed to focus their attention on reducing the
                                                            coding error rate for outpatient visits and improving


                                                      34

                                                                        Office of Healthcare Inspections

their internal control procedures. About 50
percent of the 570 outpatient visits reviewed
contained coding errors - significantly higher than
the 30 percent error rate the Health Care Finance
Administration reported from its review of private
sector billings.

Managers had made progress in implementing the
compliance program, but several improvements
could be made, including the establishment of a
national hotline for compliance reporting.
Managers also need to better educate clinicians on
the necessary documentation requirements to                          Louis Stokes VA Medical Center
accurately bill for services rendered. Managers                              Cleveland, OH
need to evaluate the outcomes of their training             (ii) patients were not receiving permanent vascular
efforts, and include their evaluation results in            access in a timely manner, and (iii) patients who
subsequent training sessions.                               received vascular access experienced serious
                                                            infections.
We recommended the Under Secretary for Health
require VHA managers to set incremental goals to            We made nine recommendations to improve the
improve coding accuracy, train clinicians and               quality of care provided to hemodialysis patients.
coders, and implement a compliance program at all           The Director concurred with our recommendations
VA facilities. The Under Secretary for Health               and provided acceptable implementation plans.
concurred with the recommendations and provided             (Healthcare Inspection – VA Hemodialysis
responsive implementation plans. (Evaluation of             Program, Louis Stokes Veterans Affairs Medical
Veterans Health Administration Coding Accuracy              Center, Cleveland, Ohio, 00-02913-04, 10/2/01)
and Compliance Program, 01-00026-68, 2/25/02)
                                                            Issue: Patients’ death in the operating
Healthcare Inspections (Hotline                                room.
Cases)                                                      Conclusion: One patient death warranted
                                                               evaluation by the quality manager.
Issue: Hemodialysis care.
                                  Impact: Strengthened procedures for
Conclusion: Hemodialysis patients did not
                     conducting boards of investigation.
   always receive prompt and adequate
   surgical and radiological interventions                  A complainant alleged that: (i) the Director
   to support their needs.                                  purposefully withheld the results of a board of
Impact: Improved procedures for                             investigation he (the complainant) requested, (ii)
   coordinating care of hemodialysis                        clinical managers did not investigate two operating
   patients between services.                               room deaths, and (iii) managers did not adequately
                                                            investigate an allegation that an employee verbally
Complainants made serious allegations about the             abused a patient. Although we did not substantiate
promptness and adequacy of hemodialysis. We                 any of the allegations, we did find that one death
concluded that: (i) patients were not always                which occurred in the operating room needed to be
receiving prompt and adequate surgical and                  evaluated by quality managers.
radiological interventions necessary to support the
health care needs of chronic hemodialysis patients,         We recommended the Director initiate a review of
                                                            the death. The Director concurred with our



                                                      35

Office of Healthcare Inspections

recommendation and provided acceptable                       Issue: Reporting to the National
implementation plans. (Healthcare Inspection –                  Practitioner Data Bank (NPDB).
Board of Investigation and Patient Care Issues,              Conclusion: Director was unaware of
VA Medical and Regional Office Center, Fargo,                   reporting requirements.
North Dakota, 01-00981-2, 10/2/01)                           Impact: Weakening of the NPDB’s
                                                                effectiveness.
Issue: Patient transfer policies and
   procedures.                                               Our review found that a VAMC Director did not
Conclusion: Emergency Room clinicians                        report a physician’s performance related
   were unaware of 911 emergency                             infractions to the NPDB as required by VHA
   transfer procedures.                                      policy. The Director formally agreed not to report
Impact: Strengthened understanding of                        the physician in return for the physician’s
   emergency transfer procedures.                            resignation. VHA policy expressly prohibits
                                                             officials from entering into such agreements.
An employee of the New York Department of                    Actions such as these weaken the NPDB in serving
Health alleged that VAMC Emergency Room                      as a clearinghouse for information about health
clinicians transferred an unstable patient to one of         care providers.
their community hospitals without notifying the
facility or forwarding the medical records. We
found that VAMC clinicians transferred the patient
as a 911 emergency to a nearby trauma center. In
effecting the emergency transfer, VAMC clinicians
did not notify the receiving hospital and neglected
to forward the appropriate medical information.
VAMC clinicians did not inform the receiving
hospital because they did not know where the
ambulance personnel were taking the patient. We
also found the patient waited an excessive amount
of time at the VAMC before being transferred.
                                                                            VA Medical Center
We concluded that VAMC Emergency Room                                        Fayetteville, NC
clinicians were unaware of alternative trauma unit
transfer options when 911 emergency transfers are            Action was taken to educate all VAMC directors
necessary. We made four recommendations that                 regarding this requirement, and to report the
will strengthen employees’ understanding of                  physician’s infractions to the NPDB. Appropriate
emergency transfer procedures. The Director                  administrative action was also taken against the
concurred with our recommendations and provided              responsible Director who did not comply with
acceptable implementation plans. (Healthcare                 VHA policy. (Healthcare Inspection – Reporting
Inspection – Patient Transfer and Discharge                  Infractions to the National Practitioner Data
Issues, VA Medical Center, Brooklyn, New York,               Bank, Veterans Affairs Medical Center,
01-00809-3, 10/2/01)                                         Fayetteville, NC, 01-00900-11, 10/30/01)




                                                       36

                                                                         Office of Healthcare Inspections

Issue: Patient abuse.
                                       Issue: Quality of care.
Conclusion: Clinicians were remiss in
                       Conclusion: Patient received appropriate
   documenting treatment and reporting                          and timely care.
   changes in a patient’s condition.                         Impact: Greater awareness of privacy
Impact: Improvements in documentation                           laws.
   and communication procedures.
                                                             A complainant alleged that her brother received
A complainant alleged that a nurse treated a patient         substandard treatment and that VAMC employees
abusively and that this treatment may have                   were unresponsive to her inquiries about her
contributed to the patient’s death. The complainant          brother’s medical condition. We did not
also alleged that nursing employees were negligent           substantiate the allegation of substandard
in their care of other patients on the unit. We did          treatment. We found that the patient received
not substantiate the complainant’s allegation of             appropriate and timely care.
abuse or neglect. However, we found several
instances in which clinicians were remiss in their           We concluded that medical center employees
responsibilities to document treatment and to                properly complied with privacy laws when they
communicate changes in the patient’s condition.              withheld the patient’s medical information from the
We also found significant deficiencies in nursing            complainant. The patient’s brother was his legal
documentation on the unit and an apparent                    guardian. Privacy laws prohibited clinicians from
breakdown in communication between the                       discussing anything about the patient’s condition
residents, the nurses, and the family.                       with anyone but the legal guardian. (Healthcare
                                                             Inspection – Alleged Substandard Care Provided
                                                             to a Patient at the Department of Veterans Affairs
                                                             Medical Center, Chillicothe, Ohio, 01-01951-19,
                                                             11/19/01)

                                                             Issue: VA-contracted transitional living
                                                                house.
                                                             Conclusion: VAMC and transitional house
                                                                employees had not implemented
                                                                collaborative performance
                VA Medical Center                               improvement initiatives to ensure
                  Houston, TX                                   adequate care for VA contract patients.
                                                             Impact: Adequate care for homeless
We made five recommendations to correct the
                                                                veterans.
deficiencies. The Director concurred with our
recommendations and provided acceptable
                                                             We reviewed allegations from several veterans
implementation plans. (Healthcare Inspection –
                                                             about the services and management at a VA-
Allegations of Poor Care, Veterans Affairs
                                                             contracted transitional living house. The
Medical Center, Houston, TX, 01-01345-05,
                                                             complainants alleged that the administrator
11/16/01)
                                                             violated professional and ethical codes of conduct
                                                             by borrowing money or accepting gifts from
                                                             residents, using sexually explicit and abrasive
                                                             language with residents, and discussing confidential
                                                             resident information in group settings. They also
                                                             alleged that staff ignored drug sales and usage in




                                                       37

Office of Healthcare Inspections

the house, engaged in arbitrary treatment and             A patient’s husband alleged that his wife received
discharge planning decisions, and did not provide         substandard care during her stay at the health care
an adequate treatment environment.                        system’s geriatric and rehabilitation center. The
                                                          complainant alleged that earlier the patient fell
We did not substantiate the complainants’                 twice due to employee negligence, and the facility
allegations. The transitional living house staff          was pilot-testing a restraint-free policy and used
generally managed the program in accordance with          the patient experimentally which resulted in one of
established policies, and veterans received               the serious falls. He also alleged that physicians
appropriate transitional housing and case                 never examined the patient during her stay at the
management services. Nevertheless, we found that          center and that medical record documentation was
VAMC and transitional living house employees had          inadequate.
not implemented appropriate collaborative
performance improvement initiatives to ensure
adequate care for VA contract patients.

We made two recommendations to ensure
implementation of the improvement initiatives.
The Medical Center Director concurred with the
recommendations and provided responsive
implementation plans. (Healthcare Inspection –
Homeless Veterans Issues, James H. Quillen VA
Medical Center, Mountain Home, Tennessee,
01-01848-57, 2/25/02)
                                                              Southern Arizona VA Health Care System
                                                                            Tucson, AZ
     “I asked the OIG for assistance
     and appreciated your response.                       Because the incidents occurred in distant history
     The outcome was beneficial to                        and critical information could not be reconstructed,
     our patients, our facility, and the                  it was not possible to associate the patient’s falls
     community home. Thank you.”                          with employee negligence or the restraint-free
                                                          policy. The restraint-free policy was in place and
                                    Chief
                consistent with prevailing medical practice at the
        Quality Management & Improvement
                 time the falls occurred. We also concluded that
                                  Service
                employees followed all Joint Commission on
                       Mountain Home, TN
                 Accreditation of Healthcare Organizations
                                                          requirements, Omnibus Budget Reconciliation Act
                                                          regulations, and facility policies. The evidence
                                                          that was available did not support the allegations.
                                                          Therefore, we did not make any recommendations.
Issue: Quality of care to patient on long-                (Healthcare Inspection – Patient Care Issues,
   term care ward.                                        Southern Arizona Veterans Affairs Health Care
Conclusion: Patient’s falls could not be                  System, Tucson, Arizona, 02-00078-61, 2/25/02)
   associated with employee negligence.
Impact: Increased awareness of restraint-
   free policy.




                                                    38

                                                                        Office of Healthcare Inspections

Issue: Quality of care.                                     Issue: Treatment quality and service
Conclusion: Patient’s care was                                 issues.
   appropriate.                                             Conclusion: Managers had not adequately
Impact: Strengthened procedures for                            communicated their plans to
   managing advance directives.                                stakeholders.
                                                            Impact: Improvements in procedures and
The son of a deceased patient alleged that his                 communication.
father’s death resulted from poor care at a VA
contract nursing home (CNH), and that clinicians            We received several anonymous complaints
at VAMC Gainesville removed his father from                 concerning issues at the two VAMC campuses (Ft.
ventilator support without his approval. We did             Wayne and Marion, IN) that comprise the VA
not substantiate the complainant’s allegations. It          Northern Indiana Health Care System. We also
appears that the CNH staff appropriately managed            received a congressional inquiry concerning the
the patient’s needs. Similarly, we did not                  adequacy of inter-facility transfers between the two
substantiate the complainant’s allegation that              campuses, and acquisition procedures for
clinicians removed his father from a ventilator             contracted ambulance services.
without his (the son’s) consent.
                                                            Complainants alleged that: (i) some patients who
                                                            were sent for clinic appointments by shuttle from
                                                            Marion to Ft. Wayne were dropped off without
                                                            adequate return transportation arrangements; (ii)
                                                            managers were closing beds at the Ft. Wayne and
                                                            Marion campuses without proper discharge
                                                            planning for hospitalized patients or sufficient
                                                            stakeholder involvement; (iii) adverse patient
                                                            outcomes resulted from inter-facility transfers of
                                                            clinically unstable patients; and (iv) ambulance
                                                            contracts were not competitively awarded.

        Northern Florida-Southern Georgia
             Veterans Health System
                 Gainesville, FL

However, we concluded the VAMC staff did not
have adequate procedures to ensure that patients’
advance directives were consistently recorded in
the medical record, and CNH program managers
had not implemented appropriate treatment
monitors in response to identified deficiencies. We
made four recommendations to address identified
deficiencies. The Health System Director
                                                                             Marion Campus

concurred with the recommendations and provided
                                                                Northern Indiana Veterans Health System

responsive implementation plans. (Healthcare                                   Marion, IN

Inspection – Contract Nursing Home Issues,
North Florida/South Georgia Veterans Health
                                                            We found that VA shuttle services between Ft.
System, 01-02889-60, 2/26/02)
                                                            Wayne and the Marion could be improved to




                                                      39

Office of Healthcare Inspections

                                                              The NP was reported to the Maryland State Board
                                                              of Nursing for falsifying an HIV report. The
                                                              Board suspended the NP’s license; however, the
                                                              NP believed the suspension was not in effect until
                                                              the Board president signed it. The NP notified her
                                                              immediate supervisor of what she believed to be a
                                                              pending suspension of her license. However, the
                                                              supervisor failed to promptly notify the nurse
                                                              executive of the situation. When the nurse
               Ft. Wayne Campus
                              executive learned of the Board action, she
    Northern Indiana Veterans Health System
                  immediately suspended the NP, and actions were
                  Ft. Wayne, IN
                              taken to remove both the NP and the supervisor.
ensure all patients who are transported for clinical          We substantiated that the NP’s immediate
appointments have a means to return to their                  supervisor mismanaged this situation, but health
assigned campuses. VA managers were addressing                care system senior managers, when informed of the
this issue. Additionally, we substantiated that there         suspension, immediately took appropriate actions.
was a plan to close all acute medical beds at the             Because the Director acted properly to resolve the
Marion campus. A perception existed amongst                   issues, we did not make any recommendations.
some stakeholders, that the health care system                (Healthcare Inspection – Nurse Licensing Issue,
Director did not fully communicate the justification          VA Maryland Health Care System, 01-02956-66,
for the Marion bed closure plan as required by a              3/13/02)
VHA directive. However, managers subsequently
reevaluated the issue and decided not to close the            Issue: Therapeutic interchange practices.
beds. We did not substantiate the allegations of              Conclusion: Patients may have serious
inappropriate patient transfers, inadequate                      adverse reactions from therapeutically
discharge planning, and improper acquisition                     interchanging calcium channel
procedures for awarding an ambulance contract.                   blockers.
(Healthcare Inspection – Treatment Quality and                Impact: Reduce the risk of patients
Service Issues at the VA Northern Indiana Health                 experiencing adverse drug reactions,
Care System, 01-02748-64, 3/7/02)                                and educating clinicians on the risks.
Issue: Nurse licensing.
                                      Complainants alleged that four patients at one
Conclusion: Nursing supervisor failed to
                     medical center had serious adverse drug reactions
   properly notify the nurse executive of a                   caused by physicians therapeutically interchanging
   nurse’s license suspension.                                the anti-anginal, anti-hypertensive drug felodipine
Impact: Increased awareness of                                for a similar drug named amlodipine. Both
   notification requirements.                                 amlodipine and felodipine are cardiovascular drugs
                                                              known as calcium channel blockers. These drugs
A complainant alleged that VA managers did not                generally provide therapeutic effects for many
take appropriate actions when a registered nurse              individuals suffering from high blood pressure and
practitioner (NP) had her license suspended. The              chest discomfort.
complainant also alleged reprisal by VA managers
after she reported the incident, but she had already          Therapeutic interchange is an accepted practice in
sought the assistance of the Office of Special                formulary management in managed health care
Counsel.                                                      systems and is a valid technique for keeping a




                                                        40

                                                                          Office of Healthcare Inspections

formulary within manageable limits. In and of                Recommendations were made to the Under
itself, the practice does not present ethical or             Secretary for Health to reassure clinicians that they
clinical obstacles to the practice of good medicine.         have the discretion based upon clinical judgment to
VHA has suggested that physicians’ prescribe                 decline therapeutic interchanges. We also
felodipine over amlodipine when patients were                recommended the development of educational and
already using felodipine, when patients for whom a           informational programs on this subject matter
calcium channel blocker was to be newly                      highlighting the risks of therapeutic interchanges.
prescribed, and when it was practicable for                  In addition, we requested VHA to review the
patients on amlodipine to be switched to felodipine.         temporal association between felodipine for
VHA cautioned clinicians that these guidelines               amlodipine therapeutic interchanges and worsened
were not intended to interfere with clinical                 cardiac symptoms on a sufficient patient control
judgment, but were intended to assist practitioners          group that would meet the standards of scientific
in providing cost effective care.                            proof or evidence-based medicine. These studies
                                                             are necessary to confirm whether these were
At this medical center, physicians informed us they          isolated cases or indicative of a greater problem.
did not feel they had the discretion to decline to           (Healthcare Inspection – Veterans Health
make amlodipine to felodipine therapeutic                    Administration Therapeutic Interchange
interchanges for their patients. They informed us            Practices, 00-01362-45, 3/22/02)
that they were required to complete a complicated
form which listed overly restrictive physiologic             Issue: Quality of care and safety issues.
parameters to justify permitting patients to stay on         Conclusion: Quality of care to spinal cord
amlodipine.                                                     injury unit patients and women
                                                                veterans could be improved.
The four patients brought to our attention all had           Impact: Improved care.
severe cardiac disease manifested by multiple
myocardial infarctions, left ventricular                     We received allegations concerning the quality of
dysfunction, and stable angina pectoris. In each             care provided to patients in the Spinal Cord Injury
instance, clinicians made an amlodipine to                   Program, inequitable care for women veterans, and
felodipine therapeutic interchange. These                    other treatment quality and safety concerns. We
interchanges were followed by cardiac                        found deficiencies in the management of the
destabilizations expressed as unstable angina                program. Managers made several organizational
pectoris and acute pulmonary edema. These                    changes to meet the program’s needs and to focus
destabilizing events appeared to occur at varying            on making improvements. However, we found that
lengths of time after the prescribed substitutions,          the Spinal Cord Injury unit had a staff shortage
therefore, we do not have direct evidence to                 and aging equipment. Managers need to resolve a
establish that the cardiac destabilizations occurred         number of women patient-related issues,
in these patients because of a felodipine for                specifically: (i) privacy and safety, (ii) supervision
amlodipine therapeutic interchange. We concluded,            of gynecology resident physicians, (iii)
however, that there was a temporal relationship              unavailability of formulary medications for
that was worthy of further study, and that these             women, (iv) unavailability of equipment for
interchanges may not have been prudent given the             women-related examinations, (v) privacy for
patients’ clinical histories.                                women patients receiving radiology services, and




                                                       41

Office of Healthcare Inspections

(vi) availability of feminine hygiene products. We
also found deficiencies in the VAMC’s visitation
polices and infection control procedures.

We made 16 recommendations. The Director
concurred with the recommendations and provided
responsive implementation plans. (Healthcare
Inspection – Quality of Care and Safety Issues,
Department of Veterans Affairs Medical Center,
San Juan, Puerto Rico, 99-01417-28, 3/26/02)

Healthcare Inspections (Oversight
Inquiries)

During the reporting period, OHI oversaw the
completion of 106 Hotline cases referred to VHA
for action. These cases involved 170 allegations,
of which 117 (69 percent) had merit based on the
information available. VA managers acted to
create new or strengthen existing procedures, take
administrative actions, offer more education and
training, improve quality of services, strengthen
patient safety procedures, enhance the physical
plant environment, and realign resources.




                                                     42

OFFICE OF MANAGEMENT &
ADMINISTRATION

Mission Statement                                          The Division maintains the Master Case Index
                                                           (MCI) system, the OIG’s primary information
    Promote OIG organizational effectiveness               system for case management and decision-making.
    and efficiency by providing reliable and               The Data Analysis Section, located in Austin, TX
    timely management and administrative                   provides data processing support, such as
    support, and providing products and services           computer matching and data extraction from VA
    that promote the overall mission and goals of          databases.
    the OIG. Strive to ensure that all allegations
    communicated to the OIG are effectively                IV. Financial and Administrative Support Division
    monitored and resolved in a timely, efficient,         - The Division is responsible for OIG financial
    and impartial manner.                                  operations, including budget formulation and
                                                           execution, and all other OIG administrative
The Office of Management and Administration is a           support services.
diverse organization responsible for a wide range
of administrative and operational support                  V. Human Resources Management Division - The
functions. The Office includes five Divisions:             Division is responsible for OIG personnel
                                                           management, which includes classification,
I. Hotline Division - The Division is responsible          staffing, employee relations, training, and incentive
for determining action to be taken on allegations          awards programs.
received by the OIG Hotline. The Division
receives thousands of contacts annually, mostly            Resources
from veterans, VA employees, and Congress. The
work includes controlling and referring many cases         The Office of Management and Administration has
to the OIG Offices of Investigation, Audit, and            55 FTE allocated to the following areas.
Healthcare Inspections, or to impartial VA
components for review.
                                                                                 Operational
                                                                                  Support
II. Operational Support Division - The Division                                     16%          Hotline
does follow up tracking of OIG report                                                             16%
recommendations; Freedom of Information Act                      Financial &
releases; strategic, operational, and performance               Administrative
                                                                    18%
planning; and IG reporting and policy
development.                                                              Human                  IT & Data
                                                                        Resources                Analysis
                                                                           12%                      38%
III. Information Technology (IT) and Data
Analysis Division - The Division manages
nationwide IT support, systems development and
integration; represents the OIG on numerous intra-
and inter-agency IT organizations; and does
strategic IT planning for all OIG requirements.




                                                     43

Office of Management & Administration

I. HOTLINE DIVISION                                         Output

                                                            z    During the reporting period, Hotline staff

                                                            closed 776 cases, of which 180 contained

Mission Statement                                           substantiated allegations (23 percent). The Hotline

                                                            staff generated 107 letters responding to inquiries

    Ensure that allegations of fraud, waste,                received from members of the Senate and House of

    abuse, and mismanagement are responded to               Representatives.

    in an efficient and effective manner.
                                                            Outcome

The Division operates a toll-free telephone service         z   VA managers imposed 58 administrative

5 days a week, Monday through Friday, from 8:30             sanctions against employees and took 92 corrective

AM to 4 PM Eastern Time. Phone calls, letters,              actions to improve operations and activities as the

and e-mail messages are received from employees,            result of these reviews. The monetary impact

veterans, the general public, Congress, U.S.                resulting from these cases totaled $411,690.

General Accounting Office, and other Federal
agencies reporting issues of fraud, waste, and              The Hotline Division’s most significant leads are

abuse. Due consideration is given to all                    referred to other OIG elements. The Hotline staff

complaints and allegations received; mission-               also retain oversight on a number of other cases

related issues are addressed by OIG or other                that are referred to VA program officials for

Departmental staff.                                         resolution.


                                                            The Hotline staff worked with VA program offices

Resources
                                                            on allegations concerning patient care and services,

                                                            quality of care issues, employee misconduct,

The Hotline Division has nine FTE. The following            outside employment concerns, contracting

chart shows the estimated percentage of resources           activities, Government equipment and supplies,

devoted to various program areas.                           time and attendance, ethical improprieties, and

                                                            other issues. Hotline staff also worked with VBA

                      A&MM                                  on allegations concerning the payment of

                       11%                                  compensation and pension to incarcerated veterans,

                                    Inf ormation
                                    Technology
                                                            and benefits awarded to veterans and beneficiaries

                                         8%                 who were not entitled to receive payments.

          VHA
          48%                         Management            Veterans Health
                                         15%
                              VBA                           Administration
                              18%

                                                            Quality of Patient Care
 Overall Performance
                                                            The responses to Hotline inquiries by VA
                                                            management officials indicated that 36
During the reporting period, the Hotline received           allegations regarding deficiencies in the quality of
8,036 contacts. Of this number, 681 cases were              patient care provided by individual facilities were
opened. The OIG reviewed 220 (32 percent) of                found to have merit and required corrective
these and the remaining 461 cases were referred to          action. Examples of the issues follow:
VA program offices for review.




                                                      44

                                                                 Office of Management & Administration

z    A VHA review found a contract radiologist                scheduling of appropriate diagnostic testing and
was compromising patient safety and delaying                  treatment. The review also determined that
patient diagnoses by failing to process x-rays in a           possible causes of these delays were the lack of
timely manner. As a result, management                        adequate continuity and patient follow up and staff
terminated the radiologist’s contract and hired a             did not respond as quickly and effectively as
new non-VA radiologist. Additionally, the medical             required to diagnose and initiate timely treatment.
center radiology function was organizationally                A process action team is currently reviewing the
realigned under the chief of staff who will provide           issues and has preliminarily identified the
direct supervision and coordination of activities of          consultation process, conversion to electronic
both the contract and the medical center                      medical records, and physician-to-physician
radiologists.                                                 communication as contributing factors to the
.                                                             system breakdowns. Additionally, management
z    A VHA review substantiated inappropriate                 will monitor the results of the peer reviews.
treatment and a delay in the treatment of a patient
by pharmacy service. The veteran waited in                    z    A VISN review found that VAMC staff failed
extreme pain for over 3 hours only to be informed             to adequately or timely respond to a veteran’s
that a non-formulary controlled substance was                 needs. Although the veteran was referred to social
unavailable from pharmacy inventory. The patient              work and the sleep lab, it was 2 to 3 months before
left the facility without a substitute medication.            anyone contacted him. The review also found that
The facility has implemented an inventory check               calls placed to a patient representative were not
procedure for non-formulary medications with a                returned. The staff is developing procedures to
subsequent referral to the clinic physician in charge         ensure timely responses to patients’ needs.
should it become necessary to provide a substitute            Management is taking administrative action against
medication for a patient.                                     the social worker, the patient representative, and
                                                              the director of the sleep lab.
z    A VHA review substantiated the allegation of
an 11-month delay in diagnosis and treatment of a             z   A VHA review found that a veteran was
veteran with rectal cancer. The facility failed to            prematurely discharged prior to receiving timely
notify the veteran’s care provider of a positive              and proper treatment. The review also found that
fecal occult blood result. The facility has                   three physicians did not properly monitor the
instituted a revised policy to include a care                 patient. Although these conditions were cited as
provider computer alert system on positive fecal              improper care provided to the veteran, they did not
occult blood results with subsequent follow up by             cause injury to the patient. Management provided
the chief of staff.                                           written counseling to the physicians.

z   A VHA review substantiated a veteran’s                    z   A VAMC review substantiated allegations of
allegation that a physical therapist attempted to             inappropriate care by a contract physician. The
remove the veteran’s leg brace in a crowded                   physician refused to refer a patient for an MRI,
waiting room. The therapist was counseled on                  suggested he have this diagnostic test done in a
patient privacy and a policy was revised to prohibit          private facility and advised the patient he could
such practices in the future.                                 complain as much as he wished, as she (the
                                                              physician) did not work for the VA. This same
z   A VHA review determined that some VAMC                    physician also failed to adequately address the
patients received substandard care regarding the              veteran’s concerns regarding the monitoring of his
timeliness of cancer diagnoses and continued                  diabetes. Management counseled the physician
treatment. The review found that in some instances            who subsequently resigned. The veteran was
there were inordinate delays in follow up and the             referred for the requested MRI and his concerns



                                                        45

Office of Management & Administration

were addressed by another care provider. The                z   A VHA review of on-call scheduling and
veteran also received follow up primary care                timekeeping procedures at a VAMC substantiated
appointments.                                               errors in the payment of on-call employees. The
                                                            facility has corrected all timecard errors and is
Employee Misconduct                                         currently revising the on-call process to avoid a
                                                            recurrence of this matter.
The responses to Hotline inquiries by
management officials indicated that 11                      z    An administrative board of investigation found
allegations of employee misconduct at                       that a supervisor established and implemented an
individual VA facilities were found to have                 unofficial compensatory time policy, thereby
merit and required corrective action. Examples              falsifying time and attendance reports. The
of the issues follow:                                       supervisor was admonished.

z    A VHA review substantiated an allegation that          Fiscal Controls
an employee misused a Government telephone to
place 92 personal long distance calls.                      The responses to Hotline inquiries by
Management has proposed a suspension for the                management officials indicate that five
employee and is billing the employee $379 for the           allegations of deficit or improper fiscal
calls. In a similar case at another facility, an            controls at individual VA facilities were found
employee admitted to making personal long                   to have merit and required corrective action.
distance calls and agreed to make restitution of            Examples of the issues follow:
$127 for the cost of the calls. The second VAMC
is also taking disciplinary action against the              z    A VACO review found that a VAMC
employee.                                                   improperly authorized $54,228 in temporary
                                                            quarters subsistence expense allowances and
z   A VHA review found that a VA employee                   advances to eight transferring employees who
was unlawfully removing Government office                   lived less than 40 miles from their new duty
supplies and equipment from the warehouse and               station. The VAMC issued bills of collection to the
providing it to his brother-in-law, who works for a         employees.
local parts store. Management is taking
administrative action against the employee.                 z    A VHA review confirmed that an employee
                                                            who traveled and submitted his travel voucher in
z   A VHA review found that an employee                     November 2000 was not reimbursed until
misused her Government e-mail account by                    November 2001. The VAMC has since instituted
sending a grossly inappropriate e-mail of a                 a new system comprised of a travel voucher log
personal nature to private citizens. The VAMC is            in/log out system, e-mail capability, and an
proposing a 14-day suspension for the employee.             intensive follow up activity.

Time and Attendance
                                                            Patient Safety
The responses to Hotline inquiries by
management officials indicate that two                      The responses to Hotline inquiries by
allegations of time and attendance abuse at                 management officials indicate that five
individual VA facilities were found to have                 allegations of patient safety deficiencies at
merit and required corrective action. The                   individual VA facilities were found to have
summaries follow:                                           merit and required corrective action. Examples
                                                            of the issues follow:



                                                      46

                                                                Office of Management & Administration

z    A VHA review found that an amputee patient             z    A VHA review substantiated the allegation of
fell out of his wheelchair while being pulled up a          problems with administrative services. The review
ramp by a contract van driver. The driver initially         found that a veteran received two pre-appointment
refused to assist the patient. Another patient on           letters notifying him of appointments, after the
the van, along with the driver, eventually returned         appointment dates. The review also found the
the patient to his wheelchair. As a result, patient         letters were sent by two different firms processing
care administrative services requested vendor               VA appointment letters. As a result, management
education for all drivers regarding safe movement           reorganized and centralized the entire appointment
of amputee patients.                                        letter program in order to eliminate future
                                                            duplications and delays.
z   A VHA review at a state veteran’s home
found that a paraplegic veteran did not have                z    Although a VHA review did not substantiate
access to emergency cords, or a proper                      the allegation that a VA employee mismanaged a
wheelchair ramp. The review also found that                 contract and directed a contractor to perform
residents were allowed to smoke alongside                   unauthorized work, the review team recommended
veterans using oxygen tanks in the recreation               several steps to address perceived violations and
room. The state home’s management is working                communications problems. Management is
with VAMC officials to correct these deficiencies.          reviewing the current contract to ensure that it
                                                            accurately identifies work requirements and skills
Government Equipment and Supplies                           required, that appropriate personnel are hired for
                                                            the services described in the contract documents
The responses to Hotline inquiries by                       or that deviations are properly documented, and
management officials indicate that two                      that work is assigned appropriately to both VA and
allegations involving misuse of Government                  contract employees. Management is drafting
equipment and supplies at individual VA                     policies to address computer security issues and
facilities were found to have merit and required            will also ensure that all contract personnel have
corrective action. An example follows:                      knowledge of VA policies associated with their
                                                            position.
z   A VHA review determined that a VAMC
employee used an official Department of Veterans            Personnel Issues
Affairs envelope and letterhead to forward
personal correspondence to a county judge                   The responses to Hotline inquiries by
requesting issuance of a permanent protective               management officials indicate that six
order against a then fellow VA employee. The                allegations involving improprieties in the
employee was issued a written letter of counseling          personnel practices at individual VA facilities
and advised that future incidents may result in             were found to have merit and required
disciplinary action.                                        corrective action. Examples of the issues
                                                            follow:
Contracting Activity
                                                            z   Prompted by a Hotline inquiry, a VHA review
The responses to Hotline inquiries by                       found that an employee was improperly placed in a
management officials indicate that three                    paid non-duty status as a result of his physical
allegations involving contracting improprieties             limitations. The review also found that
or problems with contracted services at                     management was unaware the employee was
individual VA facilities were found to have                 playing golf and vacationing. As a result,
merit and required corrective action. Examples              management will evaluate the physical limitations
of the issues follow:



                                                      47

Office of Management & Administration

of the employee and will take appropriate                    former office space. Management counseled the
disciplinary action if it finds that the employee            employees involved and staff will attend a
misrepresented his condition.                                comprehensive ethics training course.

z   A VISN review found that the inability of two            Abuse of Authority
dentists to communicate adversely affected the
delivery of patient care. Management has                     The responses to Hotline inquiries by
recommended alternate dispute resolution. If the             management officials indicate that three
dentists choose not to participate, management will          allegations involving abuse of authority by
take other corrective action.                                employees at individual VA facilities were
                                                             found to have merit and required corrective
z   A VISN review team consisting of                         action. Examples of the issues follow:
management from the VISN staff, other VAMCs,
and the VHA Human Resources Group found in                   z    A review by the Deputy Assistant Secretary
two instances that VAMC supervisors                          for Security and Law Enforcement substantiated
recommended the hiring of close personal friends             an allegation that a VA police officer struck a
without divulging their relationship to the                  veteran in the face while the veteran was detained
individuals. The team recommended that                       in a VAMC holding room and that a police
disciplinary action be taken against those involved.         lieutenant may have made a threatening remark.
The VISN review also established that personnel              Further, it was determined that a prior review
actions related to the facility integration were             conducted by the VAMC police of the incident
incomplete resulting in multiple nurse executives            was of poor quality and did not appear to have
occupying one slot and the continuation of former            been questioned by management.
service chiefs, not selected for positions in the            Recommendations forwarded to VAMC
integration, at their previous grades and pay rates.         management included appropriate disciplinary
VISN management directed the VAMC to                         action against the police officer, counseling for the
immediately classify the positions and reassign              police lieutenant who conducted the VAMC
these individuals or conduct a reduction-in-force as         review, and implementation of a policy ensuring
appropriate. VISN management also directed the               management review of incidents involving police
VAMC to examine staffing methodology to                      officers. The reviewers also recommended
counter the perceptions of staffing inequities.              management examine policies and procedures
                                                             regarding the detention area and training given to
Ethical Improprieties                                        police officers.

The responses to Hotline inquiries by                        z    An independent VISN review team
management officials indicate that three                     substantiated various allegations of impropriety in
allegations involving violations of ethical                  the operations of a community based outpatient
conduct standards at individual VA facilities                clinic by a VA physician. Specifically, the team
were found to have merit and required                        established that the physician used his official duty
corrective action. An example of the issue                   hours and Government e-mail to market a
follows:                                                     commercial product in which he had a financial
                                                             interest to VA employees, permitted film crews
z   A VHA review found that a recently retired               into the clinic without obtaining prior approval,
executive nurse returned to the facility and held a          made physical threats to one VA official, had a
sale of personal clothing and other items in her             heated exchange with another, and intimidated
                                                             many other employees by alluding to a personal




                                                       48

                                                                 Office of Management & Administration

connection to a U.S. Senator. The review also                 transformer purchased several years ago were
established that the physician improperly used a              sitting idle. The metal detector was not installed
local pharmacy to dispense prescriptions, offered             due to staff shortages. The chief executive officer
sample pharmaceuticals to VA patients, and                    stated the facility was trying to sell the metal
diverted sample pharmaceuticals to his private                detecting system to another VAMC, however in
practice. The review team recommended that                    view of recent terrorist events the VAMC may
management take appropriate administrative action             install the metal detector and hire the additional
against the physician and take steps to ensure that           police officers to operate the system. The
the behavior cease. The team further                          radiology transformer was not installed because it
recommended that management review and                        did not fit into the allotted space, and the VAMC is
enforce policies on pharmacy operations, billing,             attempting to transfer or sell the transformer to
authorized prescription quantities, and the                   another facility in the local area.
appropriate use of sample drugs.
                                                              z    A VHA review determined that restrooms and
Facilities and Services                                       floors within a VAMC were not maintained in a
                                                              high state of cleanliness at all times. Also private
The responses to Hotline inquiries by VA                      vendors were dispersed on the first floor of the
management officials indicated that 24                        medical center in a manner that obstructed the
allegations regarding deficiencies with                       safe passage of patients and medical equipment.
facilities or the services provided by individual             The staff have been instructed to review their
VA facilities were found to have merit and                    procedures to be more aware and aggressive
required corrective action. Examples of the                   regarding cleanliness of public areas. Because of
issues follow:                                                continuing concern by the medical center
                                                              leadership, the chief, canteen service has been
z    A VHA review substantiated an allegation of              instructed to review the policy of allowing vendors
poor communications with a patient’s family. The              in the medical center.
facility failed to notify the family of the patient’s
death. The family learned of the patient’s death
when they tried to reach him by telephone. The                Veterans Benefits
staff member involved was disciplined and the
facility has apologized to the family. Hospital               Administration
policy on next of kin death notification has been
reviewed with staff.                                          Receipt of VA Benefits

z   A VHA review substantiated that a residential             The responses to Hotline inquiries by
care home providing care for four veterans was                management officials indicate that 19
operating without a license. VAMC management                  allegations involving improprieties in the
alerted the state department of health, which                 receipt of VA benefits were found to have merit
notified the appropriate county attorney about the            and required corrective action. Examples of
home’s failure to comply with state licensing                 the issues follow:
regulations.
                                                              z   A VBA review found irregularities in a 100
z   A VAMC review substantiated an allegation of              percent service-connected veteran’s receipt of
mismanagement of Government resources. The                    compensation. The review found the veteran was
chief executive officer acknowledged that a                   receiving additional benefits for dependent
$100,000 metal detecting system and a radiology               stepchildren who were no longer in his custody.




                                                        49

Office of Management & Administration

The review also discovered that the veteran                z    A VARO review found that a VA employee
received full benefits during a 6-year period of           discussed a veteran’s claim with unauthorized
incarceration. The VARO created an                         parties. The employee knew the veteran outside
overpayment of $119,734.                                   of the workplace and failed to notify her
                                                           supervisor of the relationship. Management
z    A VARO review found that a veteran, who               apologized to the veteran for the unauthorized
has been receiving a VA pension since 1992, ran a          disclosure and counseled the employee.
construction business for at least 6 years during
this period. To prevent the VA learning of his             z   A VARO review substantiated a violation of
income, the veteran used Social Security numbers           the Privacy Act when a veteran who had
belonging to three different individuals. The              requested copies of his claims folder also received
VARO has terminated the veteran’s benefits. The            records on three other veterans. Management has
overpayment is $93,611.                                    removed the misfiled material and has counseled
                                                           employees to review and verify all records prior to
z   A VBA review confirmed that a veteran in               release. The veteran will receive a new and
receipt of VA service-connected disability                 complete copy of the records he originally
payments reentered active duty in November                 requested.
2000, but failed to notify the VARO for
discontinuance of payments. A due process letter           Fiscal Controls
was sent to the veteran, the benefits will be
terminated and recoupment action initiated.                A VARO review found a clerical error in the
Overpayment is $4,158.                                     processing of a veteran’s direct deposit request.
                                                           The VARO at which the veteran’s claims folder is
z   A VARO review substantiated a veteran’s                located correctly processed the veteran’s request
allegation of a miscalculated overpayment in his           and forwarded the documents to the VARO
VA compensation benefits. In reviewing the                 closest to the veteran’s residence. The other
veteran’s award, the regional office determined he         VARO incorrectly input the veteran’s data into
was receiving benefits for an additional child for         another veteran’s account, causing an
which there was no documentation. Rather than              overpayment to the second veteran. A
creating a $31 overpayment, the regional office            replacement check was issued to the complainant,
created a $744 overpayment resulting in a debit to         a collection notice was issued to the second
the veteran’s monthly benefits check. VARO                 veteran for the overpayment, and apologies were
management corrected the error. A letter of                made to both veterans involved.
apology and a check for the proper compensation
was issued to the veteran. The veteran has since
submitted the proper dependent documentation to            National Cemetery
the VARO.
                                                           Administration
Privacy Issues
                                                           Facilities and Services
The responses to Hotline inquiries by
management officials indicate that four                    A National Cemetery Administration investigative
allegations involving Privacy Act violations at            team found that a national cemetery seriously
individual VA facilities were found to have                breached VA regulations by failing to properly
merit and required corrective action. Examples             document paperwork and computer records on the
of the issues follow:                                      assignment of two gravesites. Cemetery




                                                     50

                                                             Office of Management & Administration

management also failed to properly notify family          Overall Performance
members when a gravesite was moved.
Additionally, the facility unknowingly allowed a
                                                          Follow Up on OIG Reports
temporary employee with a suspended driver’s
license to operate a Government vehicle on
                                                          The Division is responsible for obtaining
cemetery grounds. The National Cemetery
                                                          implementation actions on previously issued audits,
Administration is taking formal corrective action
                                                          inspections, and reviews with over $4.2 billion of
on these issues.
                                                          actual or potential monetary benefits as of
                                                          March 31, 2002.

II. OPERATIONAL                                           The Division is also responsible for maintaining the
                                                          centralized follow up system that provides for
SUPPORT DIVISION                                          oversight, monitoring, and tracking of all OIG
                                                          recommendations through both resolution and
                                                          implementation. Resolution and implementation
Mission Statement                                         actions are monitored to ensure that disagreements
                                                          between OIG and VA management are resolved as
    Promote OIG organizational effectiveness              promptly as possible and that corrective actions are
    and efficiency by providing reliable and              implemented as agreed upon by VA management
    timely follow up reporting and tracking on            officials. VA’s Deputy Secretary, as the
    OIG recommendations; responding to                    Department’s audit resolution official, resolves any
    Freedom of Information Act (FOIA)/                    disagreements about recommendations.
    Privacy Act (PA) requests; conducting
    policy review and development; strategic,             As of March 31, 2002, VA had 72 open internal
    operational, and performance planning;                OIG reports with 294 unimplemented
    and overseeing Inspector General                      recommendations. After obtaining information that
    reporting requirements.                               showed management officials had fully
                                                          implemented corrective actions, the Division took
Resources                                                 action to close 55 reports and 340
                                                          recommendations with a monetary benefit of
                                                          $461 million.
This Division has nine FTE assigned with the
following allocation:                                     Freedom of Information Act, Privacy Act,
                                                          and Other Disclosure Activities
                         Leg.
                       Review s                           The Division processes all OIG FOIA and Privacy
             Policy      8%                               Act requests from Congress (on behalf of
             11%                  Planning &
                                   Reports
                                                          constituents), veterans, veterans service
                                     13%                  organizations, VA employees, news media, law
                                                          firms, contractors, complainants, general public,
                                                          and subjects/witnesses of inquiries and
                                   Follow Up              investigations. In addition, the Division processes
        FOIA/PA
         46%
                                      22%                 official requests for information and documents
                                                          from other Federal Departments and agencies,
                                                          such as the Office of Special Counsel, the




                                                    51

Office of Management & Administration

Department of Justice, and the FBI. These
requests require the review and possible redacting
                                                            Status of OIG Reports
of OIG hotline, healthcare inspection, criminal and         Unimplemented for Over 3
administrative investigation, contract audit, and
internal audit reports and files. We also process           Years
OIG reports and documents to assist VA
management in establishing evidence files used to           We require management officials to provide us
support administrative or disciplinary actions              with documentation showing the completion of
against VA employees.                                       corrective actions on OIG reports, including
                                                            reporting of collection actions until the amounts
During this reporting period, we processed 239              due VA are either collected or written off. In turn,
requests under the Freedom of Information and               we conduct desk reviews of status reports
Privacy Acts and released 349 audit, investigative,         submitted by management officials to assess both
and other OIG reports. Information was totally              the adequacy and timeliness of agreed upon
denied in 9 requests and partially withheld in 148          implementation actions. When a status report
requests because release would have constituted an          adequately documents corrective actions, the
unwarranted invasion of personal privacy,                   follow up staff closes the recommendation after
interfered with enforcement proceedings, disclosed          coordination with the OIG office that wrote the
the identity of confidential sources, disclosed             report. If the actions do not implement the
internal Department matters, or was specifically            recommendation, we requests a status update.
exempted from disclosure by statute.
During this period, all FOIA cases received a               The following chart lists the total number of
written response within 20 work days, as required.          unimplemented OIG reports and recommendations.
There are no cases pending over 6 months.                   It also provides the total number of unimplemented
                                                            reports and recommendations issued in FY 1999
Review and Impact of Legislation and                        and earlier.
Regulations
                                                                                Unimplemented OIG
The Division coordinated concurrences on                                   Reports and Recommendations
legislative and regulatory proposals from the                                                   F Y 1999 an d
Congress, OMB, and the Department that relate to               VA               Total
                                                                                                   Earlier
VA programs and operations. The OIG commented                 Office
                                                                        Repts     Recoms      Repts     Recoms
and made recommendations concerning the impact
of the legislation and regulations on economy and              VHA        36            177      7         14
efficiency in the administration of programs and
operations or the prevention and detection of fraud            VBA        10             54      2           5
and abuse. During this period, we reviewed 74                 A&MM        21            29       0           0
legislative, 64 regulatory, and 49 administrative
proposals.                                                     HRA          2           18       0           0

                                                               I&T          2           14       0           0

                                                               OGC         1             2       0           0

                                                              Total       72            294      9         19

                                                            Office of Acquisition and Materiel Management (A&MM)

                                                            Office of Human Resources and Administration (HRA)

                                                            Office of Information and Technology (I&T)

                                                            Office of General Counsel (OGC)




                                                      52

                                                                Office of Management & Administration

We are particularly concerned about the FY 1999              Recommendation: VHA managers should
and earlier reports that have not been implemented           explore network flagging systems that would
3 years after being issued. The status and OIG               ensure employees at all VAMCs are alerted
concerns on these FY 1999 and earlier reports are            when patients with histories of violence
summarized as follows.                                       present for treatment to their medical
                                                             centers.
                                                             Status: The major obstacle to the implementation
Veterans Health                                              of this recommendation has been the inability of
                                                             VA’s computer systems to develop a method for
Administration                                               sharing the necessary information in a manner that
                                                             is timely, ensures accuracy of data, and protects
Unimplemented Recommendations and                            the confidentiality of patient records. A plan to
Status (FY 1999 and Earlier Reports)                         support system-wide computerized advisories was
                                                             presented to the VA information technology
Report: VHA Activities for Assuring Quality                  advisory council in August 2001, however it was
Care for Veterans in Community Nursing Homes,                given a low priority. VHA has requested
4R3-A28-016, 1/11/94                                         assistance from the VA Chief Information Officer.
Recommendation: VHA develop standardized                     No planned completion date has been provided.
community nursing homes inspection                           Concern: The OIG is concerned because the
procedures and criteria for approving homes for              latest VHA status shows that after 6 years there
participation in the program.                                still is not a plan developed to implement the
Status: In July 2001, the U.S. General Accounting            recommendation. The OIG report included
Office issued a report that had similar                      recommendations that were meant to strengthen
recommendations as this 1994 VA OIG report. In               areas that may reduce the incidence of injury
September 2001 and again in February 2002, VHA               associated with violence in inpatient psychiatric
put into their concurrence process a draft directive         units.
and handbook on community nursing home
evaluation and follow up services that would                 Report: Internal Controls Over the Fee-Basis
address both reports.                                        Program, 7R3-A05-099, 6/20/97
Concern: The OIG is concerned because in the                 Recommendations: VHA improve the cost
past 8 years we have received numerous prior draft           effectiveness of home health services by: (1)
directives, however none have ever been finalized.           establishing guidelines for contracting for such
No planned completion date has been provided to              services, and (2) providing contracting officers
issue the current draft directive. The final report          with benchmark rates for determining the
showed that inspection procedures varied between             reasonableness of charges.
VAMCs, appropriateness of community nursing                  Status: VHA provided a draft directive to the OIG
homes inspection team makeup could be improved,              in January 2001 and the backup data to support the
and annual reinspections should be conducted more            directive in May 2001. However, the OIG has
timely. These are still issues which need to be              determined this backup data did not support the
addressed to improve care of veterans.                       directive.
                                                             Concern: The OIG is concerned because no
Report: Evaluation of VHA’s Policies and                     VHA implementation plan has been provided to
Practices for Managing Violent and Potentially               implement the recommendation. The June 1997
Violent Psychiatric Patients, 6HI-A28-038,                   final report showed that contracting for home
3/28/96                                                      health services could save at least $1.8 million
                                                             annually, however, the recommendations remain
                                                             unimplemented.



                                                       53

Office of Management & Administration

Report: Evaluation of VHA’s Income                          billing. VHA will provide reports on the number of
Verification Match Program, 9R1-G01-054,                    cases referred, billed, and not billed when the
3/15/99                                                     income verification process re-starts. Software
Recommendations:                                            under development will generate a bill
1. Require the Chief Network Officer to                     automatically. Management reports will ensure
ensure that VISN Directors establish                        compliance with standards. The anticipated date
performance standards and quality monitors,                 for this software to be operational is the first
and strengthen procedures and controls for                  quarter of FY 2003. Once the income verification
means testing activities and billing and                    process is reinstated, VHA will resume
collection of Health Eligibility Center (HEC)               transmission of billing referrals to facilities. This
referrals to include: (a) requiring staff to                is planned to start the first quarter of FY 2003.
review and appropriately bill HEC referrals                 Implementation of centralized renewal of means
within 60 days of receipt, (b) notifying staff              test is scheduled for implementation in the third
that means testing activities and billing and               quarter of FY 2003.
collection actions on HEC referrals will be                 Concern: The 1999 audit found the
actively monitored by VISN and facility                     recommendations made in a March 1996 OIG
management, (c) obtaining quarterly reports                 report on VHA’s income verification match
from the HEC of the number of cases referred                program were not fully implemented. We are
and the number of cases billed and not billed for           concerned because the 1999 report showed that
each facility, and (d) reviewing a sample of cases          VHA could increase funding available for health
to verify appropriate billing and compliance                care by $14.2 million and put resources valued at
with the 60-day billing standard and to                     $3.8 million to better use; however, the
determine why unbilled referrals were not billed            recommendations remain unimplemented.
and taking appropriate corrective action.
2. Requiring the Chief Information Officer to               Report: Evaluation of VHA Radiology and
develop performance measures and monitor                    Nuclear Medicine Activities, 9R4-A02-133,
periodic performance reports to ensure the                  7/23/99
HEC: (a) performs multiple year income                      Recommendation: Take action to standardize
verification, and (b) transmits all billing                 staffing guidelines for Radiology Service.
referrals to facilities.                                    Status: The targeted completion date for the
3. Expedite action to centralize means testing              diagnostic radiology staffing guidelines is October
activities at the HEC.                                      2002.
Status: VHA has been making steady progress in              Concern: The final report showed that most VHA
addressing the problems documented in the OIG               radiology activities did not use staffing guidelines,
report. The target date to resume income                    and there was a wide variety among those
verification has been extended to the first quarter         guidelines that were used. The OIG noted that
of FY 2003 based on the complexity of the                   there were large differences in staffing levels of
Departmental reviews and the concurrence process            some medical centers with ostensibly comparable
for the IRS and SSA matching agreements. VHA                workloads.
has established mechanisms to ensure that income
verification match (IVM) conversion cases are               Report: A Review of the Policy and Function of
referred for appropriate billing action. VHA is             VHA’s Deans Committees for Academic Year
developing material for distribution that describes         1996, 9HI-A28-145, 8/11/99
the restart of the IVM process, the new reporting           Recommendation: Revise M-8, Part I,
procedures and draft performance standards for              Chapters 1, 2, and 3 in order to provide
field staff involved in IVM means test copayment            standardized guidance for Affiliation




                                                      54

                                                               Office of Management & Administration

Partnership Councils and any other similar
advisory committees.
                                                            Veterans Benefits
Status: The VHA Chief Academic Affiliations                 Administration
Officer has started to develop a handbook that
addresses affiliation partnership councils. The             Unimplemented Recommendations and
draft is expected to be published by October 2002.          Status (FY 1999 and Earlier Reports)
Concern: We are concerned that, over time, the
deans committee structure and function have                 Report: Review of VBA’s Procedures to Prevent
changed as a result of affiliation governance. As           Dual Compensation, 7R1-B01-089, 5/15/97
VHA continues its evolution from deans                      Recommendations: (1) VBA should take
committees to affiliation partnership councils,             action to prevent dual compensation by
VHA top managers need to more stringently                   negotiating a matching agreement with the
oversee council functions to ensure that they               Department of Defense (DoD) that includes
adhere to law and VHA guidance. The VHA Chief               provisions for VBA to solicit waivers from
Academic Affiliations Officer also needs to revise          beneficiaries who have not submitted waivers
its policy to standardize guidance for council              and a formal mechanism for informing DoD of
operations.                                                 beneficiaries requiring pay offset. (2) VBA
                                                            should follow up on FYs 1993 through 1996
Report: Administrative Investigation,                       dual compensation cases to ensure either
Contracting Issues at the VA Chicago Health                 VBA disability payments are offset or the
Care System, Chicago, IL, 9PR-E03-143, 9/15/99              DoD is informed of the need to offset
Recommendation: Issue a bill of collection to a             reservist pay.
retired VA employee to recoup the amount of                 Status: The computer matching agreement is in
her voluntary separation incentive (Buyout).                place. VBA has a tape from the Defense
Status: The individual has recently submitted a             Manpower Data Center for FY 2001 with 28,481
hardship request and a request for a compromise.            names of current beneficiaries who received
Concern: The VA Chicago Health Care System                  reserve pay in FY 2001. The tape will be run in
awarded a personal services contract to a retired           May with letters to the veterans to waive
VA employee who had previously received a                   compensation in lieu of reserve pay. The Defense
voluntary separation incentive payment. The                 Manpower Data Center advised they are incapable
statutory provision that authorized the buyout              of providing accurate drill pay data prior to FY
requires repayment when an employee enters into a           2001. Also VA does not have current on-line pay
personal services contract. The OIG is concerned            data for most drilling reservists back to 1993. Due
that the final report was issued in September 1999,         to these difficulties, VA will write to the Guard
however VHA/VISN 12 did not issue a bill of                 Bureau and the Office of the Chief of Reserve
collection for $25,000 until January 2001, and              Affairs and advise them of the situation. VBA will
delayed the hearing on the waiver request until             also provide the Defense Manpower Data Center
January 2002.                                               with a tape of current VA beneficiaries and request
                                                            the Department of Defense to contact these
                                                            individuals and advise them of their obligation to
                                                            waive either their VA compensation or their drill
                                                            pay.
                                                            Concern: The audit’s purpose was to determine
                                                            if VBA’s procedures ensured that disability
                                                            compensation benefits of active military reservists
                                                            were properly offset from their training and drill




                                                      55

Office of Management & Administration

pay. It found that 90 percent of the potential dual
compensation cases reviewed did not have offsets
                                                             III. INFORMATION
from their military reserve pay. We are concerned            TECHNOLOGY AND DATA
that an estimated $8 million in annual dual
compensation payments continue to be made each               ANALYSIS DIVISION
year because this recommendation has not been
implemented.                                                 Mission Statement
Report: Evaluation of Benefits Payments to
Incarcerated Veterans, 9R3-B01-031, 2/5/99                       Promote OIG organizational effectiveness
Recommendations: (1) Initiate and maintain a                     and efficiency by ensuring the accessibility,
matching agreement with SSA for prison                           usability, and security of OIG information
records. Until such an agreement is made,                        assets; developing, maintaining, and
VAROs should obtain this data from Federal                       enhancing the enterprise database
Bureau of Prisons, state, and local prison                       application; facilitating reliable, secure,
officials. (2) Identify and adjust the benefits for              responsive, and cost-effective access to this
incarcerated veterans and dependents. (3)                        database, VA databases, and electronic mail
Establish and collect overpayments for released                  by all authorized OIG employees; providing
veterans and dependents that did not have their                  Internet document management and control;
benefits adjusted.                                               and providing statistical consultation and
Status: A matching agreement is in place with the                support to all OIG components. Provide
SSA. However VBA has not completed the                           automated data processing technical
programming necessary to conduct the match. The                  support to all elements of the OIG and
results of the next test run will be received in May             other Federal Government agencies
2002. If there are no significant problems, VBA                  needing information from VA files.
plans to start releasing output to field stations in
August 2002. Otherwise, there will be delays                 The Information Technology and Data Analysis
while the problems are being fixed.                          Division provides information technology (IT) and
Concern: The 1999 final report stated VBA                    statistical support services to all components of the
officials did not implement a systematic approach            OIG. It has responsibility for the continued
to identify incarcerated veterans and dependents,            development and operation of the management
and adjust their benefits as required by Public Law          information system known as the Master Case
96-385. While we recommended that such a                     Index (MCI), as well as the OIG’s Internet
systematic approach be implemented in our 1986               resources. The Division interfaces with VA IT
audit report, no such actions were taken. We                 units nationwide to establish and support local and
estimate that about 13,700 incarcerated veterans             wide area networks, guarantee uninterrupted
have been, or will be, overpaid by about                     access to electronic mail, service personal
$100 million. The 1999 report stated additional              computers, detect and defeat computer threats, and
overpayments of about $70 million will occur over            provide support in protecting all electronic
the next 4 years for newly incarcerated veterans, if         communications. The Division, which is managed
VBA does not establish a systematic method to                by the OIG’s Chief Information Officer, represents
identify newly incarcerated veterans and                     the OIG on numerous intra- and inter-agency IT
dependents.                                                  organizations and is responsible for strategic IT
                                                             planning for all OIG requirements. The Data
                                                             Analysis Section in Austin, TX provides data
                                                             gathering and analysis support to employees of the




                                                       56

                                                                 Office of Management & Administration

OIG, as well as VA and other Federal agencies,                Internet and Electronic Freedom of
requesting information contained in VA automated              Information Act
systems. Finally, a member of this division serves
as the OIG statistician.                                      The Division is responsible for processing and
                                                              controlling electronic publication of OIG reports,
Resources                                                     including maintaining the OIG websites and
                                                              posting OIG reports on the Internet. Data files on
The Division has 22 FTE currently assigned in                 the OIG website were accessed over 600,000 times
Washington, Austin, Chicago, and Atlanta. These               by more than 125,000 visitors. Our most popular
FTE are devoted to the following areas:                       reports were downloaded over 46,000 times,
                                                              providing both timely access to OIG customers
                                                              and cost avoidance in the reduced number of
                  PC Comp.       Programmers                  reports that must be printed and mailed. Our
                   Spec.             13%                      vacancy announcements accounted for an
                     9%
                                                              additional 32,000 downloads.
                                 Sup. Comp.
                                   Spec.
   Mainf rame                       5%                        We posted two frequently-requested audit reports
   Computer                              Statistician         in our electronic reading room in compliance with
     Spec.                                   5%               the Electronic Freedom of Information Act.
     58%                              CIO                     Additionally, we published three electronically-
                                      5%
                         Webmaster/                           redacted CAP reports, 20 other CAP and audit
                          Security                            reports, Office of Investigations press releases, and
                            5%                                other OIG publications, including this semiannual
                                                              report to Congress, on our website.
Overall Performance
                                                              Information Management, Security, and
Master Case Index (MCI)                                       Departmental Coordination

During this reporting period, we provided the OIG             We actively participate in the development of
field personnel with more than 90 enhancements of             Departmental policies and programs to improve
the MCI, the OIG’s enterprise database. Most                  VA information security, IT accessibility, and
notably, we implemented an on-line OIG office and             Internet resources and utilization. We provided
employee roster. Additionally, we implemented an              review and feedback on the Department’s draft
awards tracking component within MCI. We will                 system certification and accreditation policies,
be able to clone this functionality for supply and            Internet gateway policies and configuration, public
training allocations before the next fiscal year.             key infrastructure, revised online computer
                                                              security awareness course, and proposed VA
An Oracle bug not resolved by the company until               information security officer policy and
the end of March 2002 prevented us from                       credentialing program.
migrating from our current client-server
environment to a “web-enabled” Oracle 8i or 9i                The OIG Webmaster received a special
database. We expect to make more progress on                  contribution award from the VA CIO for his work
this project during the next reporting period. In             on the Department’s Internet/Intranet services
April 2002, we also expect to offer our OIG users             policies development. His contributions included
a secure intranet platform to store, search, and              developing proposed warning notices for all VA
print OIG policies, procedures, directives, and               Internet and Intranet sites to help ensure
issues of shared concern.                                     successful prosecutions of future attacks on VA’s



                                                        57

Office of Management & Administration

Internet infrastructure. He also added Federal                needed for data collection and analysis. Further,
Records Act requirements, rewrote the external                research supports that respondents tend to provide
links policy, and modified the “cookie” policies to           more accurate information when an electronic
conform to the latest promulgations from the OMB              medium for communications is used.
Office of Information and Regulatory Affairs.
                                                              Information Technology Training Initiative
Statistical Support
                                                              We have contracted with four vendors to provide
The OIG statistician is part of the technical                 instructor-led training in a variety of Microsoft
support team under the direction of the OIG’s                 applications in the classroom in our Washington,
Chief Information Officer. The OIG statistician is            DC headquarters office and one vendor with
the subject matter expert providing statistical               training facilities in each city in which the OIG is
consultation and support to the VA OIG. The                   located to provide training for our field employees.
statistician provides assistance in planning,                 To date, 113 employees have received 318 days of
designing, and sampling for relevant IG projects.             instructor-led training in Washington, DC, while 87
In addition, the statistician provides support in the         field employees have received 142 days of training
implementation of appropriate methods to ensure               locally.
that data collection, preparation, analysis, and
reporting are accurate and valid.
                                                              DATA ANALYSIS SECTION

For the reporting period, the OIG statistician
provided statistical consultation and support on              The Data Analysis Section (DAS) analyzes data in
five sampling plans for proposed audit projects and           VA computer files and systems. They develop
OHI proactive program evaluations. Advice was                 proactive computer profiles that search VA
provided on two internal OIG headquarters                     computer data for patterns of inconsistent or
projects.                                                     irregular records with a high potential for fraud
                                                              and they refer these leads to OIG auditors and
Additionally, the OIG statistician and a computer             investigators for further review.
specialist provided statistical support for all CAP
reviews. This support involved preparing and                  They conduct reviews that identify invalid or
processing the random samples of full-time VAMC               erroneous information in VA computer files that
employees who were part of the employee survey.               can lead to bad results or erroneous conclusions.
The computer specialist also provided data                    They provide automated data processing technical
concerning purchase card use at each facility. This           assessments and support to all elements of the OIG
computer specialist also provided support to                  and other governmental agencies needing
process the CAP data collected while on-site.                 information from VA computer files. They also
As well, the office acquired an automated survey              provide automated data processing technical
software package that the statistician used to                support to preaward and postaward OIG audit
create two OIG surveys of employees. These                    reviews that assist VA contracting officers in price
surveys were for information security compliance              negotiations and to ensure reasonableness of
and an assessment of computer training needs.                 contract prices. The support work provided by the
The statistician is completing conversion into                DAS staff is reported in many of the OIG audits,
electronic format of the now hard-copy CAP                    inspections, and investigative cases described in
review’s employee survey and the OIG audit peer               other sections of this report.
review survey. The completion of these two
surveys will drastically reduce employee hours




                                                        58

                                                                 Office of Management & Administration

Collaborative Work                                            warrants for VA beneficiaries, the DAS conducted
                                                              a statistical match of eight VA databases against
Federal Bureau of Investigations                              three state and one federal databases containing
                                                              information about fugitive felons. The matches
Following the attacks on September 11, 2001, the              numbered in the thousands and the law was
OIG received a list of potential terrorists residing          changed in December 2001 according to the
in the United States from the FBI. The DAS was                suggestions contained in the OIG initiative.
asked to compare this list to VA computer files and
determine whether anyone on the list had ever                 New Mexico Adjutant General
used VA services, provided services to veterans,
or had conducted any business dealings with VA.               In an effort to quell a horrific prison riot at a New
Most of the individuals on the list had several               Mexico prison in 1980, the Governor called in the
aliases, more than one Social Security number, and            New Mexico National Guard. The fighting was
numerous known or suspected home addresses.                   very violent and many of the Guardsmen suffered
Several versions of the list were provided DAS as             physical and mental effects from their experiences
the FBI continued to update the information on a              in quelling the riot. Many of these Guardsmen
regular basis. The computer files from 16 VA                  applied for and were granted VA benefits for
computer systems were matched and millions of                 service-connected disabilities including post-
records were processed. Their efforts resulted in             traumatic stress syndrome and medical injuries. A
several referrals to the FBI for further                      recent review showed these Guardsmen had not
investigation.                                                been officially activated into Federal service and,
                                                              therefore, were not eligible for these VA benefits.
Veterans Benefits Administration                              The Adjutant General office in New Mexico was
                                                              able to provide the DAS with a paper roster of the
The VBA’s Data Management Office provided                     1,012 individuals called-up for service. DAS staff
DAS staff with a list of 1,337 veterans who served            converted the list into an electronic database and
during the Gulf War at the Khamisiyah                         developed a software program to identify which
ammunitions dump in Iraq. The list contained the              Guardsmen were mistakenly receiving VA benefits.
names of those veterans reported by SSA as having             This information was provided to VARO
died in the 10 years since their presumed exposure            Albuquerque for appropriate action.
to hazardous materials exploded by U. S. forces
during an effort to destroy the contents of this              Special Projects – Fraud Detection
ammunitions dump. DAS matched the list of
names to several VA databases that record deaths              Fraud and other illegal activities committed against
in an effort to increase the accuracy of the reports          VA’s programs can amount to millions of dollars.
of death. The results of their efforts showed that            Contracts, procurements, and veterans benefits
more than 90 percent of the deaths reported by the            programs are inherently vulnerable to fraud due to
SSA were reported in one or more of the VA                    the large expenditures of funds associated with
databases.                                                    purchasing the items necessary for an agency as
                                                              large and diverse as VA and for compensating
Fugitive Felon Initiative                                     millions of veterans for their service to our
                                                              country. The DAS takes an aggressive approach
In an effort to support an OIG legislative initiative         to finding and reporting fraud by developing
to discontinue VA benefits to fugitive felons and             computer profiles that reflect the results of actions
permit the VA to share address information with               taken by employees to defraud the VA. By
those law enforcement agencies holding felony




                                                        59

Office of Management & Administration

reconstructing the fraudulent actions and searching
VA files for similar patterns, the DAS continues to
provide OIG investigators and auditors with leads
                                                                          Travel
to potential fraud or inadequate controls. For                             26%
                                                                                                Admin.
example, the computerized death match profile has                                              Operations
                                                                                                 37%
produced numerous convictions and millions of
dollars in recovered funds.

Other Workload                                                             Budget
                                                                            37%
During this reporting period, the DAS completed
120 ad hoc requests for information and data
                                                              Overall Performance
submitted from all OIG operational elements.
They supported 14 OIG CAP reviews.
                                                              Budget and Finance Section
Considerable effort was also spent in support of
the post-arrest phase of the VARO Atlanta
                                                              The staff assisted in the preparation of the FY
investigation; the national fraud review of all
                                                              2003 budget submission and materials for
VAROs; and the planned Manila, Philippines
                                                              associated hearings in the Department, OMB, and
beneficiary review.
                                                              with the Congressional Committees.

                                                              The budget staff executed 52 percent of the OIG’s
IV. FINANCIAL AND                                             FY 2002 budget authority.
ADMINISTRATIVE                                                Travel Section
SUPPORT DIVISION
                                                              By the nature of our work, OIG personnel travel
                                                              almost continuously. As a result, we processed
Mission Statement                                             1,793 travel and 32 permanent change of station
                                                              vouchers in addition to 11 new permanent change
    Promote OIG organizational effectiveness                  of station authorities and 3 amendments to existing
    and efficiency by providing reliable and                  authorities.
    timely financial and administrative support
    services.                                                 Administrative Operations

The Division provides support services for the                The administrative staff works closely with
entire OIG. Our services include budget                       Central Office administrative offices and building
formulation, presentation, and execution; travel              management to coordinate various administrative
processing; procurement; space and facilities                 functions, office renovation plans, telephone
management; and general administrative support.               installations, and the procurement of furniture and
                                                              equipment.
Resources                                                     In addition, this component processed 98
                                                              procurement actions and reviewed and approved,
The Division has 10 FTE currently assigned. The
                                                              each month, the 69 statements received from the
staff allocation for the three functional areas is as
                                                              OIG’s cardholders under the Government’s
follows:
                                                              purchase card program.




                                                        60

                                                            Office of Management & Administration

V. HUMAN RESOURCES
MANAGEMENT DIVISION

Mission Statement
    Promote OIG organizational effectiveness
    and efficiency by providing reliable and
    timely human resources management and
    related support services.

The Division provides human resources

management related support services for the entire

OIG. It serves as liaison to the Veterans

Affairs Central Office for personnel and payroll

related matters.


Resources
The Division has seven FTE, which are all
committed to human resources management and
support.

Overall Performance
Human Resources Management

During this period, 20 new employees were hired.
In addition, the staff processed 249 personnel
actions and 72 awards.




                                                      61

Office of Management & Administration




                                        62

OTHER SIGNIFICANT OIG ACTIVITIES
President’s Council on Integrity and                         Awards
Efficiency
                                                             Executive Office for United States
z    In the wake of the September 2001 attacks on            Attorneys Director’s Award for 2001
the United States, our Office of Healthcare
Inspections participated on a President’s Council            Special Agent Steven J. Plante, VA OIG Bedford
on Integrity and Efficiency interagency task force           resident agency, received the Outstanding
that discussed methods for reviewing the                     Contributions in Law Enforcement award.
adequacy of security over biological, chemical, and
radioactive agents that have the potential of                PCIE Awards - October 17, 2001
conversion to weapons of mass destruction. OIG
representatives from our office, Department of               z   Ten staff members from the Offices of
Defense, Health and Human Services, and the                  Investigations and Healthcare Inspections received
Department of Agriculture have been meeting                  recognition as part of an interdisciplinary team
quarterly on this very important issue.                      whose hard work contributed significantly to the
                                                             successful prosecution of two high-profile
z    OIG Financial Audit Division staff participate          murderers. The murder investigative team
in the audit executive committee financial                   consisted of Bruce Sackman; Samantha Lockery;
statements audit workgroup. The workgroup                    Jennifer Pate; Steven Plante; Thomas Valery;
facilitates communication of financial statement             Kevin Murphy, Patricia Christ, RN; Linda
audit issues throughout the Federal community.               DeLong, RN; Fidelita Levy; and Rayda
                                                             Nadal, RN.
OIG Management Presentations
                                                             z    The Central Office Audit Operations Division
Leadership VA 2001 Program                                   Director, Steve Gaskell, and staff members Greg
                                                             Gibson, Henry Hoffman, Jeff McGowan, and
The Inspector General made a presentation on the             Melvin Reid received a PCIE audit team award
work of the OIG to the Leadership VA Class of                for excellence in auditing VHA’s pharmacy co-
2001. This program is VA’s premier leadership                payment levels and restrictions on filling privately
development program.                                         written prescriptions for priority group 7 veterans
                                                             that identified potential cost efficiencies of over
IG Academy                                                   $1.6 billion.

Recognizing the experience and expertise of the              z    Tom Phelps, OIG Central Office Audit
OIG Office of Investigations, Computer Crimes                Operations Division audit manager, received a
and Forensics Program, the IG Academy has                    PCIE award for exceptional performance as part
requested assistance developing and instructing a            of the PCIE Information Technology Roundtable
course for “responding to electronic evidence.”              Committee that conducted an extensive analysis of
Robert Friel, Office of Investigation program                OIG community information technology resources.
director has create lesson plans and teaching slides
for the first two classes to be held in Washington,
D.C. this summer.




                                                       63

Other Significant OIG Activities

Association of Government
Accountants
Senior Auditor Randall Alley served as President
of the Seattle Chapter of the Association of
Government Accountants (AGA) for 2001. Under
his leadership, the Seattle Chapter received the
Platinum Award, the AGA’s highest level of
recognition, for superior chapter accomplihsments.

OIG Congressional Testimony

In March 2002, the Inspector General testified
before the Subcommittee on Oversight and
Investigations, House Committee on Veterans’
Affairs. The testimony provided OIG’s
assessment of VA’s information security program.

Obtaining Required Information or
Assistance

z   Sections 5(a)(5) and 6(b)(2) of the Inspector
General Act of 1978 require the Inspector General
to report instances where access to records or
assistance requested was unreasonably refused,
thus hindering the ability to conduct audits or
investigations. During this 6-month period, there
were no reportable instances under these sections
of the Act.

z   Under Public Law 95-452, the IG has
authority “… to require by subpoena the
production of all information, documents, reports,
answers, records, accounts, papers, and other data
and documentary evidence necessary . . . .” The
use of IG subpoena authority has proven valuable
in our efforts, especially in cases dealing with third
parties. During this reporting period, the OIG
issued 27 subpoenas in conjunction with OIG
investigations and audits.




                                                         64

                                             APPENDIX A

                             DEPARTMENT OF VETERANS AFFAIRS
                               OFFICE OF INSPECTOR GENERAL
                                   REVIEWS BY OIG STAFF


  Report                                                               Funds Recommended
 Number/                                                                  for Better Use   Questioned
Issue Date                      Report Title                            OIG     Management   Costs

COMBINED ASSESSMENT PROGRAM REVIEWS

01-00222-7    Combined Assessment Program Review of the VA
10/5/01       Medical and Regional Office Center Wilmington, DE

01-01254-10   Combined Assessment Program Review of the
10/9/01       Spark M. Matsunaga VA Medical and Regional Office
              Center Honolulu, HI

01-00504-9    Summary Report, Combined Assessment Program Reviews
10/10/01      at Veterans Health Administration Medical Facilities
              (January 1999-March 2001)

01-02016-13   Combined Assessment Program Review of the Alaska           $46,210      $46,210
10/15/01      VA Healthcare System and Regional Office

01-01253-14   Combined Assessment Program Review of the VA              $486,703     $486,703
10/31/01      Boston Healthcare System

01-01252-37   Combined Assessment Program Review of the John           $2,422,878   $2,422,878
12/20/01      D. Dingell Veterans Affairs Medical Center Detroit, MI

01-01515-40   Combined Assessment Program Review of the                 $729,698     $729,698
1/2/02        Kansas City VA Medical Center

01-02123-43   Combined Assessment Program Review of the                 $128,520     $128,520
1/17/02       Samuel S. Stratton VA Medical Center Albany, NY

01-00686-44   Combined Assessment Program Review of the VA
1/24/02       Medical Center Louisville, KY

01-02213-31   Combined Assessment Program Review of the VA               $49,000      $49,000
1/28/02       Regional Office New Orleans, LA

00-02097-46   Combined Assessment Program Review of the VA             $3,421,139   $3,421,139
1/29/02       Medical Center Minneapolis, MN

01-02124-71   Combined Assessment Program Review of the VA              $503,000     $503,000
3/21/02       Regional Office Oakland, CA




                                                        65

  Report                                                             Funds Recommended
 Number/                                                                for Better Use   Questioned
Issue Date                       Report Title                         OIG     Management   Costs

INTERNAL AUDITS

00-02797-1    Audit of the Department of Veterans Affairs
10/24/01      Information Security Program

01-00046-65   Audit of the Medical Care Collection Fund              $503,629,350   $503,629,350
2/26/02       Program

01-01463-69   Report of the Audit of the Department of Veterans
2/27/02       Affairs Consolidated Financial Statements for
              Fiscal Years 2001 and 2000

01-00949-81   Audit of VA’s HR LINK$ Payroll and Human
3/29/02       Resources System Replacement Project                   $1,407,000     $1,407,000     $17,834

OTHER OFFICE OF AUDIT REVIEWS

01-00290-22   Review of Hotline Complaint, VA Programs in New
10/31/01      York State Prisons

01-02655-38   Allegations of Mismanagement in the Biomedical
12/28/01      Engineering Section at the East Campus, Central
              Alabama Veterans Health Care System

02-00198-42   Report on Promptness of Department of Veterans
1/15/02       Affairs’ Payments to the District of Columbia Water
              and Sewer Authority for First Quarter of Fiscal Year
              2002

01-00263-53   Follow-up Evaluation of the Causes of                   $26,634,780    $26,634,780
2/20/02       Compensation and Pension Overpayments

01-02957-75   Special Review of VA Compensation and Pension
3/29/02       One-Time Payments and Related Security Controls

CONTRACT REVIEWS *

00-02087-6    Review of Proposal Submitted by Stanford                  $554,705
10/3/01	      University School of Medicine Under Solicitation
              Number RFP V261P-0450, for Anesthesiology
              Services at the Department of Veterans Affairs
              Medical Center Palo Alto, CA

00-01709-8    Review of Proposal Submitted by Stanford                 $174,181
10/3/01	      University School of Medicine Under Solicitation
              Number RFP 261-0078-00 for Vascular Surgery
              Services at the Department of Veterans Affairs
              Medical Center Palo Alto, CA

* Management estimates are not applicable to contract reviews. Cost avoidances resulting from these
reviews are determined when the OIG receives the contracting officer’s decision on the recommendations.
                                                          66

  Report                                                               Funds Recommended
 Number/                                                                  for Better Use   Questioned
Issue Date                       Report Title                           OIG     Management   Costs
CONTRACT REVIEWS (Cont’d)

01-00141-15    Review of Roxane Laboratories, Inc.’s Disclosures                             $35,156
10/26/01       Under Federal Supply Schedule Contract Number
               V797P-5348X

02-00006-16    Verification of Medi-Physics, Inc., Nycomed                                    $1,009
11/5/01        Amersham Imaging’s Self-Audit Under Federal
               Supply Schedule Contract Number V797P-5741n,
               and Interim Agreement Number 90NM-00-15

01-02708-23    Audit of Termination for Convenience Settlement             $26,283
11/9/01        Proposal Submitted by Inner-City Transit
               Corporation Under Contract Number V10N3P-0817

00-01721-24    Final Report, Post-Award Review of Federal Supply
11/9/01	       Schedule Contract V797P-3626k Awarded to
               Johnson & Johnson Health Care Systems, Inc. on
               Behalf of the Codman Division of Johnson & Johnson
               Professional, Inc.

00-02778-25    Review of Ernst & Young LLP’s Analysis of Ortho                             $4,193,979
11/15/01       Clinical Diagnostics Systems, Inc. Federal Supply
               Schedule Contract Prices on Contract V797P-5033n

99-00068-26    Settlement Agreement, Lifescan, Inc. Postaward                            $14,550,000
11/15/01       Review

02-00008-27    Review of Voluntary Disclosure and Refund Offer                              $764,564
11/20/01	      Under Federal Supply Schedule Contract Numbers
               V797P-5554m, V797P-5728m, and V797P-5354x,
               Awarded to Ciba-Geigy Corporation, Sandoz
               Pharmaceuticals, and Novartis Pharmaceuticals Corporation

00-02786-32    Review of Ernst & Young LLP’s Analysis of Ortho-
12/12/01       Clinical Diagnostics, Inc.’s Federal Supply Schedule
               Contract V797P-6717a

00-02785-35    Review of Ernst & Young LLP’s Analysis of J&J

12/17/01       Depuy, Inc.’s Federal Supply Schedule Contract V797P-3304k                     $3,184


02-00289-39    Verification of Alcon Laboratories’ Self-Audit Under                           $1,107

12/26/01       Federal Supply Schedule Contract Number V797P-5352x


00-02787-36    Review of Ernst & Young LLP’s Analysis of Ortho-
1/9/02         Clinical Diagnostics, Inc.’s Federal Supply Schedule
               Contract V797P-6565a

02-00287-47	   Verification of Tyco Healthcare LP’s (dba Kendall                            $211,424
1/24/02        Healthcare) Self-Audit Under Federal Supply
               Schedule Contract Number V797P-3147k


                                                         67

  Report                                                            Funds Recommended
 Number/                                                               for Better Use   Questioned
Issue Date                      Report Title                         OIG     Management   Costs

CONTRACT REVIEWS (Cont’d)

00-01720-48   Settlement Agreement, Johnson & Johnson                                    $375,821
1/24/02       Professional, Inc. (Codman) Under Federal Supply
              Schedule Contract Number V797P-3032k

02-00302-49   Verification of Forest Laboratories’ Self-Audit                              $6,540
1/28/02       Under Federal Supply Schedule Contract Number
              V797P-5346x

00-02847-50   Review of Voluntary Disclosure and Refund Offer                                $466
1/28/02	      Under Federal Supply Schedule Contract Number
              V797P-5383x Awarded to Johnson & Johnson
              Health Care Systems, Incorporated on Behalf of
              Ortho Clinical Diagnostics, Incorporated

01-02456-51   Review of Federal Supply Schedule Proposal            $1,765,114
1/28/02       Submitted by United States Surgical Under
              Solicitation Number RFP 797-FSS-99-0025

01-02777-54   Review of Proposal Submitted by the University of      $829,403
1/30/02	      Missouri Department of Radiology Under
              Solicitation Number RFP V15-01-0129 for Imaging
              Services at the Harry S. Truman Memorial Veterans
              Hospital Columbia, MO

01-02716-55   Review of Proposal Submitted by the University of       $98,834
1/30/02	      Missouri Department of Surgery Under Solicitation
              Number RFP V15-01-0012 for Vascular Surgery
              Services at the Harry S. Truman Memorial Veterans
              Hospital Columbia, MO

01-02676-56   Review of Proposal Submitted by the University of       $64,902
1/31/02	      Missouri Department of Surgery Under Solicitation
              Number RFP V15-01-0105 for General Surgery
              Services at the Harry S. Truman Veterans Hospital
              Columbia, MO

01-01342-62   Postaward Review of Pride Mobility Products, Inc.’s                         $17,925
2/13/02       Federal Supply Schedule Contract Number
              V797P-3124k

01-01586-63   Review of Sunrise Medical’s Voluntary Disclosure                            $86,065
2/14/02       and Proposed Refund Offer Under Federal Supply
              Schedule Contract Numbers V797P-3381k, V797P-3399j,
              V797P-3141k, V797P-3634j, V797P-3222k

02-00274-67   Review of Nycomed Amersham’s Implementation of                              $119,385
2/21/02       Section 603, Drug Pricing Provisions of Public Law
              102-585, Under Federal Supply Schedule Contract
              Numbers V797P-5982n and V797P-5317x


                                                       68

  Report                                                           Funds Recommended
 Number/                                                              for Better Use   Questioned
Issue Date                      Report Title                        OIG     Management   Costs
CONTRACT REVIEWS (Cont’d)

02-00393-70   Verification of InterMune Pharmaceuticals, Inc.’s                             $690
2/27/02       Self-Audit Under Federal Supply Schedule Contract
              Number V797P-5435x

02-00562-72   Review of Proposal Submitted by the University of        $244,869
3/6/02	       Pittsburgh Physicians Under Solicitation Number
              RFP 646-07-02 for Thoracic Surgeon Services at the
              University Drive Division of the Pittsburgh
              Healthcare System

01-02118-73   Review of Standard Textile Company, Inc.’s                                  $84,494
3/6/02        Voluntary Disclosure and Proposed Refund Under
              Federal Supply Schedule Contract V797P-3779j

02-01033-77   Review of GE OEC Medical Systems, Inc.’s Direct           $21,053
3/21/02       Delivery Pricing Proposal Under Solicitation
              Number M6-Q1-01

00-01157-80   Review of Watson Pharma, Inc.’s Disclosures Under                          $401,203
3/27/02       Federal Supply Schedule Contract Number
              V797P-5339x

01-01541-82   Review of Federal Supply Schedule Proposal               $724,296
3/28/02       Submitted by Allegiance Healthcare Corporation
              Under Solicitation Number M5-Q52C-00

02-00815-83   Review of Muro Pharmaceuticals, Inc.’s
3/28/02       Implementation of Section 603 Drug Pricing
              Provisions of Public Law 102-585 Under Federal
              Supply Schedule Contract Number V797P-5377x


ADMINISTRATIVE INVESTIGATIONS

01-01661-12   Administrative Investigation, Physician Time and                             $9,826
10/16/01      Attendance Issue, Harry S. Truman Memorial
              Veterans’ Hospital Columbia, MO

01-02230-17   Administrative Investigation, Physician Time and                             $5,190
10/30/01      Attendance Issues, VA Medical Center Kansas City,
              MO

01-01994-34   Administrative Investigation, Physician Time and
12/17/01      Attendance Issue, VA Medical Center Philadelphia,
              PA

01-02075-33   Administrative Investigation, Burial of Indigent
12/18/01      Veterans Issue, Veterans Benefits Administration




                                                        69

  Report                                                               Funds Recommended
 Number/                                                                  for Better Use   Questioned
Issue Date                       Report Title                           OIG     Management   Costs

ADMINISTRATIVE INVESTIGATIONS (Cont’d)
01-01129-41    Administrative Investigation, Veterans Canteen
1/25/02	       Service Promotional Fund Issue, Veterans Canteen
               Service St. Louis, MO

01-02982-59    Administrative Investigation, Fees for Legal Services
2/6/02	        Issue, Office of General Counsel and Offices of
               Regional Counsel

01-02720-74    Administrative Investigation, Unspent Research
3/11/02        Funds Issue, VA Medical Center Washington, DC

HEALTHCARE INSPECTIONS

01-00981-2     Healthcare Inspection, Board of Investigation and
10/2/01	       Patient Care Issues, VA Medical and Regional
               Office Center Fargo, ND

01-00809-3     Healthcare Inspection, Patient Transfer and
10/2/01        Discharge Issues, VA Medical Center Brooklyn, NY

00-02913-4     Healthcare Inspection, VA Hemodialysis Program,
10/2/01	       Louis Stokes Veterans Affairs Medical Center
               Cleveland, OH

01-00900-11    Healthcare Inspection, Reporting Infractions to the
10/30/01       National Practitioner Data Bank, Veterans Affairs
               Medical Center Fayetteville, NC

01-01345-5     Healthcare Inspection, Allegations of Poor Care,
11/16/01       Veterans Affairs Medical Center Houston, TX

01-01951-19    Healthcare Inspection, Alleged Substandard Care
11/19/01	      Provided to a Patient at the Department of Veterans
               Affairs Medical Center Chillicothe, OH

01-01848-57    Healthcare Inspection, Homeless Veterans Issues
2/25/02	       James H. Quillen VA Medical Center Mountain
               Home, TN

02-00078-61    Healthcare Inspection, Patient Care Issues, Southern
2/25/02	       Arizona Veterans Affairs Health Care System
               Tucson, AZ

01-00026-68    Evaluation of Veterans Health Administration
2/25/02        Coding Accuracy and Compliance Program

01-02889-60	   Healthcare Inspection, Contract Nursing Home
2/26/02        Issues, North Florida/South Georgia Veterans Health
               System


                                                         70

  Report                                                            Funds Recommended
 Number/                                                               for Better Use   Questioned
Issue Date                      Report Title                         OIG     Management   Costs
HEALTHCARE INSPECTIONS (Cont’d)

01-02748-64   Healthcare Inspection, Treatment Quality and
3/7/02        Service Issues at the VA Northern Indiana Health
              Care System

01-02956-66   Healthcare Inspection, Nurse Licensing Issue,
3/13/02       VA Maryland Health Care System

02-00266-76   Review of Security and Inventory Controls Over
3/14/02	      Selected Biological, Chemical, and Radioactive
              Agents Owned by or Controlled at Department of
              Veterans Affairs Facilities

00-01362-45   Healthcare Inspection, Veterans Health
3/22/02       Administration Therapeutic Interchange Practices

99-01417-28   Healthcare Inspection, Quality of Care and Safety
3/26/02       Issues, Department of Veterans Affairs Medical
              Center San Juan, PR


TOTAL:                          74 Reports                        $543,961,918 $539,458,278 $20,885,862




                                                       71

72

                                               APPENDIX B

                           CONTRACT REVIEW REPORTS FOR WHICH A

                               CONTRACTING OFFICER DECISION

                           HAD NOT BEEN MADE FOR OVER 6 MONTHS


                                                            Recommended   Reason for Delay
                                                  Questioned Better Use   and Planned Date
Report Title, Number,and Issue Date                 Costs      of Funds    for a Decision

OFFICE OF ACQUISITION AND MATERIEL MANAGEMENT

Final Report Review of Proposal Submitted by                   $297,833   Pending receipt of
University of Pittsburgh Physicians for Anesthesiology                    contracting officer price
Physician Services at the University Drive Division,                      negotiation memorandum
VA Pittsburgh Healthcare System, Pittsburgh, PA,                          (PNM); no planned
00-01584-73, 5/31/00                                                      resolution date available.

Review of Federal Supply Schedule Proposal                                Pending receipt of
Submitted by Omnicell, Inc., Under Solicitation                           contracting officer PNM;
Number RFP-797-FSS-99-0025, 01-00460-39, 1/31/01                          anticipated award date is
                                                                          April 15, 2002.

Review of Proposal Submitted by Department of                  $335,160   Pending receipt of
Radiology, University of Arkansas for Medical                             contracting officer PNM;
Sciences Under Solicitation Number RFP V598P-1092                         no planned resolution
for Nuclear Medicine Services at the Central Arkansas                     date available.
Veterans Healthcare System Little Rock, AR,
01-01130-93, 6/20/01

Review of Proposal Submitted by Department of                  $760,347   Pending receipt of
Radiology University of Arkansas for Medical                              contracting officer PNM;
Sciences Under Solicitation Number RFP V598P-1093                         no planned resolution
for Radiologic Professional Services at the Central                       date available.
Arkansas Healthcare System Little Rock, AR,
01-00706-95, 6/21/01

Review of Proposal Submitted by University of Miami,           $395,040   Pending receipt of
Department of Anesthesiology, Under Solicitation                          contracting officer PNM;
Number RFP 546-44-01, for Anesthesiology Services                         no planned resolution
at the Department of Veterans Affairs Medical Center                      date available.
Miami, FL, 01-02074-132, 8/23/01

Review of Proposal Submitted by Spacelabs Medical,             $336,520   Pending receipt of
Under Solicitation Number RFP-797-FSS-99-0025, for                        contracting officer PNM;
Medical Equipment and Supplies, 01-01584-136, 9/14/01                     anticipated award date
                                                                          is June 1, 2002.




                                                         73

74

                                                APPENDIX C


                            FOLLOW UP/RESOLUTION OF OIG REPORTS

The Inspector General Act Amendments of 1988 require identification of all significant management decisions with
which the Inspector General is in disagreement and all significant and other recommendations unresolved for over 6
months (management decisions not made). We had no Inspector General disagreements on significant management
decisions and there were no internal audit reports unresolved for over 6 months as of the end of this reporting period.
Contract review reports unresolved for over 6 months are included in Appendix B.

Following are tables which provide a summary of the number of OIG reports with potential monetary benefits that
were unresolved at the beginning of the period, the number of reports issued and resolved during the period with
potential monetary benefits, and the number of reports that remained unresolved at the end of the period.

As required by the IG Act Amendments, Tables 1 - 3 provide statistical summaries of unresolved and resolved
reports for this reporting period. The dollar figures used throughout this report are based on the definitions
included in the IG Act Amendments of 1988. The figures may reflect changes from the data in the individual
reports due to OIG validation to ensure compliance with the IG Act Amendments definitions.


TABLE 1 - SUMMARY OF UNRESOLVED AUDIT REPORTS



Table 1 provides a summary of all unresolved reports and the length of time they have been
unresolved.

                MONTHS                    TYPE AUDIT                    NUMBER          TOTAL

                                          Internal Audit                      0
                  Over
                                                                                            6
                6 Months
                                        Contract Review                       6

                   L e ss                 Internal Audit                      0
                  Than 6                                                                    8
                  Months                Contract Review                       8

                                                             TOTAL                         14



Tables 2 and 3 show a total of 13 reports that were unresolved as of March 31, 2002. This number differs
from the 14 reports shown above because tables 2 and 3 include only reports with monetary benefits as
required by the IG Act Amendments. Tables 2 and 3 also provide the reports resolved during the period with
the OIG estimates of disallowed costs and funds to be put to better use, including those in which management
agreed to implement OIG recommendations and those in which management did not agree to implement OIG
recommendations. The Assistant Secretary for Management maintains data on the agreed upon reports and
Management estimates of disallowed costs and funds to be put to better use in order to comply with the
reporting requirements for the Secretary’s Management Report to Congress, required by the IG Act
Amendments.

                                                          75

TABLE 2 - RESOLUTION STATUS OF REPORTS WITH QUESTIONED COSTS


Table 2 summarizes reports, the dollar value of questioned costs, and the costs disallowed and
allowed.

                                                                       N U MB ER        QU ESTION ED
                      R ESOLU TION STATU S                                 OF               C OSTS
                                                                       R EPOR TS         (In Millions)

      No management deci si on by 9/30/01                                      0               $0

      Issued duri ng reporti ng peri od                                      20                $20.9

             Total Inventory This Period                                     20                $20.9

      Management deci si on duri ng reporti ng peri od

          D i sallowed costs (agreed to by management)                       20                $20.9

          Allowed costs (not agreed to by management)                          0               $0

             Total Management D ecisions This Period                         20                $20.9

             Total C arried Over to N ext Period                               0               $0




Definitions:

    Questioned Costs
         For audit reports, it is the amounts paid by VA and unbilled amounts for which the OIG recommends
VA pursue collection, including Government property, services or benefits provided to ineligible recipients;
recommended collections of money inadvertently or erroneously paid out; and recommended collections or
offsets for overcharges or ineligible costs claimed.
         For contract review reports, it is contractor or grantee costs OIG recommends be disallowed by the
contracting officer, grant official, or other management official. Costs normally result from a finding that
expenditures were not made in accordance with applicable laws, regulations, contracts, grants, or other
agreements; or a finding that the expenditure of funds for the intended purpose was unnecessary or
unreasonable.

    Disallowed Costs are costs that contracting officers, grant officials, or management officials have
determined should not be charged to the Government and which will be pursued for recovery; or on which
management has agreed that VA should bill for property, services, benefits provided, monies erroneously paid
out, overcharges, etc. Disallowed costs do not necessarily represent the actual amount of money that will be
recovered by the Government due to unsuccessful collection actions, appeal decisions, or other similar actions.

    Allowed Costs are amounts on which contracting officers, grant officials, or management officials have
determined that VA will not pursue recovery of funds.




                                                      76

TABLE 3 - RESOLUTION STATUS OF REPORTS WITH RECOMMENDED
          FUNDS TO BE PUT TO BETTER USE BY MANAGEMENT

Table 3 summarizes reports with Recommended Funds to be Put to Better Use by management, and the dollar
value of recommendations that were agreed to and not agreed to by management.

                                                                                  R EC OMMEN D ED
                                                                 N U MB ER
                                                                                 FU N D S TO B E P U T
                  R ESOLU TION STATU S                               OF
                                                                                  TO B E TTE R U S E
                                                                 R EPOR TS
                                                                                     (In Millions)

    No management deci si on by 9/30/01                               11                  $1,492.7

    Issued duri ng reporti ng peri od                                 21                    $543.9

        Total Inventory This Period                                   32                  $2,036.6

    Management deci si ons duri ng reporti ng peri od

       Agreed to by management                                       16                   $2,025.8

       Not agreed to by management                                     3                       $4.9

        Total Management D ecisions This Period                      19                   $2,030.7

        Total C arried Over to N ext Period                          13                        $5.9


Definitions:

    Recommended Better Use of Funds
         For audit reports, it represents a quantification of funds that could be used more efficiently if
management took actions to complete recommendations pertaining to deobligation of funds, costs not incurred
by implementing recommended improvements, and other savings identified in audit reports.
         For contract review reports, it is the sum of the questioned and unsupported costs identified in
preaward contract reviews which the OIG recommends be disallowed in negotiations unless additional evidence
supporting the costs is provided. Questioned costs normally result from findings such as a failure to comply
with regulations or contract requirements, mathematical errors, duplication of costs, proposal of excessive
rates, or differences in accounting methodology. Unsupported costs result from a finding that inadequate
documentation exists to enable the auditor to make a determination concerning allowability of costs proposed.

    Dollar Value of Recommendations Agreed to by Management provides the OIG estimate of funds that
will be used more efficiently based on management’s agreement to implement actions, or the amount
contracting officers disallowed in negotiations, including the amount associated with contracts that were not
awarded as a result of audits.

    Dollar Value of Recommendations Not Agreed to by Management is the amount associated with
recommendations that management decided will not be implemented, or the amount of questioned and/or
unsupported costs that contracting officers decided to allow.




                                                      77

78

                                             APPENDIX D


               REPORTING REQUIREMENTS OF THE INSPECTOR GENERAL

The table below cross-references the reporting requirements to the specific pages where they are prescribed by
the Inspector General Act of 1978 (Public Law 95-452), as amended by the Inspector General Act
Amendments of 1988 (Public Law 100-504), and the Omnibus Consolidated Appropriations Act of 1997
(Public Law 104-208).

 IG Act
References                             Reporting Reqirements                                         Page

Section 4 (a) (2)    Review of legislation and regulations                                               52

Section 5 (a) (1)    Significant problems, abuses, and deficiencies                                   1-61

Section 5 (a) (2)	   Recommendations with respect to significant problems, abuses, and                1-61
                     deficiencies

Section 5 (a) (3)	   Prior significant recommendations on which corrective action has not been           75
                     completed

Section 5 (a) (4)	   Matters referred to prosecutive authorities and resulting prosecutions and            i
                     convictions

Section 5 (a) (5)    Summary of instances where information was refused                                 64

Section 5 (a) (6)	   List of audit reports by subject matter, showing dollar value of              65 to 71
                     questioned costs and recommendations that funds be put to better use         (App. A)

Section 5 (a) (7)    Summary of each particularly significant report                                 i to vi

Section 5 (a) (8)	   Statistical tables showing number of reports and dollar value of                   76
                     questioned costs for unresolved, issued, and resolved reports                (Table 2)

Section 5 (a) (9)	   Statistical tables showing number of reports and dollar value of                   77
                     recommendations that funds be put to better use for unresolved,              (Table 3)
                     issued, and resolved reports

Section 5 (a) (10)   Summary of each audit report issued before this reporting period for               73
                     which no management decision was made by end of reporting period             (App. B)

Section 5 (a) (11)   Significant revised management decisions                                        None

Section 5 (a) (12)	 Significant management decisions with which the Inspector General                None
                    is in disagreement




                                                       79

80

                                                 APPENDIX E



                                      OIG OPERATIONS PHONE LIST

Investigations

Central Office Investigations Washington, DC ...................................................... (202) 565-7702

Northeast Field Office (51NY) New York, NY ........................................................ (212) 807-3444

      Bedford Resident Agency (51BN) Bedford, MA ................................................ (781) 687-3138

      Newark Resident Agency (51NJ) Newark, NJ .................................................. (973) 297-3338

      Pittsburgh Resident Agency (51PB) Pittsburgh, PA ............................................. (412) 784-3818

      Washington Resident Agency (51WA) Washington, DC ...................................... (202) 691-3338

Southeast Field Office (51SP) Bay Pines, FL ......................................................... (727) 398-9559

      Atlanta Resident Agency (51AT) Atlanta, GA ..................................................... (404) 929-5950

      Columbia Resident Agency (51CS) Columbia, SC ............................................. (803) 695-6707

      Nashville Resident Agency (51NV) Nashville, TN .............................................. (615) 736-7200

      West Palm Beach Resident Agency (51WP) West Palm Beach, FL .................... (561) 882-7720

Central Field Office (51CH) Chicago, IL ................................................................ (708) 202-2676

      Denver Resident Agency (51DV) Denver, CO ................................................... (303) 331-7673

      Cleveland Resident Agency (51CL) Cleveland, OH .......................... (440) 526-3030, ext. 6726

      Kansas City Resident Agency (51KC) Kansas City, KS ..................................... 913) 551-1439

South Central Field Office (51DA) Dallas .............................................................. (708) 202-2676

      Houston Resident Agency (51HU) Houston, TX ................................................ (713) 794-3652

      New Orleans Resident Agency (51NO) New Orleans, LA ................................. (504) 619-4340

Western Field Office (51LA) Los Angeles, CA ...................................................... (310) 268-4268

      Phoenix Resident Agency (51PX) Phoenix, AZ ................................................... (602) 640-4684

      San Diego Resident Agency (51SD) San Diego, CA .......................................... (310) 268-4268

      San Francisco Resident Agency (51SF) Oakland, CA ........................................ (510) 637-1074

      Seattle Resident Agency (51SE) Seattle, WA ........................................... (206) 220-6654, ext 31



Healthcare Inspections

Central Office Operations Washington, DC ........................................................... (202) 565-8305

Healthcare Regional Office Atlanta (54AT) Atlanta, GA ...................................... (404) 929-5961

Healthcare Regional Office Chicago (54CH) Chicago, IL .................................... (708) 202-2672

Healthcare Regional Office Los Angeles (54LA) Los Angeles, CA ..................... (310) 268-3005

                                             81

                               OIG OPERATIONS PHONE LIST (CONT’D)


Audit


Central Office Operations Washington, DC ........................................................... (202) 565-4625

Central Office Operations Division (52CO) Washington, DC ............................... (202) 565-4434

Contract Review and Evaluation Division (52C) Washington, DC ....................... (202) 565-4818

Financial Audit Division (52CF) Washington, DC .................................................. (202) 565-7913

Operations Division Atlanta (52AT) Atlanta, GA ................................................... (404) 929-5921

Operations Division Bedford (52BN) Bedford, MA .............................................. (781) 687-3120

      Philadelphia Residence (52PH) Philadelphia, PA ................................................ (215) 381-3052

Operations Division Chicago (52CH) Chicago, IL ................................................. (708) 202-2667

Operations Division Dallas (52DA) Dallas, TX ..................................................... (214) 655-6000

      Austin Residence (52AU) Austin, TX ................................................................. (512) 326-6216

Operations Division Kansas City (52KC) Kansas City, MO ................................ (816) 426-7100

Operations Division Los Angeles (52LA) Los Angeles, CA .................................. (310) 268-4335

Operations Division Seattle (52SE) Seattle, WA ................................................... (206) 220-6654





                                                            82

                                APPENDIX F


                                   GLOSSARY


A&MM      Acquisition and Materiel Management

BDN       Benefits Delivery Network

C-file    Claims Folder

CAP       Combined Assessment Program

C&P       Compensation & Pension

CIO       Chief Information Officer

CNH       Contract Nursing Home

DAS       Data Analysis Section

DEA       Drug Enforcement Administration

DIC       Dependency and Indemnity Compensation

DoD       Department of Defense

FBI       Federal Bureau of Investigation

FOIA/PA   Freedom of Information Act/Privacy Act

FSS       Federal Supply Schedule

FTE       Full Time Equivalent

FY        Fiscal Year

GISRA     Government Information Security Reform Act

HEC       Health Eligibility Center

HRM       Human Resource Management

IG        Inspector General

IT        Information Technology

IVM       Income Verification Match

MCCF      Medical Care Cost Fund

MCI       Master Case Index

NCA       National Cemetery Administration

NP        Nurse Practitioner

NPDB      National Practitioner Data Bank

OGC       Office of General Counsel

OHI       Office of Healthcare Inspections

OIG       Office of Inspector General

OMB       Office of Management and Budget

OPM       Office of Personnel Management

OTP       One-Time Payment

PDAS      Principal Deputy Assistant Secretary

PNM       Price Negotiation Memorandum

SSA       Social Security Administration

U.S.      United States

VA        Department of Veterans Affairs

VAMC      Veterans Affairs Medical Center

VARO      VA Regional Office

VBA       Veterans Benefits Administration

VCS       Veterans Canteen Service

VERA      Veterans Equitable Resource Allocation

VHA       Veterans Health Administration

VISN      Veterans Integrated Service Network





                                          83

Copies of this report are available to the public. Written requests should be sent to:


                Office of the Inspector General (53B)
                Department of Veterans Affairs
                810 Vermont Avenue, NW
                Washington, DC 20420


The report is also available on our Web Site:

                http://www.va.gov/oig/53/semiann/reports.htm

For further information regarding VA’s OIG, you may call 202-565-8620.




Cover photo of:

Sailor

African American Civil War Memorial,

Washington, DC





                                        84

Help VA’s Secretary ensure the integrity of depar tmental
operations by reporting suspected criminal activity, waste, or
abuse in VA programs or operations to the Inspector General
Hotline.


            (CALLER CAN REMAIN ANONYMOUS)




To Telephone:         (800) 488 - 8244
                      (800) 488 - VAIG
FAX:                  (202) 565 - 7936

To Send
Correspondence:       Department of Veterans Affairs
                      Inspector General Hotline (53E)
                      P.O. Box 50410
                      Washington, DC 20091-0410

Internet Homepage: http://www.va.gov/oig/hotline/hotline.htm

E-mail Address:       vaoighotline@mail.va.gov




                   Department of Veterans Affairs
                     Office of Inspector General
                         Semiannual Report

                  October 1, 2001 - March 31, 2002
